APPENDIX

1a
APPENDIX A
_________
SUPREME COURT OF TEXAS
_______
THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,
Petitioners,
v.
THE EPISCOPAL CHURCH, ET AL.,
Respondents.
_______
No. 18-0438
_______
Argued December 5, 2019
Opinion Delivered May 22, 2020
_______
OPINION
_______
Justice Guzman delivered the opinion of the Court.
Following a disagreement over religious doctrine,
the Episcopal Diocese of Fort Worth and a majority
of its congregations withdrew from The Episcopal
Church. The church replaced the diocese’s leaders
with church loyalists, and both the disaffiliating and
replacement factions claimed ownership of property
held in trust for the diocese and local congregations.
As all parties agree, a corporate entity holds legal
title to the disputed property for the benefit of the

2a
Episcopal Diocese of Fort Worth and congregations
in union with that diocese’s convention.1 The central
issue on appeal is narrow: which faction of the
splintered Episcopal diocese is the “Episcopal
Diocese of Fort Worth”? The withdrawing faction
contends that under the diocese’s organizational
documents, the unincorporated association’s identity
is determined by the majority. The church and the
loyalists contend the entity’s identity is an
ecclesiastical determination the First Amendment
requires courts to accept and, under secular law, a
subordinate entity in a tiered association cannot
unilaterally withdraw from the association even
under organizational documents providing for
majority rule.
When this property dispute first came to the Court
on direct appeal seven years ago, we held that what
happens to property following a religious entity’s
disassociation from a hierarchical church is a
nonecclesiastical issue to be determined based on the
same neutral principles of law applicable to other
entities unless the entity’s affairs “have been ordered
so that ecclesiastical decisions effectively determine
the property issue.”2 Applying neutral principles to
the undisputed facts, we hold that (1) resolution of
this property dispute does not require consideration

1

Most of the disputed property is held in trust for a
particular congregation, but some property, including
administrative and recreational buildings, is held in trust for
the diocese.
2

Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 650 (Tex. 2013); Masterson v. Diocese of Nw. Tex.,
422 S.W.3d 594, 607 (Tex. 2013).

3a
of an ecclesiastical question,3 (2) under the governing
documents, the withdrawing faction is the Episcopal
Diocese of Fort Worth, and (3) the trial court
properly granted summary judgment in the
withdrawing faction’s favor. We therefore reverse the
court of appeals’ contrary judgment.
I. Background
The Episcopal Church (TEC) in the United States
is a three-tiered religious organization founded in
1789. The first and highest tier of the organization is
the General Convention, which consists of
representatives from each regional diocese and most
TEC bishops. 4 The second tier is composed of
geographically defined regional dioceses, each of
which is governed by its own constitution and canons
but must also accede to the General Convention’s
constitutions and canons. 5 Each diocese elects a
bishop (Diocesan Bishop) who is subject to TEC’s
ecclesiastical regulation, and each diocese is
governed by a legislative body called a convention
(Diocesan Convention). The Diocesan Bishop, clergy,
and lay representatives from each congregation in
the diocese comprise the convention. The third tier is
3

See Jones v. Wolf, 443 U.S. 595, 604, 99 S.Ct. 3020, 61
L.Ed.2d 775 (1979) (“[T]here may be cases where the deed, the
corporate charter, or the constitution of the general church
incorporates religious concepts in the provisions relating to the
ownership of property.”).
4

A “convention” is a legislative body of the church, and the
“General Convention” is the national legislative body of the
Episcopal Church. An Episcopal Dictionary of the Church,
https://episcopalchurch.org/library/glossary/general-convention.
5

“Canons are the written rules that provide a code of laws for
the governance of the church.” Id.

4a
composed of local parishes, missions, and
congregations, which in turn adopt the constitution
and canons of their regional diocese and the General
Convention.
In 1982, the Episcopal Diocese of Fort Worth (Fort
Worth Diocese) was formed as an unincorporated
association after the Episcopal Diocese of Dallas
voted to divide. Since its inception, the Fort Worth
Diocese’s constitution has provided that church
property “acquired for the use of a particular Parish
or Mission” shall be held by the Corporation of the
Episcopal Diocese of Fort Worth (the Diocesan
Corporation) “in trust for the use and benefit of such
Parish or Mission” that is in union with the diocese’s
convention (the Diocesan Trust). 6 The constitution
6

Article 14 (formerly Article 13) of the Fort Worth Diocese's
constitution states:
The title to all real estate acquired for the use of the
Church in this Diocese, including the real property of all
Parishes and Missions, as well as Diocesan Institutions,
shall be held subject to control of the Church in The
Episcopal Diocese of Fort Worth acting by and through
a corporation known as “Corporation of the Episcopal
Diocese of Fort Worth.” All such property as well as all
property hereafter acquired for the use of the Church
and the Diocese, including Parishes and Missions, shall
be vested in Corporation of the Episcopal Diocese of
Fort Worth.
Corporation for the Episcopal Diocese of Fort Worth
shall hold real property acquired for the use of a
particular Parish or Mission in trust for the use and
benefit of such Parish or Mission . . . . Such property may
not be conveyed, leased or encumbered by Corporation
of the Episcopal Diocese of Fort Worth without the
consent of the Rector, Wardens and Vestry of such
Parish or Mission. Upon dissolution of such Parish or
Mission, property held in trust for it shall revert to said

5a
further provides that if a parish or mission dissolves,
the property held in trust by the Diocesan
Corporation “shall revert to said Corporation for the
use and benefit of the Diocese, as such.” Since its
inception, amendments to the diocese’s constitution
and canons have been authorized based on a
majority vote of the Diocesan Convention.7 Under the
governing documents, election of the Diocesan
Bishop and members of the diocese’s standing
committee require either a concurrent majority vote
of diocesan clergy and laity attending the convention
or a super-majority vote, depending on the
circumstances.
The Fort Worth Diocese’s canons require the
Diocesan Corporation’s affairs to be conducted and
administered by a Board of Trustees of five elected
members, all of whom must be either (1) lay persons
“in good standing of a parish or mission in the
Diocese,” or (2) “members of the Clergy canonically
resident in the Diocese.” The Diocesan Bishop serves
as Chairman of the Board unless the bishop
designates another officer of the corporation to serve
as such. The canons empower the Board of Trustees
to conduct the corporation’s affairs “in accordance
with its charter and by-laws and in accordance with
the Constitution and Canons of the Diocese from
time-to-time adopted.”

Corporation for the use and benefit of the Diocese, as
such.
All other property belonging to the Diocese, as such,
shall be held in the name of the Corporation . . . .
7

Article 2 of the Diocesan Constitution defines “convention”
as the diocese's legislative body.

6a
In 1982, after the Fort Worth Diocese adopted its
constitution and canons (Diocesan Constitution and
Canons), it was admitted into union with TEC. At
that time, the new diocese and every congregation in
its jurisdiction “fully subscribe[d] to and accede[d] to
the Constitution and Canons of The Episcopal
Church.” The “Dennis Canon,” which purports to
impose a trust on all church property for TEC’s
benefit, has been among TEC’s governing principles
since 1979. In contrast to the Diocesan Trust, it
provides:
All real and personal property held by or for
the benefit of any Parish, Mission or
Congregation is held in trust for this Church
and the Diocese thereof in which such Parish,
Mission or Congregation is located. The
existence of this trust, however, shall in no
way limit the power and authority of the
Parish, Mission or Congregation otherwise
existing over such property so long as the
particular Parish, Mission or Congregation
remains a part of, and subject to, this Church
and its Constitution and Canons.
In 1983, the Fort Worth Diocese filed articles
incorporating the Diocesan Corporation as a Texas
nonprofit of perpetual duration. Consistent with the
Diocesan Constitution and Canons, the articles of
incorporation required the corporation to administer
trust property “in accordance with the Constitution
and Canons of the Episcopal Diocese of Fort Worth
as they now exist or as they may hereafter be
amended.” At that time, the corporate bylaws also
provided that “the affairs of this nonprofit
corporation shall be conducted in conformity with the

7a
Constitution and Canons of the Episcopal Church in
the United States of America and the Constitution
and Canons of the Episcopal Diocese of Fort Worth,
as they may be amended or supplemented from time
to time.” Bylaws consistent with the Diocesan
Constitution and Canons established the number of
trustees, the terms of office, and the procedure for
electing trustees and filling vacancies.8 Amendments
to the bylaws were authorized on a majority vote of
trustees attending any regular or special board
meeting. The year after incorporation, friendly
litigation between the Fort Worth and Dallas
dioceses resulted in a judgment vesting legal title of
certain real and personal property in the Diocesan
Corporation.
Five years later, in 1989, the Fort Worth Diocese
repudiated any trust imposed by the Dennis Canon
by amending its canons to expressly disclaim the
existence of a trust for TEC’s benefit:
Property held by the Corporation for the use of
a Parish, Mission or Diocesan School belongs
beneficially to such Parish, Mission or
Diocesan School only. No adverse claim to
such beneficial interest by the Corporation, by
the Diocese, or by The Episcopal Church of the
United States of America is acknowledged, but
rather is expressly denied.
Nearly two decades later, unresolved doctrinal
differences culminated in a schism that precipitated
this dispute. In 2006, the Diocesan Corporation
unanimously amended its articles and bylaws to
remove all references to TEC. The amendments also
8

See TEX. BUS. ORGS. CODE § 22.207.

8a
gave the trustees authority to determine the
Diocesan Bishop’s identity for purposes of the
governing documents, if identity is disputed; allowed
a majority of trustees to select the Chairman of the
Board when the diocese is without a bishop; and
authorized removal of a trustee by a majority of the
board rather than by the bishop. The amendments
did not alter the terms of office or change the process
for electing trustees or filling vacancies, but as of
2006, the bylaws required the corporation’s trustees
to be “lay persons in good standing of a parish or
mission in the body now known as the Episcopal
Diocese of Fort Worth, or members of the clergy
canonically resident within the geographical region
of the body now known as the Episcopal Diocese of
Fort Worth.”
Believing TEC had embraced doctrine reflecting “a
substantial departure from the biblical and historic
faith,” the 2007 and 2008 conventions of the Fort
Worth Diocese also voted overwhelmingly to
withdraw from union with TEC. To that end, the
conventions amended the Diocesan Constitution and
Canons to remove references to TEC and to reflect
membership with the Anglican Province of the
Southern Cone.9 Under the continued leadership of
Bishop Jack Iker, and operating as the “Episcopal
Diocese of Fort Worth,” the withdrawing faction
9

For example, prior to 2008, the preamble to the Diocesan
Constitution and Canons referred to the Fort Worth Diocese as
“the Clergy and Laity of the Episcopal Church resident in that
portion of the State of Texas constituting what is known as The
Episcopal Diocese of Fort Worth,” but on a majority vote, the
preamble was amended to describe the diocese as “the Clergy
and Laity of the Episcopal Diocese of Fort Worth.”

9a
which constituted the vast majority of the diocese
retained control of property acquired for the use and
benefit of the diocese and its congregations.10
Ecclesiastical and legal ramifications ensued from
these actions. In December 2008, TEC accepted
Bishop Iker’s renunciation and removed him from all
positions of authority within the church. TEC and
clergy for the remaining congregants (collectively
TEC) took the position that (1) the majority had no
power to unilaterally withdraw a diocese from the
hierarchical church, (2) those voting to do so
contemporaneously vacated their official positions
and immediately lost their status as communicants
in good standing, and (3) any changes to the diocese’s
and corporation’s organizational documents were
void ab initio. In light of these determinations, TEC
convened a special convention of the loyal faction to
fill the offices “vacated” by those who had voted to
disaffiliate from the national church. The special
convention voted to reverse the constitutional
amendments adopted at the 2007 and 2008 Diocesan
Conventions; declared all offices of the diocese and
the corporation’s Board of Trustees vacant; and
elected new “qualified” leaders for both the diocese
and the corporation. Replacement of diocesan and
corporate leaders admittedly did not comport with
the requirements of the organizational documents,
but TEC viewed the circumstances as an unforeseen
emergency necessitated by improper actions of the
former leadership. After recognizing the remaining
Episcopal congregations and new leadership as the
10

Three congregations loyal to TEC left the Fort Worth
Diocese, taking their property with them.

10a
continuing “Episcopal Diocese of Fort Worth,” TEC
sued the opposing diocese and its leaders, the
opposing
corporate
leaders,
and
departing
congregations (collectively the Majority Diocese) to
recover church property and endowment funds both
factions claimed to control under the Diocesan Trust.
TEC also laid claim to the property under the Dennis
Canon. The heart of the dispute is the identity of the
Fort Worth Diocese.
On cross-motions for summary judgment, a central
issue was whether the property dispute should be
resolved using the “deference” methodology or
“neutral principles of law.” “A court applying the
deference approach defers to and enforces the
decision of the highest authority of the ecclesiastical
body to which the matter has been carried.”11 “Under
the neutral principles methodology, ownership of
disputed property is determined by applying
generally applicable law and legal principles [and]
will usually include considering evidence such as
deeds to the properties, terms of the local church
charter (including articles of incorporation and
[bylaws], if any), and relevant provisions of
governing documents of the general church.” 12
Applying the deference methodology, the trial court
granted summary judgment in TEC’s favor.
On direct appeal, we reversed, holding Texas courts
must use neutral principles of law to determine
“which faction is entitled to a religious organization’s

11

Masterson v. Diocese of Nw. Tex., 422 S.W.3d 594, 602 (Tex.
2013).
12

Id. at 603.

11a
property following a split or schism[.]”13 Though both
the deference and neutral principles methodologies
are constitutionally permissible, we adhere to the
latter as the exclusive methodology “because it better
conforms to Texas courts’ constitutional duty to
decide disputes within their jurisdiction while still
respecting limitations the First Amendment places
on that jurisdiction.”14 In a companion case issued
the same day, we explained that “courts are to apply
neutral principles of law to issues such as land titles,
trusts, and corporate formation, governance, and
dissolution, even when religious entities are
involved.”15 We remanded the case to the trial court
to allow the parties to develop a record under the
appropriate methodology.16
To provide guidance on remand, we also addressed
certain arguments the parties had made regarding
application of the neutral-principles methodology.
Among other things, we held that “who is or can be a
member in good standing of TEC or a diocese is an
ecclesiastical decision,” but the determinations TEC,
the replacement bishops, and the 2009 special
convention made as to those matters “[did] not
necessarily determine whether the earlier actions of
the corporate trustees were invalid under Texas
law.”17 Rather, Texas corporations law “dictates how
the corporation can be operated, including
13

Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 647 (Tex. 2013).
14

Masterson, 422 S.W.3d at 596.

15

Id. at 606.

16

Episcopal Diocese, 422 S.W.3d at 651-52.

17

Id. at 652 (emphasis added).

12a
determining the terms of office of corporate directors,
the circumstances under which articles and bylaws
can be amended, and the effect of the amendments,”
and the summary judgment record did not
conclusively establish that “the trustees had been
disqualified from serving as corporate trustees at the
relevant times.” 18 Regarding the existence of a
canonical trust, we held that “even assuming a trust
was created as to parish property by the Dennis
Canon,” trusts are revocable under Texas law unless
they are expressly made irrevocable and “the Dennis
Canon ‘simply does not contain language making the
trust expressly irrevocable[.]’ ”19 Finally, we rejected
TEC’s retroactive application complaint because the
neutral principles methodology was substantively
applied more than a century ago in Brown v. Clark.20
On remand, the parties once again filed crossmotions for summary judgment with the opposite
result ensuing from the application of neutral
principles. The trial court (1) granted final judgment
in the Majority Diocese’s favor as to the disputed real
property and endowment funds; (2) declared that
since 2005, the trustees of the Diocesan Corporation
were the duly elected representatives from the
Majority Diocese, including Bishop Iker as Chairman
of the Board; and (3) permanently enjoined TEC’s
clergy and leaders from acting as “The Episcopal
Diocese of Fort Worth.”
18

Id. (citing Tex. Bus. Orgs. Code §§ 22.001-.409).

19

Id. at 653 (quoting Masterson, 422 S.W.3d at 613, and
citing Tex. Prop. Code §§ 112.004, .051).
20

Id. (citing Brown v. Clark, 102 Tex. 323, 116 S.W. 360
(1909)).

13a
The court of appeals reversed and rendered in part,
reversed and remanded in part, and affirmed in part
without a majority opinion.21 A lone opinion, joined
only by its author, provides an exhaustive account of
the record and a dissertation on the neutral
principles methodology. For convenience, we refer to
that opinion as the court of appeals’ opinion.
The court held that (1) the Diocesan Trust is
invalid, so real property ownership must be
determined based on property-deed language; (2) the
Dennis Canon trust is not enforceable under Texas
law because “a proposed beneficiary [like TEC]
cannot unilaterally name itself as the beneficiary of a
trust involving another entity’s property”; (3) the
First Amendment requires deference to TEC’s
identification of the diocese affiliated with TEC
because the organizational result of a schism is an
ecclesiastical matter; (4) TEC lacks standing to claim
control of the Diocesan Corporation; (5) the
corporation’s governing documents were amenable to
amendment but the language used in the 2006
bylaws “the body now known as” the Fort Worth
Diocese refers to the diocese affiliated with TEC
because in 2006, the Fort Worth diocese was
affiliated with TEC; (6) after 2008, the TEC-affiliated
faction is the only one entitled to appoint the
corporation’s board; and (7) a constructive trust and
other equitable relief is not available because
“[whether] Bishop Iker and the rest are the
perfidious oath-breakers characterized by the TEC
parties is . . . inextricably intertwined with First
21

547 S.W.3d 353 (Tex. App.—Fort Worth 2018). One panel
member retired while the case was pending and the other
concurred in the judgment without issuing an opinion.

14a
Amendment implications.” The court rendered
judgment for TEC in part using 2 of 121 deeds as
exemplars and remanded to the trial court to resolve
the property dispute as to the remaining properties
and disputed endowment funds.
We granted the Majority Diocese’s petition for
review and TEC’s conditional cross petition.
II. Discussion
Congregants, local churches, and leaders of
religious entities are free to disassociate from a
hierarchical church at any time. The critical question
is who keeps the property. With ten years of
litigation behind them, all parties to this dispute now
agree that:


the Diocesan Trust is valid and enforceable
according to its terms;



the Diocesan Corporation holds legal title to
the disputed property;



equitable title is settled by the Diocesan
Trust’s terms;



the trust beneficiaries are the local parishes
and missions in union with the Convention of
the Fort Worth Diocese;



which parishes and missions are in union with
each faction and which congregants are in
good standing with each faction are
ecclesiastical issues, but neither party
challenges the good-standing of opposing
members in the opposing parishes or the union
of opposing congregations with the opposing
diocese; and

15a


the only issue with regard to the Diocesan
Trust is which faction constitutes the
continuation of the Fort Worth Diocese.

In resolving this dispute, both sides acknowledge
that Episcopal Diocese of Fort Worth v. Episcopal
Church 22 and Masterson v. Diocese of Northwest
Texas23 require application of neutral principles of
law, but they disagree about how those principles
apply to this case.
The Majority Diocese asserts that the Diocesan
Constitution and Canons affirm its identity as the
Fort Worth Diocese because all actions taken to
disassociate conformed with its provisions and were
not in conflict with the terms of the General
Convention’s constitution and canons. TEC takes the
position that, even under neutral principles, Texas
courts must defer to a hierarchical church’s superior
authority to determine which faction constitutes the
true diocese. In TEC’s view, the identity of the Fort
Worth Diocese is a church membership issue, not a
property issue, because the church does not recognize
the power of a subordinate unit to secede.
Accordingly, TEC contends the property dispute is
settled in its favor as an “incidental effect” of the
hierarchical church’s ecclesiastical determinations
regarding the Fort Worth Diocese’s qualified
representatives. TEC further contends that under
Texas
unincorporated
associations
law,
a
subordinate entity of a tiered organization cannot be
unilaterally withdrawn even on the vote of a
majority.
22

422 S.W.3d at 646-47.

23

422 S.W.3d at 596.

16a
In addition, and in the alternative, TEC claims
beneficial title under the terms of the Dennis Canon,
which it maintains is a valid trust that either could
not be revoked by the 1989 amendment to the
Diocesan Constitution and Canons or is irrevocable
as a contractual trust. And if TEC does not prevail
under either of the express trusts, it seeks control of
the disputed church property under constructivetrust and quasi-estoppel theories. Finally, TEC
challenges the ruling of the lower courts that it lacks
standing to pursue its claims as to the Diocesan
Corporation.
A. Neutral Principles of Law
Church property disputes predate our nation’s
founding, but the passage of time has not made
resolving such matters any less complicated. States
have “an obvious and legitimate interest in the
peaceful resolution of property disputes, and in
providing a civil forum where the ownership of
church property can be determined conclusively.”24
Even so, the First Amendment of the United States
Constitution “severely circumscribes the role that
civil courts may play in resolving church property
disputes.”25 “Most importantly, the First Amendment
prohibits civil courts from resolving church property
disputes on the basis of religious doctrine and
practice.”26 But the “conflicting pressures”27 exerted
24

Jones v. Wolf, 443 U.S. 595, 602 & n.1, 99 S.Ct. 3020, 61
L.Ed.2d 775 (1979).
25

Id. (quoting Presbyterian Church v. Mary Elizabeth Blue
Hull Mem'l Presbyterian Church, 393 U.S. 440, 449, 89 S.Ct.
601, 21 L.Ed.2d 658 (1969)).
26

Id.

17a
by the First Amendment’s free exercise and
establishment clauses require courts to walk a fine,
and often indistinct, line in adjudicating ownership
of church property when hierarchical entities
disassociate.28
Church property disputes involving hierarchical
church organizations, like TEC, are challenging
because their organizational structure requires
subordinate units to accede to ecclesiastical control
by higher authorities. Historically, three different
approaches have been employed to resolve those
disputes: the departure-from-doctrine principle,
which requires courts to award property to
whichever faction of the church adheres to “the true
standard of faith”;29 the deference approach, which
requires courts to defer to and enforce the decision of
the highest authority of the ecclesiastical body to
which the matter has been carried;30 and the neutral
principles of law method, which allows courts to
27

Cutter v. Wilkinson, 544 U.S. 709, 719, 125 S.Ct. 2113, 161
L.Ed.2d 1020 (2005).
28

See Masterson, 422 S.W.3d at 606; see also Serbian E.
Orthodox Diocese v. Milivojevich, 426 U.S. 696, 734, 96 S.Ct.
2372, 49 L.Ed.2d 151 (1976) (Rehnquist, J., dissenting)
(cautioning that blind deference to church determinations may
avoid a free exercise problem but create “far more serious”
Establishment Clause problems).
29

Watson v. Jones, 80 U.S. 13 Wall. 679, 727-29, 20 L.Ed. 666
(1871); See Jones, 443 U.S. at 599 & n.1, 99 S.Ct. 3020.
30

Jones, 443 U.S. at 603-05, 99 S.Ct. 3020; See Watson, 80
U.S. at 727-29 (“[W]henever the question of discipline, or of
faith, or ecclesiastical rule, custom, or law have been decided by
the highest of church judicatories to which the matter has been
carried, the legal tribunals must accept such decisions as final,
and as binding on them.”).

18a
settle church property disputes by examining in a
purely secular manner the language of deeds, local
church charters, state statutes, and provisions of a
general church’s constitution. 31 The United States
Supreme Court has rejected the departure-fromdoctrine method (also known as the “English
approach”) as contrary to the First Amendment.32
But both the deference and neutral principles
methodologies are constitutionally permissible. 33
“Indeed, ‘a State may adopt any one of various
approaches for settling church property disputes so
long as it involves no consideration of doctrinal
matters . . . or the tenets of faith.’ ”34 A majority of
states, including Texas, apply the neutral principles
approach.35

31

Jones, 443 U.S. at 602-03, 99 S.Ct. 3020; See Watson, 80
U.S. at 727-29 (“Religious organizations come before us in the
same attitude as other voluntary associations . . . and their
rights are equally under the protection of the law . . . [according
to decisive principles] applicable alike to all of its class[.]”).
32

Jones, 443 U.S. at 599 & n.1, 99 S.Ct. 3020 (1979);
Presbyterian Church v. Mary Elizabeth Blue Hull Mem'l
Presbyterian Church, 393 U.S. 440, 443 & n.2, 449-50, 89 S.Ct.
601, 21 L.Ed.2d 658 (1969); Watson, 80 U.S. at 727-29; See U.S.
Const., amend. I (“Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof[.]”).
33

Jones, 443 U.S. at 602-04, 99 S.Ct. 3020; Watson, 80 U.S. at
727-29.
34

Jones, 443 U.S. at 602, 99 S.Ct. 3020 (quoting Md. & Va.
Churches v. Sharpsburg Church, 396 U.S. 367, 368, 90 S.Ct.
499, 24 L.Ed.2d 582 (1970) (Brennan, J., concurring) (emphasis
in original)).
35

Masterson v. Diocese of Nw. Tex., 422 S.W.3d 594, 606-07 &
n.6 (Tex. 2013).

19a
The United States Supreme Court’s leading neutral
principles case is Jones v. Wolf, which involved a
property dispute after a local church split from a
hierarchal church organization. 36 There, like here,
the local church’s actions were subject to
ecclesiastical review and regulation by the higher
church.37 But the Supreme Court approved the state
court’s use of the neutral principles methodology to
determine ownership of the property. 38 Jones
identifies several advantages of the neutral
principles approach, including that it (1) “promises to
free civil courts completely from entanglement in
questions of religious doctrine, polity, and practice”;
(2) is “flexible enough to accommodate all forms of
religious organization and polity”; and (3) encourages
churches to avail themselves of “appropriate
reversionary clauses and trust provisions” to control
what happens to church property if a dispute arises,
such as by identifying “what religious body will
determine ownership in the event of a schism or
doctrinal controversy.” 39 The Court explained that
neutral principles of law rely exclusively on objective,
well-established concepts of trust and property law
that are familiar to judges and lawyers and produce
outcomes reflecting the parties’ intentions before the
dispute erupted.40
But the neutral principles approach is not without
limitations. When ecclesiastical questions are at
36

443 U.S. at 597, 99 S.Ct. 3020.

37

Id. at 598, 99 S.Ct. 3020.

38

Id. at 603, 99 S.Ct. 3020.

39

Id.

40

Id. at 603, 606, 99 S.Ct. 3020.

20a
issue, “deference is compulsory because courts lack
jurisdiction to decide ecclesiastical questions.” 41 So
while neutral principles of law are applied to issues
“such as land titles, trusts, and corporate formation,
governance, and dissolution, even when religious
entities are involved,” 42 if an instrument
“incorporates
religious
concepts”
so
that
“interpretation of the instruments of ownership
would require the civil court to resolve a religious
controversy,” the court must defer to the
authoritative ecclesiastical body’s resolution of that
issue. 43 And in some instances, “deferring to
decisions of ecclesiastical bodies in matters reserved
to them by the First Amendment may . . . effectively
determine the property rights in question.”44
Such was the case in Serbian Eastern Orthodox
Diocese v. Milivojevich in which a defrocked bishop
asked the civil court to declare him the “true
Diocesan Bishop” of an undivided diocese. 45 When
the Mother Church in Russia removed Bishop
Milivojevich from his post as head of the diocese and
reorganized the diocese by dividing it into three
parts, Milivojevich sued in Illinois state court to
reverse the church’s disciplinary and organizational
41

Masterson, 422 S.W.3d at 602.

42

Id. at 606.

43

Jones, 443 U.S. at 604, 99 S.Ct. 3020; See Serbian E.
Orthodox Diocese v. Milivojevich, 426 U.S. 696, 709, 96 S.Ct.
2372, 49 L.Ed.2d 151 (1976) (the dispute “essentially involve[d]
not a church property dispute, but a religious dispute the
resolution of which . . . is for ecclesiastical and not civil
tribunals”).
44

See Milivojevich, 426 U.S. at 709, 96 S.Ct. 2372.

45

Id. at 707, 96 S.Ct. 2372.

21a
determinations on the basis that the church’s
tribunal exceeded the scope of its authority under
church law and therefore acted arbitrarily. 46 The
state court ruled in Milivojevich’s favor, holding the
Mother Church violated its own procedures and
internal regulations and lacked authority to divide
the diocese.
On appeal, the Supreme Court reversed, observing
the state court’s judgment “rest[ed] upon an
impermissible rejection of the decisions of the
highest ecclesiastical tribunals” and impermissibly
substituted its own inquiry into church polity. The
Court explained:
For civil courts to analyze whether the
ecclesiastical actions of a church judicatory are
in that sense “arbitrary” must inherently
entail inquiry into the procedures that canon
or ecclesiastical law supposedly requires the
church judicatory to follow, or else into the
substantive criteria by which they are
supposedly to decide the ecclesiastical
question. But this is exactly the inquiry that
the First Amendment prohibits; recognition of
such an exception would undermine the
general rule that religious controversies are
not the proper subject of civil court inquiry,
and that a civil court must accept the
ecclesiastical decisions of church tribunals as
it finds them.47
The “basic dispute” in Milivojevich was control of
the Eastern Orthodox Diocese for the United States
46

Id.

47

Id. at 713, 96 S.Ct. 2372.

22a
of America and Canada, its property, and assets.48
But control of church property was merely an
“incidental effect” of deciding who ran the church
itself because church charters vested control in the
denominational leader, which only the Mother
Church had authority to select. 49 As the Court
explained, “this case essentially involves not a
church property dispute, but a religious dispute the
resolution of which under our cases is for
ecclesiastical and not civil tribunals.”50
Consistent with Milivojevich, we have observed
that “[c]ourts applying the neutral principles
methodology defer to religious entities’ decisions on
ecclesiastical and church polity issues such as who
may be members of the entities and whether to
remove a bishop or pastor.”51 That is, what happens
to the relationship between a hierarchical religious
organization and a subordinate unit after a vote to
disassociate “is an ecclesiastical matter over which
civil courts generally do not have jurisdiction.”52 “But
what happens to the property is not, unless the
[local entity’s] affairs have been ordered so that
ecclesiastical decisions effectively determine the
property issue.”53

48

Id. at 698, 96 S.Ct. 2372.

49

Id. at 699, 701, 709-10, 96 S.Ct. 2372.

50

Id. at 709, 96 S.Ct. 2372.

51

Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 650 (Tex. 2013).
52

Masterson v. Diocese of Nw. Tex., 422 S.W.3d 594, 607 (Tex.
2013).
53

Id. (emphases added).

23a
The Majority Diocese acknowledges TEC’s
ecclesiastical authority but contends property
ownership is a temporal matter determined by what
the diocese’s charters, state statutes, and TEC’s
constitution and canons actually say about the Fort
Worth Diocese’s governance. TEC contends
ecclesiastical matters determine what happens to the
property at issue here because (1) the dispute is
essentially a question of church leadership, which is
indisputably an ecclesiastical question, and (2) the
parties ordered the Fort Worth Diocese’s affairs so
that ecclesiastical decisions effectively determine the
property issue. At bottom, the disagreement centers
on what effect the majority’s disassociation vote had
on the Fort Worth Diocese’s identity specifically,
whether the majority faction constitutes the
continuation of that entity or whether the majority
left as individuals and became something else.
B. Diocesan Identity for Purposes of the
Diocesan Trust
The Fort Worth Diocese is an unincorporated
association formed and operating in Texas.
Accordingly, issues concerning its officers and control
are governed by the Texas Uniform Unincorporated
Nonprofit
Association
Act. 54 Under
Texas
54

See Tex. Bus. Orgs. Code § 1.103 (for entities formed in
Texas without filing instruments with the state, “the law
governing the entity's formation and internal affairs is the law
of the entity's jurisdiction of formation”); see also Tex. Rev. Civ.
Stat. art. 1396-70.01 (expired January 1, 2010); Tex. Bus. Orgs.
Code § 402.006 (“[P]rior law governs the acts, contracts, or
transactions of the entity or its managerial officials, owners, or
members that occur before the mandatory application date” of
January 1, 2010); Dist. Grand Lodge No. 25 v. Jones, 138 Tex.
537, 160 S.W.2d 915, 922 (Tex. Com.App. 1942) (“It is generally

24a
Associations law, control and governance are
determined by the terms of the Fort Worth Diocese’s
charters.55
TEC argues, however, that we cannot rely on these
documents to determine who controls the Fort Worth
Diocese and whether the actions taken at the 2007
and 2008 conventions were valid. Rather, TEC
argues that, like Milivojevich, the property dispute
in this case is incidentally settled by deference to
TEC’s determination as to who its denominational
held that the constitution and by-laws of a voluntary
association, whether incorporated or not, are controlling as to
its internal management.”).
55
See Tex. Bus. Orgs. Code §§ 1.002(35)(A) (“ ‘Governing
authority’ means a person or group of persons who are entitled
to manage and direct the affairs of an entity under this code
and the governing documents of the entity . . . .”), .002(36)(A)(ii)
(“ ‘Governing documents’ means . . . the other documents or
agreements adopted by the entity under this code to govern the
formation or the internal affairs of the entity.”), .002(53)(D)
(defining a “member” of a nonprofit association as “a person
who has membership rights in the nonprofit association under
its governing documents”), .002(63) (an “officer” is “an
individual elected, appointed, or designated as an officer of an
entity by the entity’s governing authority or under the entity's
governing documents”); 3.002 (“The requirements for the
formation of and the determination of the existence of a
nonfiling entity are governed by the title of this code that
applies to that entity.”), .101 (“Subject to the title of this code
that governs the domestic entity and the governing documents
of the domestic entity, the governing authority of a domestic
entity manages and directs the business and affairs of the
domestic entity.”); 252.106 (“This chapter replaces existing law
with respect to matters covered by this chapter but does not
affect
other
law
covering
unincorporated
nonprofit
associations.”); see id. § 252.002 (“Principles of law and equity
supplement this chapter unless displaced by a particular
provision of this chapter.”).

25a
representatives are. No one disputes that TEC’s
determinations as to its denominational leaders and
“good standing” with the church are ecclesiastical
questions. But unlike Milivojevich, the Fort Worth
Diocese’s affairs were not arranged so that
ecclesiastical decisions “effectively determine the
property issue.” 56 Milivojevich is distinguishable
from this case because there, unlike here, control of
church property was placed in the hands of a
denominational leader.
Here, the parties arranged the diocese’s affairs so
that a majority of the diocese and its convention
control the unincorporated association. The Fort
Worth Diocese’s charters provide that (1) a majority
vote of its convention can amend the Diocesan
Constitution and Canons and convention rules; (2) a
majority vote of the convention elects the Diocesan
Bishop, officers of the diocese’s standing committee,
and trustees of the Diocesan Corporation; and (3) a
majority vote of the convention can admit, suspend,
or restore a parish or mission to union with the
Convention. Notably, in Jones v. Wolf, the Supreme
Court held that the First Amendment does not
preclude a state from adopting a presumptive rule of
majority rule. 57 This is so because “the majority
faction generally can be identified without resolving
any question of religious doctrine or polity.” 58
Moreover, “any rule of majority representation can
always be overcome, under the neutral-principles
56

Masterson, 422 S.W.3d at 606-07.

57

Jones v. Wolf, 443 U.S. 595, 607, 99 S.Ct. 3020, 61 L.Ed.2d
775 (1979).
58

Id.

26a
approach, either by providing in the corporate
charter or the constitution of the general church,
that the identity of the local church is to be
established in some other way . . . [such as] by
providing that the church property is held in trust
for the general church and those who remain loyal to
it.”59
Rather than advocating for a presumption of
majority rule to determine that it remains the Fort
Worth Diocese, the majority faction simply asks the
court to enforce the majority-rule provisions in the
organizational documents. 60 If courts can presume
majority
rule
without
encroaching
on
constitutionally protected terrain, courts can
certainly apply that rule when the parties have so
provided. Accordingly, having complied with the
diocese’s charters, the majority, not the minority,
constitutes the continuation of the Fort Worth
Diocese under the terms of its charter.
TEC’s contrary argument that deference is
required, rather than majority rule, is virtually
indistinguishable from the approach the dissent in
Masterson advocated. 61 As in Masterson, TEC
59

Id. at 607-08, 99 S.Ct. 3020.

60

See Masterson, 422 S.W.3d at 613 (holding that
amendments to a corporation's organizational documents were
valid absent “any provision in the corporate documents”
permitting TEC to invalidate those amendments or any “Texas
law precluding the corporation from amending its articles and
bylaws to exclude references” to TEC).
61

See id. at 618 (Lehrmann, J., dissenting) (“It follows that
Bishop Ohl's determination regarding the parish's authority (or,
more accurately, lack of authority) to withdraw from TEC is a
binding ecclesiastical decision, irrespective of the corporate
form taken by the parish. In turn, since Good Shepherd did not

27a
contends the First Amendment mandates deference
because, as a matter of church law, subordinate units
have no authority to disassociate. Accordingly, in
TEC’s view, the actions of the 2007 and 2008
Diocesan Conventions were instantaneously null and
void; those voting to disassociate immediately
vacated their offices and lost standing in canonical
bodies; and these are binding ecclesiastical decisions
regardless of what the Fort Worth Diocese’s
governing documents say. Consequently, TEC takes
the position that, even if the majority voted to
secede, they did so as individuals and not as an
intact entity constituting the Fort Worth Diocese.
TEC points out that when the Fort Worth Diocese
joined the hierarchical church organization it
acceded to the General Convention’s constitution and
canons. But in 2007 and 2008, a majority of the
Diocesan Convention voted to amend its governing
documents to change all provisions referring to TEC
and requiring compliance with its canons and
constitution. No provision in any of the
organizational documents, including those of the
national church, precluded them from doing so.
TEC’s charters are silent about withdrawal of a
diocese. Moreover, whether a diocese can secede from
TEC does not affect the parties’ property rights,
because the Diocesan Trust has never required
affiliation with TEC. Nor do the organizational
documents restrict the diocese’s authority to amend
the Diocesan Constitution and Canons, such as by

validly withdraw from TEC, Good Shepherd remained a
constituent thereof and consequently remained subject to TEC's
and the Diocese's Constitutions and Canons.”).

28a
requiring the national church’s
permission to make an amendment.62

approval

or

As we stated in Masterson, “[a]bsent specific, lawful
provisions in a corporation’s articles of incorporation
or bylaws otherwise, whether and how a
corporation’s directors or those entitled to control its
affairs can change its articles of incorporation are
secular, not ecclesiastical, matters.”63 Rejecting the
very same argument TEC advances here, we
explained:
Bishop Ohl [the Diocesan Bishop] could, as an
ecclesiastical matter, determine which faction
of believers was recognized by and was the
‘true’ church loyal to the Diocese and TEC.
Courts must defer to such ecclesiastical
decisions. But under neutral principles, any
decisions he made about the secular legal
questions of whether the vote by the parish
members to amend the bylaws and articles of
incorporation was valid under Texas law and
whether the bylaws and articles of
incorporation were validly amended, are not
entitled to deference. Nor does his decision
identifying the loyal faction as the continuing
Episcopal Parish operating Good Shepherd
church determine property ownership under

62

See Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S.
696, 700-01, 96 S.Ct. 2372, 49 L.Ed.2d 151 (1976) (the diocesan
constitution expressly required the Mother Church's approval
for amendments to the constitution).
63

See Masterson, 422 S.W.3d at 609.

29a
this record, as it might under the deference or
identity methodology.64
And more pointedly, we said the dissent’s
argument that the “corporation could not amend its
articles of incorporation and bylaws to omit
references to TEC and the Diocese because doing so
would circumvent ‘an ecclesiastical decision made by
a higher authority within a hierarchical church
structure,’ is in substance application of the deference
methodology.”65
The issue here is essentially the same as it was in
Masterson: was the majority vote to amend the
governing documents effective? And the same answer
obtains: any decisions TEC made about the secular
legal questions of whether the vote by the 2007 and
2008 Diocesan Conventions to amend the Diocesan
Constitutions and Canons was valid under Texas law
and whether they were validly amended are not
entitled to deference.66

64

Id. at 610 (emphasis added).

65

Id. at 612-13 (emphasis added).

66

In arguing that a subordinate unit of a hierarchical
organization cannot be governed by majority rule under Texas
law, TEC relies on cases involving lodges and masons, which
hold special status under the law. See Tex. Bus. Orgs. Code
§§ 23.104(c) (“A subordinate body is subject to the jurisdiction
and control of its respective grand body, and the warrant or
charter of the subordinate body may be revoked by the grand
body.”), .110 (“On the winding up and termination of a
subordinate body attached to a grand body, all property and
rights existing in the subordinate body pass to and vest in the
grand body to which it was attached, subject to the payment of
any debt owed by the subordinate body.”). While there is
authority that such entities cannot disaffiliate even under

30a
In sum, TEC’s determinations as to which faction is
the true diocese loyal to the church and which
congregants are in good standing are ecclesiastical
determinations to which the courts must defer. But
applying neutral principles to the organizational
documents, the question of property ownership is not
entwined with or settled by those determinations.
The Fort Worth Diocese’s identity depends on what
its documents say. To that end, the Diocesan
Constitution and Canons provided who could make
amendments and under what circumstances; none of
those circumstances incorporate or rely on an
ecclesiastical determination by the national church;
and nothing in the diocese’s or national church’s
documents precluded amendments rescinding an
accession to or affiliation with TEC. Applying neutral
principles of law, we hold that the majority faction is
the Fort Worth Diocese and parishes and missions in
union with that faction hold equitable title to the
disputed property under the Diocesan Trust. We
must therefore consider TEC’s argument that the
Dennis Canon creates a trust in its favor.
C. Dennis Canon Trust
The Dennis Canon provides, in relevant part, that
“all real and personal property held by or for the
benefit of any Parish, Mission or Congregation is
held in trust for [TEC][.]” The parties dispute the
trust’s validity under Texas law and its revocability.
Under Texas trust law, a trust may be created by
any of the following methods:

majority rule, no similar provision governs unincorporated
associations generally.

31a
(1) a property owner’s declaration that the
owner holds the property as trustee for
another person;
(2) a property owner’s inter vivos transfer of
the property to another person as trustee for
the transferor or a third person;
(3) a property owner’s testamentary transfer
to another person as trustee for a third person;
(4) an appointment under a power of
appointment to another person as trustee for
the donee of the power or for a third person; or
(5) a promise to another person whose rights
under the promise are to be held in trust for a
third person.67
A trust is created only if the settlor manifests, in
writing, an intention to create a trust,68 and a settlor
may revoke a trust “unless it is irrevocable by the
express terms of the instrument creating it or of an
instrument modifying it.”69
The court of appeals held that the Dennis Canon is
not a valid trust under Texas law because “an entity
that does not own the property to be held in trust
cannot establish a trust for itself simply by decreeing
that it is the beneficiary of a trust.” 70 As to
revocability, we held in Masterson and Episcopal
Diocese that even assuming the Dennis Canon is a
valid trust, it is revocable under Texas law because it

67

Tex. Prop. Code § 112.001.

68

Id. §§ 112.002-.004.

69

Id. § 112.051.

70

547 S.W.3d 353, 424 (Tex. App.—Ft. Worth 2018).

32a
was not made expressly irrevocable. 71 Moreover,
“[e]ven if the Canon could be read to imply the trust
was irrevocable, that is not good enough under Texas
law. The Texas statute requires express terms
making [the trust] irrevocable.”72
For the reasons stated by the court of appeals
(among others), the Majority Diocese asserts the
Dennis Canon is not a valid trust, but even if it were
valid, it was revocable and revoked by the 1989
amendment to the Diocesan Constitution and
Canons, nearly two decades before this dispute arose.
TEC contends the Dennis Canon creates a valid
trust and argues it is entitled to possession of the
disputed property under that trust for two
independent reasons: (1) the 1989 amendment was
ineffective to revoke the Dennis Canon trust because,
at that time, the Diocesan Constitution and Canons
only authorized amendments to the diocese’s canons
that were “not inconsistent” with the national
church’s constitution and canons and (2) the trust is
irrevocable because it is a contractual trust
supported by valuable consideration. Neither
argument is persuasive.
While it is true, as TEC says, that the diocese’s
organizational documents prohibited the adoption of
canons inconsistent with the national church’s
constitution and canons, revocation is not
inconsistent with a revocable trust. Moreover, in the
twenty years between revocation and eruption of a
71

Episcopal Diocese of Fort Worth v. Episcopal Church, 422
S.W.3d 646, 653 (Tex. 2013); Masterson v. Diocese of Nw. Tex.,
422 S.W.3d 594, 613 (Tex. 2013).
72

Masterson, 422 S.W.3d at 613 (emphases in original).

33a
dispute over the property,73 TEC lodged no objection
to the amended canon and does not now contend the
1989 amendment is invalid for any other reason than
purported “inconsistency.”
In the alternative, and contrary to our holdings in
Masterson and Episcopal Diocese, TEC insists that
the Dennis Canon is irrevocable notwithstanding the
absence of express language of irrevocability, as
required by Texas Property Code section 112.051.
TEC cites Shellberg v. Shellberg for the proposition
that a contractual trust supported by valuable
consideration is irrevocable even when silent about
the matter.74 TEC contends that membership in the
national church is “valuable consideration” and that
courts are precluded from considering whether the
benefits of membership (including $63,000 in grants,
low-interest loans, and participation in the Church
Pension Fund) constitute a fair trade for $100
million worth of real estate for which TEC paid
nothing.
Shellberg, however, is patently distinguishable. In
Shellberg, five settlors signed a trust agreement
stating the trust could be revoked by three or more of
them. 75 Although each settlor provided valuable
consideration for the trust, one of the settlors
73

See Jones v. Wolf, 443 U.S. 595, 606, 99 S.Ct. 3020, 61
L.Ed.2d 775 (1979) (the objective under neutral principles is to
determine “the intentions of the parties” at the local and
national level regarding beneficial ownership of the property
“before the dispute erupts” and as reflected in a “legally
cognizable form”).
74

459 S.W.2d 465, 470 (Tex. Civ. App.—Fort Worth 1970, writ
ref'd n.r.e.).
75

Id. at 467.

34a
attempted to revoke the trust, noting the absence of
express language of irrevocability as required by
statute.76 The attempted revocation did not comply
with the trust’s express and bargained-for terms and
was therefore ineffective: “A proper construction of
the trust instruments involved in this case is that by
their terms such trust can only be terminated short
of the trust term by the agreement or consent of a
majority of the beneficiaries.” 77 Shellberg is
consistent with the statutory rule that the terms of a
trust generally prevail over conflicting statutory
provisions. 78 TEC has not identified any provision
constraining revocation of the Dennis Canon, so the
statutory requirement of express language retains its
legal force.
D. TEC’s Remaining Claims
By cross-petition, TEC seeks control of the disputed
property via constructive-trust, quasi estoppel, and
trespass-to-try-title theories and contends the lower
courts improperly concluded it lacks standing to
press its claims as to the Diocesan Corporation.
The court of appeals declined TEC’s constructivetrust claim because such relief would require the
court “to delve into the mysteries of faith,”
impermissibly entangling the court in a dispute over
religious doctrine. 79 We agree with the court’s
analysis. The First Amendment prohibits civil courts
76

Id. at 469-70.

77

Id. at 470 (emphasis added).

78

See Tex. Prop. Code § 111.0035(b) (subject to exceptions not
applicable here, “[t]he terms of a trust prevail over any
provision of this subtitle”).
79

547 S.W.3d 353, 443-44 (Tex. App.—Fort Worth 2018).

35a
from inquiring into matters concerning “ ‘theological
controversy,
church
discipline,
ecclesiastical
government, or the conformity of the members of a
church to the standard of morals required of
them.’ ”80
The doctrinal controversy precipitating the schism
involved a dispute over adherence to the true
standard of faith. Reminiscent of the discredited
departure-from-doctrine
principle,
TEC’s
constructive-trust argument is premised on
allegations that the withdrawing faction “ ‘broke a
century’s worth of oaths and commitments’ when
they left and took the TEC-affiliated property,
resources, and name.”81 In the withdrawing faction’s
view, it was TEC who engaged in heretical actions
constituting a “substantial departure from the
biblical and historic faith.” Determining whether the
leaders of the withdrawing faction are “the perfidious
oath-breakers characterized by the TEC parties” 82
rather than the true adherents to the historic
Episcopalian faith requires the type of inquiry that
runs afoul of the First Amendment’s constraints.
Civil courts lack jurisdiction to resolve disputes
turning on tenets of faith.
TEC’s quasi estoppel and trespass-to-try title
arguments fare no better. Both theories are rooted in
TEC’s claim that the loyal congregants comprise the
continuing entities, and the quasi estoppel
80

Serbian E. Orthodox Diocese v. Milivojevich, 426 U.S. 696,
714, 96 S.Ct. 2372, 49 L.Ed.2d 151 (1976) (quoting Watson v.
Jones, 80 U.S. 679, 733, 13 Wall. 679, 20 L.Ed. 666 (1872)).
81

547 S.W.3d at 443.

82

Id. at 444.

36a
argument, like TEC’s constructive-trust claim,
asserts the withdrawing faction broke promises and
oaths to use the property for Episcopalian purposes.
Finally, both the trial court and the court of
appeals held TEC has no standing to pursue claims
against the Diocesan Corporation’s individual
trustees for breach of duties to TEC. Citing
Masterson, the court of appeals explained that the
Corporation’s documents do not require TEC’s
approval for amendments and Texas law does not
preclude the trustees from making amendments to
exclude references to TEC; accordingly, TEC cannot
pursue claims that the Corporation’s trustees
breached fiduciary duties to TEC in doing so. 83
Because we agree the record does not support the
existence of duties owed by the trustees to TEC, we
affirm that portion of the court’s judgment.
III. Conclusion
For the reasons stated, we affirm the court of
appeals’ judgment in part, reverse the judgment in
part, and render judgment reinstating the trial
court’s judgment.
Justice Bland did not participate in the decision.

83

Id. at 442 (citing Masterson, 422 S.W.3d at 613).

37a
APPENDIX B
_________
COURT OF APPEALS OF TEXAS,
FORT WORTH
_______
THE EPISCOPAL CHURCH,
the Local Episcopal Parties, the Local Episcopal
Congregations, and the Most Rev. Katharine Jefferts
Schori,
Appellants,
v.
Franklin SALAZAR
and Intervening Congregations,
Appellees.
_______
No. 02-15-00220-CV
_______
Delivered: April 5, 2018
_______
OPINION
_______
BONNIE SUDDERTH, CHIEF JUSTICE
I.

Introduction

The parties’ long-running dispute involves, among
other things, title to and possession of church

38a
property.1 In 2014, on a direct appeal,2 the Supreme
Court of Texas identified the appropriate
methodology to determine the property ownership
issue—neutral principles of law—and remanded this
case to the trial court. See Episcopal Diocese of Fort
Worth v. Episcopal Church, 422 S.W.3d 646, 647
(Tex. 2013), cert. denied, — U.S. —, 135 S.Ct. 435,
190 L.Ed.2d 327 (2014); see also Masterson v. Diocese
of Nw. Tex., 422 S.W.3d 594, 596, 608 (Tex. 2013),
cert. denied, — U.S. —, 135 S.Ct. 435, 190 L.Ed.2d
327 (2014). No one disputes that the Corporation of
the Episcopal Diocese of Fort Worth (the
Corporation) holds legal title to the property or that
the Corporation holds the property in trust for the
Episcopal Diocese of Fort Worth (EDFW). Rather, at
its heart, the parties’ dispute is over who has the
right to control the Corporation and EDFW as legal
entities.
In a single issue containing multiple sub-issues,
Appellants The Episcopal Church (TEC), the Most
Reverend Katharine Jefferts Schori, The Local
Episcopal Parties, and The Local Episcopal
Congregations (collectively, the TEC parties) appeal
the trial court’s summary judgment for Appellees

1

For a review of how such disputes have affected
jurisprudence and religious groups over the past decade, see
Michael W. McConnell & Luke W. Goodrich, On Resolving
Church Property Disputes, 58 Ariz. L. Rev. 307, 308-10 (2016)
(“Hundreds of local congregations have voted to withdraw from
these national denominations, raising the question: Who owns
the church property?” (footnote omitted)).
2

See Tex. Gov’t Code Ann. § 22.001(c) (West Supp. 2017).

39a
Franklin Salazar and the Intervening Congregations
(collectively, Appellees).3
For ease in navigating this highly complex case, we
set forth the following roadmap: Part II of this
opinion contains EDFW’s history and the procedural
background of this case as pertinent to its
disposition. Part III sets out the standard of review
and the case’s legal framework, starting with the
binding precedent of the United States Supreme
Court and the Supreme Court of Texas and followed
by persuasive authorities that inform our judgment
before addressing the applicable state substantive
law on associations, corporations, and trusts and
then applying these authorities to the case’s
dispositive issues in parts III.B.2-B.4. Part IV sets
out in full our conclusion, which is that we affirm the
trial court’s judgment in part and reverse it in part
and remand the case to the trial court for further
proceedings.
II.

Background

Religious schisms that give rise to property
disputes are not unprecedented.4 TEC, for example,
was founded in 1789 after its revolutionary
constituents broke away from the Church of
England. See Episcopal Diocese, 422 S.W.3d at 647;
Bennison v. Sharp, 121 Mich.App. 705, 329 N.W.2d
3

The Appellees include Bishop Jack Leo Iker, Jo Ann Patton,
Walter Virden III, Rod Barber, and Chad Bates.
4

See McConnell & Goodrich, 58 Ariz. L. Rev. at 311 & n.11
(stating that church property disputes are as old as any church
and referring to an excommunicated bishop’s refusal in 269
A.D. to relinquish control of a church building and the early
church’s subsequent appeal to the Roman emperor for
assistance).

40a
466, 468 (1982); Hon. John E. Fennelly, Property
Disputes and Religious Schisms: Who is the Church?,
9 St. Thomas L. Rev. 319, 347 n.251 (1997). The
Church of England, in turn, began with Henry VIII’s
break with the Roman Catholic Church in 1534.
Fennelly, 9 St. Thomas L. Rev. at 347 & n.251
(referencing Protestant Episcopal Church v. Barker,
115 Cal.App.3d 599, 171 Cal.Rptr. 541, 544 (Cal.
Dist. Ct. App.), cert. denied, 454 U.S. 864, 102 S.Ct.
323, 70 L.Ed.2d 163 (1981)). And, as observed by the
United States Supreme Court, “14 autocephalous
hierarchical churches . . . came into existence
following the schism of the universal Christian
church in 1054.” Serbian E. Orthodox Diocese for
U.S. of Am. & Canada v. Milivojevich, 426 U.S. 696,
699, 96 S.Ct. 2372, 2376, 49 L.Ed.2d 151 (1976); see
also Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church, 344 U.S. 94, 100, 73 S.Ct. 143,
146, 97 L.Ed. 120 (1952) (“The schism of 1054 A.D.
split the Universal Church into those of the East and
the West.”).
A.

The Hierarchical Church

TEC has been identified by our supreme court as a
“hierarchical” type of religious organization,
composed of tiers,5
5

Factors Texas courts have used to characterize a church as
hierarchical include (1) the local church’s affiliation with a
parent church; (2) an ascending order of ecclesiastical
judicatories in which the local church’s government is subject to
review and control by higher authorities; (3) subjugation of the
local church to the jurisdiction of a parent church or to a
constitution promulgated by the parent church; (4) a charter
from the parent church governing the affairs of the local church
and specifying ownership of local church property; (5) the
repository of legal title; and (6) the licensing or ordination of

41a
[t]he first and highest [of which] is the General
Convention. The General Convention consists
of representatives from each diocese and most
of TEC’s bishops. It adopts and amends TEC’s
constitution and canons. The second tier is
comprised of regional, geographically defined
dioceses.6 Dioceses are governed by their own
conventions. Each diocese’s convention adopts
and amends its own constitution and canons[ ]
but must accede to TEC’s constitution and
canons. The third tier is comprised of local
congregations.
Local
congregations
are
local ministers by the parent church. Green v. Westgate
Apostolic Church, 808 S.W.2d 547, 550-51 (Tex. App.—Austin
1991, writ denied) (citing Templo Ebenezer, Inc. v. Evangelical
Assemblies, Inc., 752 S.W.2d 197, 198-99 (Tex. App.—Amarillo
1988, no writ)).
“The terms hierarchical and congregational are poles on a
continuum along which church organizations fall.” Id. at 551. A
congregational church is governed primarily by the will of the
local assembly, while a hierarchical church submits certain
issues to the rules and control of a larger religious organization.
Id. A congregational church is independent of any other
ecclesiastical association, owes no obligation to any higher
authority, and “totally controls its own destiny.” Templo
Ebenezer, Inc., 752 S.W.2d at 198. Because a congregational
form of church government vests the ultimate decision-making
authority in its members, if the controversy cannot be decided
by the application of neutral principles, then the court defers to
the majority vote of the congregation. Libhart v. Copeland, 949
S.W.2d 783, 793 (Tex. App.—Waco 1997, no writ) (explaining
ecclesiastical deference in congregational church context).
6

The record reflects that TEC also groups its dioceses into
provinces, each of which contains a synod consisting of a house
of bishops and a house of deputies. While many of the provinces
are geographically determined, some of TEC’s provinces consist
of TEC dioceses outside of the United States.

42a
classified
as
congregations,7

parishes,

missions,

or

Episcopal Diocese, 422 S.W.3d at 647-48; Masterson,
422 S.W.3d at 608 (“We agree with the court of
appeals that the record conclusively shows TEC is a
hierarchical organization.”).
TEC’s constitution and canons “establish the
structure of the denomination and rules for how it
operates.” Masterson, 422 S.W.3d at 600. As set out
in its constitution and canons, TEC’s Presiding
Bishop is its “chief pastor,” elected by the General
Convention—consisting of the House of Bishops and
the House of Deputies—to a multi-year term of office
and “charged with responsibility for leadership in”
initiating, developing, and implementing TEC’s
policy and strategy. In addition to the Presiding
Bishop’s policy and leadership tasks, he or she also
7

This framework ignores TEC’s self-identification as a
constituent member of an even larger community, which TEC
acknowledges in the preamble to its constitution, stating,
The Protestant Episcopal Church in the United States
of America, otherwise known as The Episcopal Church
(which name is hereby recognized as also designating
the Church), is a constituent member of the Anglican
Communion, a Fellowship with the One, Holy, Catholic,
and Apostolic Church, of those duly constituted
Dioceses, Provinces, and regional Churches in
communion with the See of Canterbury, upholding and
propagating the historic Faith and Order as set forth in
the Book of Common Prayer. [Emphasis added.]
While occasional references are made to the Anglican
Communion throughout the record of this case, no one has
explained what form of organization is involved in its
membership, and no property interests are asserted on its
behalf.

43a
presides over meetings of TEC’s House of Bishops
and performs ecclesiastical tasks, including, “[i]n the
event of an Episcopal vacancy” in a diocese,
consulting with that diocese’s “Ecclesiastical
Authority to ensure that adequate interim Episcopal
Services are provided.” The Presiding Bishop “shall
perform such other functions as shall be prescribed
in” TEC’s canons and may delegate some duties and
responsibilities to officers in the General
Convention’s Executive Council, which is responsible
for carrying out the General Convention’s programs
and policies and exercises “powers conferred upon it
by Canon, and such further powers as may be
designated by the General Convention.” The
Presiding Bishop is the chair and president of the
Executive Council.
The bishop in each diocese is chosen by the rules
prescribed by the convention of that diocese but
cannot be ordained and consecrated without the
consent of a majority of the standing committees of
all of the dioceses and without the consent of a
majority of TEC’s bishops.8 If one of TEC’s bishops
abandons communion with TEC by open
renunciation, formal admission into any religious
body not in communion with TEC, or other activities,
subject to the procedures set out in TEC’s canons and

8

If a majority of the diocesan standing committees or a
majority of TEC’s bishops do not consent to the bishop’s election
within 120 days from the date of notification of the election, the
Presiding Bishop “shall declare the election null and void,” and
the diocesan convention can then proceed to a new election.

44a
the consent of the majority of TEC’s bishops, the
Presiding Bishop may depose that bishop.9
The convention of each diocese must appoint a
standing committee, which acts as the council of
advice for the diocese’s bishop or substitutes as the
diocese’s ecclesiastical authority if there is no bishop
canonically authorized to act. Under TEC’s canons, a
diocese without a bishop may, by an act of its
convention and in consultation with the Presiding
Bishop, “be placed under the provisional charge and
authority of a bishop of another diocese or of a
resigned bishop, who shall by that act be authorized
to exercise all the duties and offices of the Bishop of
the Diocese until a Bishop is elected and ordained”
for that diocese or until the act of the diocese’s
convention is revoked.
Each diocese’s secretary of convention has the
responsibility to forward to the secretary of TEC’s
House of Deputies a copy of the latest journal of the
diocesan convention. Each diocese’s bishop has the
duty to forward to TEC’s Recorder an annual report
certifying information such as the names of clergy
canonically resident in the diocese and their status,
including suspension, removal, deposition, or
restoration.
TEC’s Executive Council sets a budget that, once
approved by TEC’s General Convention, is sent to
each diocese, setting out each diocese’s proportionate
part of estimated expenditures. Each diocese then
9

TEC’s governing documents define “Deposition” as “a
Sentence by which a Member of the Clergy is deprived of the
right to exercise the gifts and spiritual authority of God’s word
and sacraments conferred at ordination.”

45a
notifies each parish and mission therein of its
individual “apportionment” to be raised, “which shall
include both its share of the proposed Diocesan
Budget and its share of the objective apportioned to
the Diocese by the Executive Council.”10 Each diocese
accounts annually to the Executive Council for its
receipts and distributions, 11 and each diocese
submits an annual report that contains statistical
information concerning the diocese’s parishes and
missions and other “relevant information.” TEC
established and administers a pension fund for
TEC’s clergy supported by the royalties from
publications authorized by the General Convention
and by collections levied upon “all Parishes,
Missions, and other ecclesiastical organizations or
bodies subject to the authority of this Church.”
A parish, part of the third tier identified by the
supreme court, is governed by a rector or priest-incharge and a vestry comprised of lay persons elected
by parish members. Masterson, 422 S.W.3d at 600.
Members of the vestry must meet certain
qualifications, including committing to “conform to
the doctrine, discipline and worship of The Episcopal
Church.” Id. To be accepted into union with TEC, a
local congregation must accede to and agree to be
subject to the constitutions and canons of both TEC

10

The amount of “apportionment” suggested by the Executive
Council is based on the income of the parishes in the dioceses,
and TEC uses these funds for administration and to carry out
the Church’s programs nationally.
11

TEC makes loans to facilitate the acquisition of real
property and construction of church buildings through various
programs and entities.

46a
and the diocese in which the congregation is located.”
Id. 12
Every parish and other congregation prepares an
annual report to the bishop of its diocese, who then
sends a copy to TEC’s Executive Council. The annual
report covers not only the number of baptisms,
confirmations, marriages, and burials during the
year and the total number of baptized persons and
communicants in good standing but also a summary
of receipts and expenditures and “such other
relevant information as is needed to secure an
adequate view of the state of this Church, as
required by the approved form.” At the time that
EDFW joined TEC, “other relevant information”
12

By way of illustration, the record contains a copy of a March
15, 2002 letter from Bishop Iker to the rector, wardens, and
vestry of one of EDFW’s churches, informing them that
“[n]either the Episcopal Church nor this Diocese are
congregational in nature” and that the vestry accordingly could
not fire their congregation’s rector. Rather, he advised that the
vestry and rector were to work with each other “until such time
as the relationship is broken by the death or resignation of the
priest” or is dissolved by the bishop “acting with the counsel of
the Diocesan Standing Committee.”
The record also contains the memoir of Rector Emeritus
William A. Komstedt, who observed that “in the Bible Belt,
most people have a congregational understanding of church
administration” and that he was frequently asked why the
people of the St. Francis Mission would pay for land and
buildings that EDFW would end up owning. He wrote that “[i]n
time, most warmed to the idea after they were taught that the
diocese was like a house and its missions and parishes were like
rooms in it.” He also described the efforts taken by the mission’s
congregation to pay off the $31,500 no-interest, five-year loan
obtained from one of TEC’s programs, wiping out $21,000 of the
debt in one night by holding a gala Barbeque, Country Dance,
and Wild West show.

47a
included a statement of the real and personal
property held by each parish with an appraisal of its
value, the parish’s indebtedness for the property, and
the amount of insurance carried on the property.
B.

The Episcopal Diocese of Fort Worth
(EDFW)
1.

Diocese’s Origins

In 1849, “[t]he Church in the State of Texas
accede[d] to the Constitution of the Protestant
Episcopal Church in the United States of America”
and “acknowledg[ed] its authority,” and in 1850, the
Diocese of Texas was admitted into union with TEC.
In 1874, a missionary bishop of Northern Texas was
elected and consecrated and the Diocese of Texas was
delimited to set apart the area to the north and west
as the Missionary District of Northern Texas. Four
years later, the 1878 Journal of the Fourth Annual
Convocation of the Protestant Episcopal Church in
the Missionary District of Northern Texas set out the
form for a constitution of a parish acceding to the
TEC and diocesan constitutions and canons:
This Parish, as a constituent part of the
Protestant
Episcopal
Church
in
the
Missionary District of Northern Texas,
expressly accedes to, recognizes and adopts the
Constitution, Canons, Doctrines, Discipline
and Worship of the Protestant Episcopal
Church in the United States of America, and
the Constitution and Canons of the Protestant
Episcopal Church in this jurisdiction, and
acknowledges their authority accordingly.
In 1893, TEC’s constitution provided that no
churches or chapels would be consecrated until the

48a
bishop sufficiently certified that the property was
“secured, by the terms of the devise, or deed, or
subscription by which they are given, from the
danger of alienation, either in whole or in part, from
those who profess and practise the doctrine,
discipline, and worship of the Protestant Episcopal
Church in the United States of America.”
Two years later, the Diocese of Dallas held its first
diocesan convention. The preamble to its originating
December 1895 constitution states,
We, the Clergy and Laity, of the Protestant
Episcopal Church, in the United States of
America, resident in that portion of the State
of Texas which, by the General Convention of
said Church, was in the year A.D. 1874 set off
as the Missionary District of Northern Texas,
having been convened by the Missionary
Bishop of Northern Texas, for the purpose of
organizing a Diocese whose territorial limits
shall be co-extensive with those of said
Missionary District, do now, by and with the
consent of said Bishop and in order to effect
the organization of said Diocese, ordain and
establish this Constitution.
Over half a century later, at its 53rd annual
convention held in 1948, the Diocese of Dallas
amended its constitution’s article 13, “On Title to
Church Property.” That article provided that title to
all real property acquired “for the use of the Church
in this Diocese,” including the real property of all

49a
parishes and missions, “shall be vested in the Bishop
and his successors in office, in trust.”13
More than three decades after that, in June 1982,
the Diocese of Dallas held a special convention to
consider a resolution to divide itself and, if approved,
to request that TEC’s General Convention ratify the
division.14 The resolution passed.
TEC held its General Convention that same year,
from September 5 to 15, 1982. On the fourth day, the
motion to adopt Resolution B-18, providing for the
division of the Diocese of Dallas, carried in the House
of Bishops. On the seventh day, the House of
Deputies concurred, ratifying the division to create
EDFW (known at that time only as the “Western
Diocese”) based on, among other things, the
13

Alexander C. Garrett, who had been the Missionary Bishop
of Northern Texas, served as the Bishop of Dallas from 1874 to
1924 and was succeeded in that office by Harry T. Moore (who
served from 1924 to 1946), Charles Avery Mason, (who served
from 1946 to 1970), and A. Donald Davies (who served from
1970 until 1982, when Bishop Davies opted to become the
bishop of the newly formed EDFW). Clarence C. Pope served in
the office of EDFW’s bishop from 1986 until 1994, when he
retired to become a Roman Catholic. Bishop Iker was elected by
EDFW’s convention as bishop coadjutor in 1992 but was not
consecrated until 1993, when he received consent from TEC’s
other dioceses.
14

Under Article V of TEC’s constitution, one of the three ways
that a new diocese may be formed is through the division of an
existing diocese with the consent of the General Convention
“and under such conditions as the General Convention shall
prescribe by General Canon or Canons.” Under TEC’s
constitution, a new diocese may also be formed through the
joining of two or more dioceses or parts thereof or from mission
territory, which is “an unorganized area evangelized” by TEC
but not yet included in any of TEC’s dioceses.

50a
certificate of the Diocese of Dallas’s Chancellor that
all of the requisite documents had been executed and
“that all of the appropriate and pertinent provisions
of the Constitution and Canons of the General
Convention of the Episcopal Church in the USA and
the Constitution and Canons of the Diocese of Dallas
have been fully complied with in respect of this
submission.”
The October 1982 Annual Meeting Journal of the
Diocese of Dallas reflected that seventy-two years
after the division issue was first raised in 1910, the
Diocese of Dallas was finally sharing “in the trauma
and excitement of such a division,” resulting, at least
in part, from the area’s significant population growth
over time and the size of the diocese (larger than 43
other dioceses, including some dioceses that covered
entire states). 15 Bishop Davies observed that the
General Convention had ratified the action of the
diocesan convention when it voted to divide the
Diocese of Dallas, that the new diocese planned to
come into existence as of January 1, 1983, with the
filing of its documents with the Secretary of TEC’s
General Convention, and that the new diocese would
hold its primary convention on November 13, 1982,
to name itself, organize committees and officers,
accede to the national constitution and charters,
adopt its own constitution and charters, and
implement a budget.
15

In his address to the diocesan convention, Bishop Davies
noted that the “twin cities of Dallas and Fort Worth are
growing like young giants” and that “[t]he little towns in
between are stretching out their steel fingers with emerald
rings strung all along to bind each other together in bonds of
common life.”

51a
One of the resolutions promulgated at the Diocese
of Dallas’s October 1982 Annual Meeting declared
that “[t]itle to all real property . . . located within the
territorial boundaries of the western diocese shall be
transferred to the western diocese. 16 During the
meeting, the Diocese of Dallas’s Chancellor was
granted permission to initiate and conduct for the
diocese “such action in the courts of the State of
Texas as may be necessary and prudent for the
accomplishment of the goals and purposes of the
foregoing resolution, including partition actions, cypres actions, and other actions under the laws of
Texas or the United States.” Additionally, the
resolution provided that the division of all
corporations, foundations, and funds “shall be made
subject to the terms, conditions[,] and purposes of the
instruments establishing them and any amendments
thereto.”
EDFW adopted its constitution and canons on
November 13, 1982. It was admitted into union with
TEC on December 31, 1982.
2.

1983-1990

Article 13 of EDFW’s constitution provided that
“title to all real estate acquired for the use of the
Church in this Diocese . . . shall be held subject to
control of the Church in the Episcopal Diocese of Fort
Worth acting by and through a corporation” and that
“[a]ll such property as well as all property hereafter
16

The resolution provided that title to all such real property
would be transferred except for some small oil and gas interests
owned by Episcopal Funds, Inc., and the ad valorem tax
liability of Camp Crucis, which would be divided 65/35 between
the two dioceses.

52a
acquired for the use of the Church and the Diocese,
including parishes and missions, shall be vested in
[the] Corporation of the Episcopal Diocese of Fort
Worth.”17 EDFW’s canons established the parameters
for the Corporation’s management. See Episcopal
Diocese, 422 S.W.3d at 648. Specifically, canon 11,
“Corporation of the Episcopal Diocese of Fort Worth,”
set out,
Sec. 11.1 Corporation of the Episcopal Diocese
of Fort Worth is a non-profit benevolent” and
charitable organization organized under Texas
laws, also known as the “Diocesan
Corporation”. 18 In addition to its regular
powers, it may receive, hold, manage and
administer funds and properties acquired by
gift or by will or otherwise for the use and
benefit of the Diocese and any Diocesan
Institutions.
Sec. 11.2 The management of its affairs shall
be conducted and administered by a Board of
Trustees of five (5) elected members, all of
whom are either Lay persons 19 in good
standing of a parish or mission in the Diocese,
or members of the Clergy canonically resident
in the Diocese, in addition to the Bishop of the
Diocese who shall serve as Chairman of the
Board or may designate the President or other
officer of the corporation to serve as such. The
Board of Trustees shall have the power and
17

The Diocese of Dallas adopted a similar provision in
December 1983.
18

“Benevolent” was removed from the canon in 1989.

19

“Persons” was changed to “communicants” in 1989.

53a
authority to conduct the affairs of said
corporation in accordance with its charter and
by-laws and in accordance with the
Constitution and Canons of the Diocese from
time to time adopted.
Sec. 11.3 One member of the Board of Trustees
shall be elected at each Annual Convention
and each member shall serve a term of five (5)
years. The terms of members shall be so
arranged that the term of only one (1) member
shall expire annually. The Board of Trustees
shall fill any vacancy which occurs on the
Board until the annual election. The Bishop
shall nominate the members of the Board of
Trustees.
Sec. 11.4 The Board of Trustees shall adopt its
own by-laws and shall elect such officers as its
by-laws may require.
Sec. 11.5 The Board of Trustees shall submit a
report at each Annual Convention covering its
operations for the preceding fiscal year and
showing its financial condition. If and when
required by the Standing Committee of the
Diocese, the Board of Trustees shall make
such additional reports and furnish such
additional information as may [be]20 requested.
The books and records of the Board of Trustees
shall at all times be open for inspection and
examination by the Standing Committee of the
Diocese or its representatives.

20

By 1989, this typographical error in the original 1982 canon
had been corrected.

54a
EDFW filed articles of incorporation for the
Corporation on February 28, 1983. The 1983 articles
established that the Corporation was a nonprofit
corporation of perpetual duration with the following
purposes set out as follows, in pertinent part:
(1) To receive and maintain a fund or funds or
real or personal property, or both, from any
source including all real property acquired for
the use of the Episcopal Diocese of Fort Worth
as well as the real property of all parishes,
missions and diocesan institutions. Subject to
the limitations and restrictions hereinafter set
forth, to use and apply the whole or any part of
the income therefrom and the principal thereof
exclusively for charitable, religious, scientific,
literary, or educational purposes either
directly or by contributions to organizations
that qualify as exempt organizations under
Section 501(c)(3) of the Internal Revenue Code
and its Regulations as they now exist or as
they may hereafter be amended.
(2) The property so held pursuant to (1) supra
shall be administered in accordance with the
Constitution and Canons of the Episcopal
Diocese of Fort Worth as they now exist or as
they may hereafter be amended.
The articles also set out that the election of the
Corporation’s board of directors (“Board of Trustees”)
and their terms of office “shall be fixed by the bylaws of the corporation as the same may be adopted
and from time to time amended.”
The Corporation adopted its bylaws on May 17,
1983. Article I, “Authority,” states,

55a
Section 1. General The affairs of this nonprofit
corporation shall be conducted in conformity
with the Constitution and Canons of the
Episcopal Church in the United States of
America and the Constitution and Canons of
the Episcopal Diocese of Fort Worth, as they
may be amended or supplemented from time
to time by the General Convention of the
Church or by the Convention of the Diocese. In
the event of any conflict between these Bylaws
and any part or all of said Constitution or
Canons, the latter shall control.
The bylaws conferred general power to perform all
lawful acts and things “as are not by statute or by
the Articles of Incorporation or by these Bylaws
prohibited.” With regard to the number and election
of the board of directors and their terms of office, the
bylaws paralleled EDFW’s constitutional and
canonical provisions, stating,
The Bishop of the Diocese of Fort Worth shall
be the Chairman of the Board of Trustees of
the Diocesan Corporation. In addition to the
Bishop the number of elected Trustees which
shall constitute the Board shall be five. The
term of office for each elected Trustee shall be
for five years and each Trustee shall hold
office from the date of his election until his
successor shall have been duly elected and
qualified, or until his death, resignation,
disqualification or removal. There shall be
elected at each annual meeting one Trustee.
Trustees may be either lay persons in good
standing of a parish or mission in the Diocese
of Fort Worth, or members of the Clergy

56a
canonically resident within the Diocese, in
addition to the Bishop.
See Tex. Bus. Orgs. Code Ann. § 22.207 (West 2012)
(“Election and Control by Certain Entities”). The
bylaws also provided for holding regular meetings
and special meetings whenever called by the
President—designated in the bylaws as the
chairman of the board—”or by any two Trustees.”
They further provided that the quorum necessary to
transact business would be not less than a majority
of the total number of trustees then acting and set
forth the procedures for resignation, board vacancies,
and the removal of trustees: “Any Trustee of the
Diocesan Corporation may be removed by the Bishop
of the Diocese of Fort Worth.” The bylaws also
included a provision for amendment, stating,
These Bylaws may be amended, altered,
changed, added to or repealed, in whole or in
part, by the affirmative vote of a majority of
the total number of Trustees at any regular or
special meeting of the Board, if notice of the
proposed change is included in the notice of
such meeting.
In 1984, a civil court judgment transferred part of
the Diocese of Dallas’s real and personal property to
EDFW and vested legal title of the property in the
Corporation,21 except for certain assets for which the
Diocese of Dallas’s bishop and his successors had
been designated as trustee; those assets transferred

21

The 1984 judgment likewise vested legal title of the
property remaining with the Diocese of Dallas in the
Corporation of the Episcopal Diocese of Dallas.

57a
to EDFW’s bishop as trustee and to his successors in
office.22 Episcopal Diocese, 422 S.W.3d at 648.
3.

1991-2005

Less than ten years after its admission into union
with TEC, conflicts based on differing theological
views began to arise between both TEC and EDFW
and EDFW and some of its congregations.
In 1991, the Episcopal Church of St. Mary the
Virgin withdrew from TEC and EDFW to join a
Roman Catholic Diocese. 23
And at a standing
committee meeting, after TEC assigned an
apportionment of approximately $230,000 to EDFW,
the committee noted that “the withholding of
apportionment is regarded by some as sanctions
against immorality.” The committee agreed to allow
the individual parishes within EDFW to choose
whether to fund TEC’s Executive Council’s activities
22

The Diocese of Dallas and its diocesan corporation, EDFW
and its diocesan corporation, and the Dioceses’ bishops as
trustees were parties to the 1984 judgment. In the 1984
judgment, the trial court stated, “Nothing in this judgment
shall be deemed to deal with, or otherwise affect, properties,
real or personal, disposed of under testamentary or inter vivos
gift executed or effective prior to December 31, 1982, which
bequest is to the Diocese of Dallas or the Bishop thereof,” but it
also noted that the two dioceses had resolved that their “various
assets, properties, investments, trusts and related matters”
would be divided in an equitable manner.
23

EDFW’s standing committee unanimously recommended
that the parish be allowed to withdraw upon receipt and review
of proper documentation, and in 1993, the standing committee
approved the Roman Catholic Diocese’s board of trustees’
resolution to pay off the loan on the former Episcopal parish’s
property and to transfer title to the property to the Roman
Catholic Diocese.

58a
by apportionment through vestry action indicating
whether the individual parish’s percentage of the
diocesan assessment would be forwarded to TEC’s
Executive Council or should remain under EDFW’s
control.
During the 1990s, the standing committee received
a letter from another diocese that “encouraged the
Diocese of Fort Worth to remain in the Episcopal
Church” and other correspondence “from those
dioceses questioning the intentions of [EDFW] of
remaining in the Episcopal Church in the United
States of America and the reasons why [EDFW] had
reduced its apportionment to the Executive Council’s
program.”
In 1992, the rector and vestry of Holy Apostles
Episcopal Church, one of EDFW’s parishes,
announced the parish’s intent to seek membership in
the Antiochean Orthodox Church and to sever its
relationship with EDFW, TEC, and “the rest of the
Anglican Communion.” 24 Around then, EDFW’s
standing committee discussed developing a “future
strategy regarding a parish that may try to leave and
take diocesan property with them,” and in early
1994, the committee finalized the membership of a
“Protection of Diocesan Property Committee.”25 The
24

The standing committee agreed that the Holy Apostles
rector and vestry had left them “no choice but to pursue in the
manner required under the Canons of the Episcopal Church
and the Diocese of Fort Worth,” including obtaining a
temporary restraining order and notices to inhibit and to
excommunicate. Three years later, a negotiated settlement cut
short litigation between EDFW and the breakaway parish and
returned full possession of the property in question to EDFW.
25

Later in 1994, one of the standing committee’s members,
the Reverend Keith L. Ackerman, resigned to become the

59a
president of the standing committee was named as
the property protection committee’s chairman. Also
during the same time period, the standing committee
questioned whether it had veto power over the
Corporation’s trustees. At their June 1993 meeting,
the standing committee received the answer to its
question—after a lengthy discussion between Canon
James DeWolfe, Bishop Iker, and the Corporation’s
trustees, it was determined that the Corporation’s
trustees “had final authority in matters concerning
Diocesan property.”
By 2000, TEC’s General Convention had formed a
task force to visit EDFW regarding the
implementation of some of TEC’s resolutions. In
2000 and 2001, the standing committee was faced
with ecclesiastical charges involving Samuel L.
Edwards, one of the priests then canonically resident
in EDFW. Edwards had moved from Texas to begin
acting as the rector of a parish in the Diocese of
Washington despite having not been licensed to do so
by the bishop pro tempore of the diocese in which
that parish was located. See Dixon v. Edwards, 290
F.3d 699, 703, 705, 707 (4th Cir. 2002). 26 On
Bishop of the Diocese of Quincy, which subsequently faced
property issues similar to the ones in the instant case. See
Diocese of Quincy v. Episcopal Church, 2014 IL App (4th)
130901, 55 1, 383 III.Dec. 634, 14 N.E.3d 1245, 1249-50 (Ill.
App. Ct. 2014), appeal denied, 386 III.Dec. 794, 21 N.E.3d 713
(Ill. 2014).
26

A federal lawsuit filed not long after the ecclesiastical charges
against Edwards were transferred to EDFW sought a
declaration that Edwards was not the parish’s rector based on
his not being found “duly qualified” under a TEC canon, in part
on Edwards’s having advised the bishop pro tempore that “he
would not guarantee her that he would not attempt to lead

60a
December 17, 2001, the standing committee issued a
presentment against Edwards on one of the three
ecclesiastical charges, id. at 707, and the following
year the standing committee consented to Edwards’s
deposition.
In 2003, EDFW continued to object to actions by
TEC and other dioceses with which it disagreed, and
the standing committee unanimously agreed “to
work together in initiating a gathering . . . in
[EDFW] of the Network of Confessing Dioceses in
order to work on the realignment of the Anglican
Christ Church out of [TEC] or attempt to take Church property
as part of that effort.” Dixon, 290 F.3d at 703, 705-08 & nn.5, 8.
Along with then-Bishop of the Diocese of Pittsburgh Robert
William Duncan Jr., Bishop Iker filed an amicus brief in the
federal suit in support of Edwards on January 8, 2002. In the
brief, the two bishops stated that an Episcopal bishop “is
governed by the constitution and canons of the Church” and
that an Episcopal bishop does not act “independently of the
checks and balances of the legal system of which they are a
part. A bishop must adhere to the constitution and canons of
the Church or be subject to discipline.” They also stated that
“[t]he dioceses have canons that cannot be inconsistent with
national canons.” The district court awarded summary
judgment to Washington’s bishop pro tempore, and the Fourth
Circuit affirmed the district court’s judgment in May 2002. Id.
at 703.
Presiding Bishop Schori deposed Duncan on September 19,
2008, and on October 4, 2008, the majority of the Pittsburgh
Diocese voted to secede from TEC and align with the Anglican
Province of the Southern Cone. Calvary Episcopal Church,
Pittsburgh v. Duncan, No. 293 C.D. 2010, 2011 WL 10841592,
at *2, *5 (Pa. Commw. Ct. Feb. 2, 2011) (construing “the
Episcopal Diocese of Pittsburgh of the Episcopal Church of the
United States of America” as used in stipulation to mean the
loyalist faction that remained with TEC), appeal denied, 612
Pa. 705, 30 A.3d 1193 (Pa. 2011).

61a
Communion.” The standing committee met with a
bishop of the Reformed Episcopal Church (REC) in
May 2003, and decided to meet with REC in the
future to further discuss their relationship.27
EDFW was not the only diocese experiencing strife
in its relationship with TEC during this time. In
addition to the Diocese of Quincy28 and the Diocese of
Pittsburgh, 29 which were experiencing their own
differences with TEC, in 2004, the Diocese of San
Joaquin began the process of amending its governing
documents, including the articles of incorporation for
“the corporation sole,” which held title to the
diocese’s trust funds and real property, redefining
how the vacancy of a bishop was to be filled, and
omitting the requirements that the local choice of
bishop be approved by the national church as
provided in TEC’s constitution and canons. See
Diocese of San Joaquin v. Gunner, 246 Cal. App.4th
254, 202 Cal.Rptr.3d 51, 56-57 (2016, pet. denied)
(op. on reh’g). Nevertheless, even as St. Michael’s
Episcopal Church in Fort Worth considered holding a
27

REC was organized in 1873 after a schism with TEC. See
The Reformed Episcopal Church, An Overview of the REC,
http://www. recus.org/about.html (last visited Mar. 28, 2018).
REC’s vision, as set out in a paper by its bishop that was
distributed at a 2003 standing committee meeting, was the
formation of an Anglican Province of America outside of TEC.
28

See Diocese of Quincy, 2014 IL App (4th) 130901, 5 9, 383
Ill.Dec. 634, 14 N.E.3d at 1250 (“Over the years a doctrinal
controversy developed. . . . “).
29

See Calvary, 2011 WL 10841592, at *1 (noting that in 2003,
Calvary Episcopal Church filed a complaint against Duncan
and members of the Diocese of Pittsburgh’s standing
committee, alleging that they “intended to extinguish the
property rights and interests of” TEC).

62a
parish vote to leave TEC and affiliate with the
Anglican Church in America, in 2005, Bishop Iker
and the standing committee still expressed hope that
“all of us will stand together during this time of
difficulty in the Episcopal Church.”
4.

2006-2008

In June 2006, immediately after Presiding Bishop
Schori’s election, Bishop Iker and the standing
committee approved the following statement,
The Bishop and the Standing Committee of
the Episcopal Diocese of Fort Worth appeal in
good faith to the Archbishop of Canterbury,
the Primates of the Anglican Communion, and
the Panel of Reference for immediate
alternative Primatial Oversight and Pastoral
Care following the election of Katharine
Jefferts Schori as Presiding Bishop of the
Episcopal Church.
This action is taken as a cooperative member
of the Anglican Communion Network in light
of
the
Windsor
Report
and
its
recommendations.
A month later, Bishop Iker discussed with the
standing committee a recent meeting of EDFW’s
Constitution and Canons Committee and its
proposed resolutions, additions, and changes to
EDFW’s constitution and canons “in light of recent
developments in our Church,” which would be
submitted to the diocesan convention in November
2006.30
30

In July 2006, Bishop Iker, along with the bishops of Dallas,
Pittsburgh, San Joaquin, South Carolina, Springfield, and
Central Florida, appealed to the Archbishop of Canterbury,

63a
On August 15, 2006, the Corporation amended its
bylaws to remove all references to TEC. Episcopal
Diocese, 422 S.W.3d at 648. Article I, “Authority,”
was amended to provide that the Corporation’s
affairs
shall be conducted in conformity with the body
now known as the Episcopal Diocese of Fort
Worth’s acknowledgment of and allegiance to
the One, Holy, Catholic and Apostolic Church
of Christ; recognizing the body known as the
Anglican Communion to be a true branch of
said Church; with all rights and authority to
govern the business and affairs of the
Corporation being solely in the board of
trustees (as hereinafter defined, the “Board”)
of the Corporation.
This amendment also deleted the reference to “the
Constitution and Canons of the Episcopal Church in
the United States of America and the Constitution
and Canons of the Episcopal Diocese of Fort Worth.”
A new section was added to Article II, “Directors,”
which stated,
Section 2. The Bishop. The bishop recognized
by the body now known as the Episcopal
Diocese of Fort Worth (the “Bishop”) shall be a
trustee and a member of the Board. The
Bishop shall be the Chairman of the Board of
the Corporation.

asserting, “Seven dioceses are seeking to reshape their life
together as dioceses . . . under the oversight of a Canterbury
appointed Commissary, temporarily exercising some of the
responsibilities normally assigned to the American primate.”

64a
In the event of a dispute or challenge
regarding the identity of the Bishop of the
body now known as the Episcopal Diocese of
Fort Worth, the Elected Trustees (as
hereinafter defined in Article II, Section 3)
shall have the sole authority to determine the
identity of the Bishop for purposes of the
Corporation’s Articles of Incorporation, as
amended from time to time, and these Bylaws.
In the event the body now known as the
Episcopal Diocese of Fort Worth is without a
Bishop, a majority of the Elected Trustees
shall have the sole authority to appoint a
Chairman of the Board who shall, for purposes
of the Corporation’s Articles of Incorporation,
as amended from time to time, and these
Bylaws, have all the rights and privileges of
the Bishop of the body now known as the
Episcopal Diocese of Fort Worth.
If a determination pursuant to this Article II
becomes necessary in the discretion of any
member of the Board, the Board member may
call a special meeting of the Board, subject to
the notice provisions set forth in these Bylaws,
for the purpose of making the determination.
The vote of a majority of members of the Board
present at the special meeting, wherein a
quorum is present, shall be decisive.
There was no change to the number, election, or
terms of office for trustees other than to clarify that
the trustees, who were elected at a rate of one per
annual meeting, could be either lay persons in good
standing of a parish or mission “in the body now
known as the Episcopal Diocese of Fort Worth” or

65a
members of the clergy “canonically resident within
the geographical region of the body now known as
the Episcopal Diocese of Fort Worth.” The rest of the
sections remained substantively unchanged except
for the section pertaining to removal of trustees.
While the previous version of the section provided
that any trustee could be removed by the bishop, the
amended section stated that any elected trustee
could be removed by a majority of the remaining
members of the board. The amended bylaws also
stated, “These Bylaws were considered and
unanimously approved at the Board’s annual
meeting August 15, 2006, at which every Board
member was present.”
On September 5, 2006, the Corporation’s board
likewise amended the Corporation’s articles of
incorporation. Id. The preamble recited that articles
IV, V, and VI had been revised and approved by a
unanimous vote by the board on August 15, 2006.
Section 1 of article IV was amended to state that
the Corporation was organized “[t]o receive and
maintain a fund or funds or real or personal
property, or both, from any source,” deleting the
portion of the earlier article that specified that “any
source” included “all real property acquired for the
use of [EDFW] as well as the real property of all
parishes, missions and diocesan institutions.”
Section 2 of article W was amended to state that
the property held under section 1 “shall be
administered in accordance with the Bylaws of the
Corporation as they now exist or as they may
hereafter be amended,” deleting reference to EDFW’s
constitution and canons. Article VI incorporated a
provision to identify the Corporation’s chairman,

66a
paralleling and referencing the amended bylaws.
Article VI also listed the names of the trustees
serving at that time: Salazar, Barber, Bates, Virden,
Patton, and Bishop Iker. According to Virden, the
2006 amendments to the Corporation’s bylaws “were
not adopted as part of any plan to withdraw from
TEC, as those discussions did not begin until the
summer of 2007.”
On October 19, 2006, Presiding Bishop Schori
informed Bishop Iker that some of the provisions in
EDFW’s constitution and canons were contrary to
TEC’s constitution and canons and that those
provisions needed to be changed. Otherwise,
Presiding Bishop Schori said that she would have to
consider what sort of action to take to bring EDFW
into compliance. On November 15, 2006, TEC’s
Executive Council received a task force report
identifying EDFW as a “problem diocese” that
needed to be monitored.
On June 14, 2007, TEC’s Executive Council
declared some of EDFW’s constitutional and
canonical amendments to be “null and void.” Four
days later, Bishop Iker and the standing committee
released a statement noting that an adversarial
relationship had developed between EDFW and TEC,
asserting that TEC’s Executive Council “ha[d] no
legislative authority, and its resolutions [were] not
binding on anyone,” and further positing that it was
the Executive Council’s resolution “in this matter
that is null and void, and it is of no force or effect in
this Diocese.”
On November 8, 2007, the week before EDFW’s
November 17, 2007 Annual Convention, Presiding
Bishop Schori published an open letter to Bishop

67a
Iker, stating that several of the proposed changes to
EDFW’s constitution would violate the requirement
in TEC’s constitution for the diocese’s “unqualified
accession.”31 In the letter, she warned Bishop Iker of
the potential canonical consequences and asked him
to lead EDFW “on a new course that recognizes the
interdependent
and
hierarchical
relationship
between the national Church and its dioceses and
parishes” instead of in a direction “that would
purportedly permit [EDFW] to depart from [TEC].”
The Episcopal Church, Fort Worth bishop receives
notice of possible consequences if withdrawal effort
continues (Nov. 8, 2007), at https://www.episcopal
church.org/library/article/fort-worth-bishop-receivesnoticepossible-consequences-if-withdrawal-effort.
On November 12, 2007, Bishop Iker responded by
publishing his own open letter, in which he stated,
While I do not wish to meet antagonism with
antagonism, I must remind you that 25 years
ago this month, the newly formed Diocese of
Fort Worth voluntarily voted to enter into
union with the General Convention of the
Episcopal Church. If circumstances warrant it,
we can likewise, by voluntary vote, terminate
that relationship. Your aggressive, dictatorial
posturing has no place in that decision. Sadly,
however, your missive will now be one of the
31

In the interest of time, instead of requesting that the
already voluminous record be supplemented, we have opted to
take judicial notice sua sponte of Presiding Bishop Schori’s
letter and Bishop Iker’s response—both of which were
published on the internet and referenced, but not included, in
the record—for the sole purpose of providing context for the
parties’ dispute. See Tex. R. Evid. 201.

68a
factors that our Convention will consider as we
determine the future course of this diocese for
the next 25 years and beyond, under God’s
grace and guidance.
The Episcopal Diocese of Fort Worth, A letter from
Bishop Iker to the Presiding Bishop (Nov. 12, 2007),
at
http://www.
fwepiscopal.org/bishop/bishoppbreply.html.
In his November 17, 2007 address at the Annual
Convention, Bishop Iker recounted the Executive
Council’s resolution and stated “that such
declarations exceeded the authority of the Executive
Council, which is responsible for the program and
budget of the General Convention, and that they had
no legislative or judicial authority to make such a
pronouncement.” Bishop Iker stated, “The Council’s
declaration about the legitimate legislative process
in this Diocese is, in fact, null and void.” Bishop Iker
also voiced his objection “to the claim that the
Presiding Bishop has any canonical authority in this
Diocese or any legitimate power over the leadership
of this Diocese” and stated that “[t]here is no such
thing as the national Church,” but rather a
confederation of dioceses.
At the standing committee’s follow-up meeting on
November 19, 2007, Bishop Iker expressed his desire
that his convention address be shown in all of
EDFW’s parishes and missions prior to each
congregation’s annual parish meeting. The standing
committee discussed with Bishop Iker “the need to
begin immediate study of the Constitution and
Canons of the Province of the Southern Cone.”
In January 2008, Bishop Iker sent a directive to
appoint clerical members of the standing committee

69a
plus four rectors “who have said they want to remain
in TEC and four who believe it is time to separate,”
asking for their assistance in addressing conflicts in
EDFW “concerning the plan to separate from The
General Convention of The Episcopal Church.” Three
months later, at the March 2008 meeting, the
standing committee also discussed, among other
things, “the current situation in the Diocese of San
Joaquin.”32
A month later, the committee’s notes reflect that
Bishop Iker was “trying to work out a pastoral plan
and provision” for the parishes “who may wish to
remain in TEC following [the] November Diocesan
Convention,” with the assistance of Dallas’s bishop
and standing committee. Bishop Iker and the
standing committee sent a letter to the Internal
Revenue Service to inform the IRS that EDFW “no
longer desires to be included under the group ruling
of the Protestant Episcopal Church of the United
States of America.” In May 2008, the standing
committee approved a new civil employment contract
32

A month after EDFW’s November 2007 convention, the
annual convention of the Diocese of San Joaquin voted to leave
TEC and to affiliate with the Anglican Province of the Southern
Cone. Diocese of San Joaquin, 202 Cal.Rptr.3d at 57. The
bishop of that diocese then filed with the California Secretary of
State an amendment to the articles of incorporation of the
corporate sole to change its name from “The Protestant
Episcopal Bishop of San Joaquin” to “The Anglican Bishop of
the Diocese of San Joaquin.” Id. In March 2008, the San
Joaquin bishop was deposed by TEC. Id. at 57-58. The Right
Reverend John Clark Buchanan, a member of TEC’s House of
Bishops, averred that since 2006, the leaders of five of TEC’s
109 dioceses—including EDFW, the Diocese of Pittsburgh, and
the Diocese of San Joaquin—had purported to remove their
dioceses from TEC over internal disputes.

70a
with Bishop Iker and ended the former employment
agreement.
Reverend Buchanan declared in his affidavit that
in 2008, prior to EDFW’s purported disaffiliation,
TEC’s House of Bishops had “affirmed that diocesan
leaders have no authority to remove their dioceses
from The Episcopal Church.” But by September
2008, the standing committee was poised to
recommend that EDFW “affiliate with the Anglican
Province of the Southern Cone as a member diocese,
on a temporary, pastoral basis, until such time as an
orthodox Province of the Anglican Communion can
be established in North America.” The standing
committee’s members unanimously approved and
endorsed the following resolution from EDFW’s
Convention Resolutions Committee:
BE IT RESOLVED, that the Episcopal Diocese
of Fort Worth, meeting in its 26th Annual
Convention, does hereby accept the provision
made by the Anglican Province of the
Southern Cone, and the Episcopal Diocese of
Fort Worth does hereby immediately enter
into membership with the Anglican Province
of the Southern Cone as a full and equal
constituent member of such Province, and the
Episcopal Diocese of Fort Worth does hereby
accede to the authority of the Constitution and
Canons of the Anglican Province of the
Southern Cone to the extent such Constitution
and Canons are not contrary to Holy Scripture
and the Apostolic teaching of the one holy,
catholic and apostolic Church.
In September 2008, Bishop Iker sent a letter to the
rector of All Saints Episcopal Church, Christopher

71a
Jambor, stating that properties located at 4936,
4939, 5001, and 5005 Dexter Avenue, Fort Worth,
were not “picked up” by the 1984 declaratory
judgment nor held by the Corporation but rather
were held in the name of All Saints Episcopal
Church. In the letter, Bishop Iker asked that a deed
be executed to transfer the parcels to the
Corporation.
On November 15, 2008, in his address at the 26th
Annual Convention, Bishop Iker observed that
EDFW had come “to this historic moment of decision
making” during which EDFW would “vote to rescind”
its accession to TEC’s constitution and canons and to
align itself “instead with an orthodox Province of the
Anglican Communion, the Province of the Southern
Cone.” Bishop Iker stated,
Some have asked, “Will we still be
Episcopalians after our realignment vote is
taken?” And the answer is, “Well, yes and no—
that all depends!” After all, no one can “unEpiscopalian-ize you, and no one is being
kicked out of the family. We will still be The
Episcopal Diocese of Fort Worth. We are not
changing our name, because we are not
changing our identity. We will still have an
Episcopal form of polity, which means being in
a church that is under a Bishop. We will
continue to stand for what our forebears
meant
when
they
called
themselves
Episcopalians. But we will no longer be a part
of the ecclesiastical structure sometimes
known as the Protestant Episcopal Church in
the United States of America, which is
governed by the General Convention. TEC is

72a
not the only Episcopal Church in the Anglican
Communion, and it does not own the name
“Episcopalian.”
....
. . . [T]he proposals before this Convention
have one clear message: We here in the
Episcopal Diocese of Fort Worth intend to be
who we have always been, to believe what we
have always believed, and to do what we have
always done. We are not going away, nor are
we abandoning anything. We are not leaving
the Church—we are the Church. We will
remain an orthodox diocese of catholic
Christians, full members of the worldwide
Anglican Communion.
The majority of EDFW’s Annual Convention voted to
leave TEC and to affiliate with the Anglican Province
of the Southern Cone.33
Following the 26th Annual Convention in
November, EDFW published a statement on its
website, declaring,
We remain a member diocese of the Anglican
Communion.
We remain the Episcopal Diocese of Fort
Worth. The word “episcopal” identifies us as
part of the apostolic succession, with a bishop
as our elected chief pastor.
We remain in communion with other
Episcopalians. We share fellowship with all
33

The proposed constitutional amendments under
consideration at the Annual Convention were the same ones
presented the previous year that required a second reading.

73a
those in any Province who recognize the
authority of Scripture and the faith and order
of historic Anglicanism.
Shortly thereafter, TEC issued a letter of
inhibition, to which Bishop Iker replied three days
later, stating that “the inhibition is of no force or
effect, since the Bishop and Diocese, meeting in
annual convention, constitutionally realigned with
another province of the Anglican Communion on
Saturday, Nov. 15, and are now constituent members
of the Anglican Province of the Southern Cone.”
Bishop Iker further clarified his position, stating,
Katharine Jefferts Schori has no authority
over me or my ministry as a Bishop in the
Church of God. She never has, and she never
will.
Since November 15, 2008, both the Episcopal
Diocese of Fort Worth and I as the Diocesan
Bishop have been members of the Anglican
Province of the Southern Cone. As a result,
canonical declarations of the Presiding Bishop
of The Episcopal Church pertaining to us are
irrelevant and of no consequence.
On December 5, 2008, TEC accepted Bishop Iker’s
November 24, 2008 renunciation and removed and
released him from the obligations of all ministerial
offices of TEC. On December 16, 2008, at a special
meeting of the standing committee, the Corporation’s
board, and the chairman of the constitution and
canons committee, the first item of discussion
addressed parishes and individuals who wanted to
stay with TEC. Of particular concern was the
perception that the “Steering Committee of North
Texas Episcopalians” and the “ ‘Remain Episcopal’

74a
folks” were using the official Diocesan shield “in lots
of their publicity—in newspaper ads and on the web,
etc.—identifying themselves boldly as the Episcopal
Diocese of Fort Worth in the Episcopal Church
U.S.A,’ ” which the meeting’s attendees said was
confusing and misleading. Those attending
unanimously agreed to send a “cease and desist”
letter regarding use of EDFW’s official seal and
shield in publicity. They then discussed the “very
conflicted situation which now exists at All Saints’
Church, Fort Worth.”
5.

2009

Presiding Bishop Schori issued a “Notice of Special
Meeting of the Convention of the Episcopal Diocese
of Fort Worth, Saturday, February 7, 2009.” In that
notice, she stated that as there was no bishop nor
any qualified members of the standing committee in
the diocese, she had called the meeting “in
consultation with the Steering Committee of faithful
Episcopalians of that Diocese,” to elect a provisional
bishop and to elect or appoint members of the
standing committee, executive council, and other
officers, to adopt a budget, and to consider
resolutions
relating
to
“recent
purported
amendments to the Constitution and canons of the
Diocese,” as well as other resolutions relating to the
TEC-affiliated
diocese’s
organization
and
governance.
The emergency convention convened at Trinity
Episcopal Church under Presiding Bishop Schori.
After quorums were verified and the “parliamentary
necessities were accomplished,” the first order of
business was to elect a provisional bishop. Edwin F.
Gulick Jr., who was elected to the post, thereafter

75a
made appointments to various commissions and
committees for the vacancies resulting from the
schism. Bishop Gulick also appointed trustees for the
Corporation, on the basis that the previous trustees’
effective resignation occurred when they left TEC by
the “irregular, illegal action of the convention in
2008.”34
In his deposition, Bishop Gulick acknowledged that
the Corporation’s board members were supposed to
be elected one per year and, between sessions,
replacements would be voted on by the board. And
despite his inability to point to specific language
authorizing EDFW to remove all of the trustees, he
nevertheless explained that “in the unforeseen,
unanticipated emergency moment,” everything
possible had been done to comply with EDFW’s and
TEC’s constitutions and canons.
On April 14, 2009, the TEC parties adopted
amended and restated articles of incorporation for
the Corporation and filed them with the Texas
Secretary of State. These amended and restated
articles purported to return to the Corporation’s
original articles of incorporation (i.e., administration
in accordance “with the Constitution and Canons of
the Episcopal Diocese of Fort Worth and the
Episcopal Church of the United States”), and listed
Bishop Gulick, James Hazel, John Stanley, Robert

34

Additionally, Bishop Gulick testified in his deposition that
“sufficient persons” were elected in offices “necessary to conduct
the business of the Diocese.”

76a
Bass, Cherie Shipp, and Trace Worrell as the current
members of the board of trustees.35
At the 27th Annual Meeting of the Diocesan
Convention on November 14, 2009, the TECaffiliated EDFW ratified the actions of the February
7, 2009 special meeting, and after Bishop Gulick’s
resignation, C. Wallis Ohl was elected and installed
as the TEC-affiliated EDFW’s bishop. The same
individuals who were put into place at the February
7, 2009 special meeting were elected to the TECaffiliated diocese’s standing committee and the
Corporation’s board of trustees. The convention also
ratified the resolutions made and actions taken at
the February 7, 2009 special meeting and brought
EDFW’s constitution and canons back into
compliance with TEC’s constitution and canons.
Bishop Ohl testified that the faction headed by
Bishop Iker was not the “Episcopal Diocese of Fort
Worth,” that he—not Bishop Iker—was the
legitimate and properly elected EDFW Bishop, and
that he, Hazel, Shipp, Worrell, Bass, and Stanley—
and not Bishop Iker, Salazar, Patton, Virden,
Barber, and Bates—were the Corporation’s
legitimate and properly elected trustees. See
Episcopal Diocese, 422 S.W.3d at 647-49.
C.

The Lawsuit

On the same day that the TEC parties’ amended
and restated Articles of Incorporation were filed—
April 14, 2009—the TEC parties filed suit for
conversion and violations of business and commerce

35

A week later, Bishop Iker sent a certificate of correction to
the secretary of state regarding the Corporation’s articles.

77a
code section 16.29.36 Additionally, the TEC parties
sought declaratory and injunctive relief regarding
who could act as EDFW’s representatives and who
had use and control of EDFW’s real and personal
proper-ty.37 See In re Salazar, 315 S.W.3d 279, 282
(Tex. App.—Fort Worth 2010, orig. proceeding).
1.

Summary Judgment—First Round

The parties filed competing motions for summary
judgment. As explained by the supreme court,
In its motion for summary judgment TEC
argued, in part, that the actions of the Board
of Trustees in amending the Fort Worth
Corporation’s articles of incorporation were
void because the actions went beyond the
authority of the corporation, which was
created and existed as an entity subordinate to
a Diocese of TEC. TEC argued that “[t]he
secular act of incorporation does not alter the
relationship between a hierarchical church
and one of its subordinate units” and that
finding
otherwise
“would
risk
First
36

Business and commerce code section 16.29 is now section
16.103, “Injury to Business Reputation; Dilution.” See Tex. Bus.
& Com. Code Ann. § 16.103 (West Supp. 2017).
37

In 2009, the Corporation transferred titles to Trinity
Episcopal Church (Fort Worth) and St. Martin-in-the-Fields
Episcopal Church (Southlake) to the rector, wardens, and
vestry of these parishes that stayed with TEC. It also
transferred title to St. Luke’s Episcopal Church (Stephenville)
to the rector, wardens, and vestry of that parish after evidence
of satisfactory removal of the Corporation’s name from any
encumbrances on the property. Bishop Iker thereafter issued
orders dissolving the relationship between the diocese and
these churches.

78a
Amendment implications.” The Diocese, on the
other hand, argued that the case was governed
by the Texas Non-Profit Corporation Act and
the Texas Uniform Unincorporated Nonprofit
Association Act; under those statutes a
corporation may amend its articles of
incorporation and bylaws; and TEC had no
power to limit or disregard amendments to the
Corporation’s articles and bylaws.
Episcopal Diocese, 422 S.W.3d at 650 (footnotes
omitted).
After the trial court granted summary judgment
and issued a declaratory judgment for the TEC
parties in 2011, stating that the changes made by
Appellees to the Corporation’s articles and bylaws
were ultra vires and void, 38 Appellees appealed
directly to the supreme court. The heart of the
dispute, as identified by the supreme court, was
“whether the ‘deference’ (also sometimes referred to
as the ‘identity’) or ‘neutral principles of law’
methodology should be applied to resolve the
property issue.” Id. at 649.
The court’s opinion in the direct appeal issued in
2013. In it, the court reversed the trial court’s
judgment and remanded the case to the trial court to
38

The original cause number in the trial court was 141237105-09. The trial court granted Appellees’ motion to sever to
make the trial court’s interlocutory judgment for the TEC
parties final and appealable. The trial court severed the claims
subject to the summary judgment into cause number
141252083-11 and stayed the remainder of the unfinished
action. Among others, the petitioners in the direct appeal
included Bishop Iker, Salazar, Patton, Virden, Barber, Bates,
several clergy, and 47 churches.

79a
be considered under the neutral principles
methodology. Id. at 647. In its opinion, the court
stated that under this methodology, ownership of
disputed property is to be determined by considering
evidence such as the deeds to the properties, the
terms of the local church charter (including articles
of incorporation and bylaws, if any), the relevant
provisions of governing documents of the general
church and local church entities, the governing state
statutes, and other items as applicable. Id. at 651-52
(“[O]n remand the trial court is not limited to
considering only the four factors listed in Jones [v.
Wolf, 443 U.S. 595, 99 S.Ct. 3020, 61 L.Ed.2d 775
(1979)]. . . . [t]he elements listed in Jones are
illustrative.”). It also referenced Masterson, which
issued on the same day, as applicable to this case
regarding church canons and Texas law. Id. at 653.
In Episcopal Diocese as well as in Masterson, the
court established guidance for the case on remand.
In Episcopal Diocese, the court observed, “[A]bsent
agreement or conclusive proof of title to the
individual properties and the capacities in which
titles were taken, fact questions exist under neutral
principles of law, at a minimum, about who holds
title to each property and in what capacity.” Id. at
652. The court also instructed,
While we agree that determination of who is or
can be a member in good standing of TEC or a
diocese is an ecclesiastical decision, the
decisions by Bishops Gulick and Ohl and the
2009 convention do not necessarily determine
whether the earlier actions of the corporate
trustees were invalid under Texas law. The
corporation was incorporated pursuant to

80a
Texas corporation law and that law dictates
how the corporation can be operated, including
determining the terms of office of corporate
directors, the circumstances under which
articles and bylaws can be amended, and the
effect of the amendments.
Id. The court concluded that the record failed to
conclusively show as a matter of law that the
Corporation’s trustees had been disqualified from
serving as such at the relevant times, whether the
2009 appointments to the Corporation’s board by
Bishop Ohl were valid or invalid under Texas law, or
whether, under Texas law, the actions taken by the
trustees appointed by Bishop Ohl in 2009 were valid
or invalid. Id. at 652-53.
2.

Summary Judgment—Second Round

Upon remand to the trial court, the TEC parties
filed an amended petition in which they renewed
their severed claims. 39 By this time the severed
claims included not only conversion and business
and commerce code section 16.29 violations but also
breach of fiduciary duty, breach of trust, trespass to
try title, and an action to quiet title. Additionally,
the TEC parties had pleaded for the imposition of a
constructive trust under a number of theories,
including estoppel. They also continued to seek
declaratory
and
injunctive
relief
and
an
accounting.”40
39

Prior to the TEC parties’ filing the amended petition, the
trial court had denied their motion to consolidate their
previously severed claims.
40

Appellees moved to strike the renewed claims, but the trial
court denied the motion.

81a
The parties once more filed competing motions for
partial summary judgment.”41
a.

Appellees’ Motion and the TEC
Parties’ Response

In their motion, Appellees argued:


that the deeds, the 1984 judgment, the Diocese’s
charters, and adverse possession vested the
Corporation with title and control, that TEC’s
charters made no claim to title and only asserted
an invalid trust, and that the TEC parties’
pleadings conceded that title was in the
Corporation;
41

We note here that in considering the competing summary
judgment motions, the trial court was faced with the same
herculean task that has been presented to us on appeal. First, it
was required to read a record totaling over 10,000 pages on
remand, a task that would take an above-average reader, such
as a trial judge, an estimated 200 hours, or between five and six
weeks, assuming he or she devoted 40 hours per week solely to
the endeavor. (Including the portions of the record developed
prior to the direct appeal, the record currently totals over
14,000 pages.) Then the trial court was presented with the
daunting task of conducting the research and analysis
necessary to apply to that voluminous record such exceedingly
complex legal issues as state corporations, associations, and
trust law, heavily overlaid by the U.S. Supreme Court’s First
Amendment jurisprudence, an endeavor that could easily have
taken as much time—if not a good deal more—than the reading
of the record. All the while, the trial court was expected to carry
out its other obligations of attending to the hundreds of cases
pending on its docket that were, likewise, deserving of the trial
court’s attention. On appeal, as acknowledged by Appellees in
their February 12, 2018 “Supplemental Response to Latest
Letter Brief,” we have received an additional “346 pages of
briefing from the parties in this appeal” to consider and
address.

82a







that state corporations and associations law
requires adherence to the Corporation’s and
Association’s bylaws, making Appellees the
Corporation’s elected trustees and Bishop Iker
the chairman of the Corporation’s board and
depriving the TEC parties of standing when
TEC’s own charters prevented the TEC parties
from convening the special convention upon
which their claims were based;
that state law prohibits an express, implied, or
constructive trust interest for the TEC parties;
that the same rules that allocated control to
Appellees of the real property also applied to the
funds, trusts, and endowments that the TEC
parties sought; and
that estoppel and quasi-estoppel did not apply
because Appellees only wanted a declaration to be
left alone.

The TEC parties responded that Appellees had
judicially admitted that the Corporation held all
property in trust for EDFW and its congregations,
and since those entities were subordinate affiliates of
the hierarchical church, the Corporation therefore
held the property in trust for the TEC parties
because they were the only parties recognized by
TEC as those entities. They also argued, as they do
on appeal, that the Dennis Canon, in addition to
Appellees’ words and actions prior to the schism,
imposed
a
trust—express,
contractual,
or
constructive—in their favor. And they argued that
Appellees’ adverse possession claim failed because
there was no “adverse” interest until the 2008
schism.

83a
b.

The TEC Parties’
Appellees’ Response

Motion

and

In their summary judgment motion, the TEC
parties contended:


that because TEC had determined that Appellees
did not represent EDFW and its congregations
and that the TEC parties did represent them, the
property held in trust by the Corporation was
held in trust for the TEC parties;



that Appellees had no right to control the
Corporation because, in addition to the plain
terms of the Corporation’s bylaws, it was a
subordinate entity of EDFW that only the TEC
parties could control;



that state associations law favored the TEC
parties because local chapters are treated as
constituents of larger organizations;



that an express trust was created when EDFW
agreed to TEC’s rules in exchange for formation,
membership, and property, including the Dennis
Canon, but that even without an express trust,
the TEC parties were entitled to a constructive
trust;



that Appellees’ adverse possession claim failed
because they did not meet all of the necessary
elements to establish that claim;



that Appellees were estopped from raising claims
and
defenses
that
contradicted
their
commitments, conduct, and prior statements to
courts and other federal and state authorities;



that, contrary to Appellees’ assertion, the TEC
parties did have standing; and

84a


that based on all of the above, the trial court
should grant summary judgment on the TEC
parties’ trespass-to-try-title claim and their
request for attorney’s fees and for declaratory
judgment.42

Appellees responded that the supreme court had
rejected the TEC parties’ deference theory in favor of
neutral principles, that there was no express or
irrevocable trust in TEC’s favor nor a contractual or
constructive trust, that there was no breach of
fiduciary duty, and that the TEC parties’ remaining
grounds were baseless.
c.

Supplemental Motions

On March 2, 2015, the trial court, except as to
claims involving All Saints Episcopal Church,
granted Appellees’ motion and denied the TEC
parties’ motion. The parties filed supplemental
summary judgment motions to address the All Saints
issues 43 and agreed that the remaining claims in
cause number 141-252083-11—the claims for
attorney’s fees, conversion, violations of business and
42

The TEC parties also raised retroactivity and deference, reurging their original, pre-Episcopal Diocese and Masterson
arguments.
43

The record reflects that All Saints had a troubled history
with EDFW’s leadership. Four years after the 1986 agreement
between All Saints and EDFW to designate All Saints as
EDFW’s Cathedral Church, in October 1990, a dispute arose
between then-Bishop Pope and All Saints with regard to
cathedral status and how the property was held—the bishop
wanted title to the property to be held in conformity with
EDFW’s constitution and canons, while All Saints’s vestry
wanted to hold it in trust for TEC in conformity with TEC’s
constitution and canons.

85a
commerce code section 16.29, damages for breach of
fiduciary duty (as opposed to the predicate for a
constructive trust), the action to quiet title, and for
an accounting—should be severed and stayed.
In their summary judgment motion relating to All
Saints Episcopal Church,44 Appellees argued that the
Corporation held legal title to two of the All Saints
properties—the sanctuary and parish hall on 5001
Crestline and the rectory on 5003 Dexter—by virtue
of the 1984 judgment’s property transfer and that
beneficial title was held by the group affiliated with
them. Ergo, applying the same reasoning as the trial
court’s previous summary judgment, Appellees were
entitled to summary judgment as to those two
properties. Appellees waived their claims to the
remaining four All Saints properties “so as to resolve
this case without a trial.45
The TEC parties, in their All Saints summary
judgment motion, asked the trial court to construe
the deeds, to declare the TEC parties the properties’
equitable owners, and to remove Appellees as the
44

The articles of incorporation for All Saints Episcopal
Church are contained in the record and indicate that it was
incorporated for a fifty-year term in 1953. No one has indicated
whether any efforts were taken to maintain its incorporated
status after 2003 or what effect the lack of status might have,
but in their reply to the TEC parties’ All Saints motion for
summary judgment, Appellees asserted that All Saints’s
incorporation “in the 1950s has no bearing on this dispute” and
that all parties agreed that under EDFW’s canons, the All
Saints Corporation is merely an “adjunct or instrumentality” of
the parish that cannot hold real property.
45

5001Crestline and 5003 Dexter are adjacent to the
properties referenced by Bishop Iker in his Septermber 2008
letter to the All Saints rector.

86a
trustees or owners of legal title. 46 The trial court
disposed of the All Saints summary judgment
motions in its final summary judgment.
3.

Trial Court’s Judgment

On July 24, 2015, the trial court signed a final
judgment in this case, consolidating its prior orders.
In the judgment, the trial court granted Appellees’
motion as to All Saints on the two pieces of property
under dispute and denied the TEC parties’ opposing
motion. The trial court recited in its judgment that
the claims for attorney’s fees in both the original and
severed action, the claims in the severed action for
conversion, damages for breach of fiduciary duty, to
quiet title and for an accounting, and the claims
under business and commerce code section 16.29
remained pending in the original action, cause
number 141-237105-09, and ordered that those
remaining claims, “to the extent they are also
pending in this cause,” were dismissed without
prejudice and preserved for litigation in cause
number 141-237105-09.
The trial court made the following declarations in
its judgment:

46

The TEC parties also revisited all of their prior arguments
in the case, prompting Appellees to remark in their summary
judgment response that “the Court should reject these 95 pages
that summarize what the Court rejected when it was 153
pages” and that “[t]he last 95 pages of the 111 pages of
Plaintiffs’ motion can be ignored because Plaintiffs admit their
‘global arguments’ merely re-assert the same grounds this
Court rejected in its Partial Summary Judgment of March 2,
2015.”

87a
1. Neutral principles of Texas law govern this
case, and applying such law is not
unconstitutionally retroactive.47
2. The Corporation of the Episcopal Diocese of
Fort Worth and Defendant Congregations hold
legal title to all the properties listed on Exhibit
1 attached to this Order, subject to control by
47

In this, the trial court was merely obeying the law of the
case: the supreme court stated in Episcopal Diocese that it had
“concluded in Masterson that the neutral principles
methodology was the substantive basis [for the supreme court’s]
decision in Brown v. Clark, 102 Tex. 323, 116 S.W. 360 (1909),”
and that “as to the argument that application of neutral
principles may pose constitutional questions if they are
retroactively applied, we note that over a century ago in Brown
. . . our analysis and holding substantively reflected the neutral
principles methodology.” 422 S.W.3d at 650-51, 653. Based on
the supreme court’s determination that the neutral principles
methodology had substantively applied to this type of case since
1909, the trial court did not err by determining that its
application here would not be retroactive. See Farmers Grp.
Ins., Inc. v. Poteet, 434 S.W.3d 316, 329 (Tex. App.—Fort Worth
2014, pet. denied) (explaining that the law of the case doctrine
is the principle under which questions of law decided on appeal
to a court of last resort will govern the case throughout its
subsequent stages). Therefore, to the extent that the TEC
parties have raised subissues in footnote 5 of their appellants’
brief with regard to their issues 1(a) and 1(b), in which they reurge their pre-Episcopal Diocese and Masterson retroactivity
and deference methodology arguments, we overrule these
subissues without further discussion. But see Eric G. Osborne &
Michael D. Bush, Rethinking Deference: How the History of
Church Property Disputes Calls into Question Long-Standing
First Amendment Doctrine, 69 SMU L. Rev. 811, 813 (2016)
(suggesting that the deference model itself is fundamentally
flawed and that its result “has been to empower denominational
hierarchies, thus making divisions and intra-church fights for
control especially bitter”).

88a
the Corporation pursuant to the Diocese’s
charters.48
3. The Episcopal Diocese of Fort Worth and
the Defendant Congregations in union with
that Diocese hold beneficial title to all the
properties listed on Exhibit 1 attached to this
Order.
4. Defendants Dr. Franklin Salazar, Jo Ann
Patton, Walter Virden, III, Rod Barber, and
Chad Bates are, and have been since 2005, the
properly elected Trustees of the Corporation
for the Episcopal Diocese of Fort Worth.
5. Defendant Jack Iker is, and has been since
2005, the proper Chairman of the board and
one of the Trustees of the Corporation for the
Episcopal Diocese of Fort Worth.
6. Defendants are the proper representatives
of the Episcopal Diocese of Fort Worth, the
Texas unincorporated association formed in
1982.

48

The supreme court acknowledged in Episcopal Diocese that
“[t]he 1984 judgment [transferring real and personal property
from the Diocese of Dallas] vested legal title of the transferred
property in the Fort Worth Corporation, except for certain
assets for which the presiding Bishop of the Dallas Diocese and
his successors in office had been designated as trustee.” 422
S.W.3d at 648. Those other assets were transferred by the 1984
judgment to the Bishop of the Fort Worth Diocese and his
successors in office as trustee. Id.; see Farmers Grp., 434 S.W.3d
at 329 (law of the case doctrine). Ultimately, legal title to that
property was also placed under the Corporation’s control. See
Tex. Bus. Orgs. Code Ann. § 252.015 (West 2012). No one
disputes that the Corporation holds legal title.

89a
7. The Defendants hold legal title and control
of the funds and endowments listed on Exhibit
2 attached to this Order, subject to the terms
of each.
8. Plaintiffs have no express, implied, or
constructive trust in the properties or funds
listed in the Exhibits attached to this Order.
9. Defendants have not breached any
fiduciary duty to or special relationship with
any Plaintiffs.
Exhibit 1 attached to the order listed 121 properties.
Exhibit 2 listed four funds for which the Corporation
is listed as trustee, six funds for which Bishop Iker is
listed as trustee, and one fund for which the EDFW
Treasurer, the EDFW Chancellor, and Bishop Iker
are listed as trustees.
The TEC parties filed a joint notice of appeal.
III.

Discussion

TEC argues that the trial court erred as a matter of
law in its application of the “neutral principles”
approach by failing to defer to and apply TEC’s
ecclesiastical determination of which entity
constitutes EDFW. The TEC parties argue that the
trial court erred by denying their motion for
summary judgment and granting summary
judgment for Appellees by:
a. Violating Masterson, Episcopal Diocese,
and the First Amendment by overriding the
Episcopal Church on who may control an
Episcopal
Diocese
and
Episcopal
Congregations;

90a
b. Violating Masterson, Episcopal Diocese,
and the First Amendment’s limits on neutral
principles by refusing to “accept as binding”
the Church’s determination of ecclesiastical
issues within this property case;
c. Failing to apply neutral principles of Texas
Associations law, including an association’s
right to interpret and enforce its own rules;
d. Failing to apply this Court’s holding in
Shellberg v. Shellberg, 459 S.W.2d 465, 470
(Tex. Civ. App.—Fort Worth 1970, writ ref’d
n.r.e.), the law in effect when the Diocese
made its contract;
e. Violating Texas trust law by refusing to
enforce the express, unrevoked trusts in favor
of the Church in fifty-five individual recorded
deeds;
f. Failing to find breach of fiduciary duty and
to impose a constructive trust where Appellees
broke a century’s worth of oaths and
commitments;
g. Failing
to
estop
Appellees
from
contradicting their own statements to other
courts and parties;
h. Failing to apply Texas Corporations law to
the undisputed facts, including a plain
application of the Corporation’s bylaws;
i. Failing to reject Appellees’ claim to title by
adverse possession;
j. Holding, if it did, that Appellants did not
have standing; and

91a
k. Denying
claim.

Appellants’

trespass-to-try-title

Because TEC also adopted and incorporated by
reference all of the TEC parties’ issues and
arguments, we will address their dispositive issues
together.
A.

Standard of Review

In a summary judgment case, the issue on appeal is
whether the movant met the summary judgment
burden by establishing that no genuine issue of
material fact exists and that the movant is entitled
to judgment as a matter of law. Tex. R. Civ. P.
166a(c); Mann Frankfort Stein & Lipp Advisors, Inc.
v. Fielding, 289 S.W.3d 844, 848 (Tex. 2009). We
review a summary judgment de novo. Travelers Ins.
Co. v. Joachim, 315 S.W.3d 860, 862 (Tex. 2010).
When both parties move for summary judgment and
the trial court grants one motion and denies the
other, the reviewing court should review both
parties’ summary judgment evidence and determine
all questions presented. Mann Frankfort, 289 S.W.3d
at 848. The reviewing court should render the
judgment that the trial court should have rendered.
See Myrad Props., Inc. v. LaSalle Bank Nat’l Ass’n,
300 S.W.3d 746, 753 (Tex. 2009); Mann Frankfort,
289 S.W.3d at 848.
B.

Jurisdiction

Standing is a threshold issue that implicates
subject matter jurisdiction, focuses on the question of
who may bring an action, and presents the issue of
whether a court may consider a dispute’s merits. See
In re J. W.L., 291 S.W.3d 79, 85 (Tex. App.—Fort
Worth 2009, orig. proceeding [mand. denied]). “To

92a
have standing, a plaintiff must be personally
aggrieved, and his alleged injury must be concrete
and particularized, actual or imminent, and not
hypothetical.” Heat Shrink Innovations, LLC v. Med.
Extrusion Techs.—Tex., Inc., No. 02-12-00512-CV,
2014 WL 5307191, at *7 (Tex. App.—Fort Worth Oct.
16, 2014, pet. denied) (mem. op.) (citing DaimlerChrysler Corp. v. Inman, 252 S.W.3d 299, 304-05
(Tex. 2008)). “A party may be personally aggrieved if
it has a legal or equitable interest in the
controversy.” Id (citing Goswami v. Metro. Say. &
Loan Ass’n, 751 S.W.2d 487, 489 (Tex. 1988) (holding
that plaintiff had standing to contest sale of property
in which he had an equitable interest), $574.37 U.S.
Coin & Currency v. State, No. 02-06-00434-CV, 2008
WL 623793, at *6 (Tex. App.—Fort Worth Mar. 6,
2008, no pet.) (mem. op.) (holding that although
vehicle was owned by another person, plaintiff had
equitable interest in truck to confer standing to
contest forfeiture), and First Nat’l Bank of El Campo,
TX v. Buss, 143 S.W.3d 915, 922 (Tex. App.—Corpus
Christi 2004, pet. denied) (noting that a person in
possession of a vehicle who is the intended owner of
the vehicle has an equitable possessory right in the
vehicle even if that person is not named on the
vehicle’s title)). Without a breach of a legal right
belonging to a specific party, that party has no
standing to litigate. Cadle Co. v. Lobingier, 50
S.W.3d 662, 669-70 (Tex. App.—Fort Worth 2001,
pets. denied) (en bane op. on reh’g). We review
standing de novo and may review the entire record to
determine whether any evidence supports it. Senger
Creek Dev., LLC v. Fuqua, No. 01-1501098-CV, 2017
WL 2376529, at *13 (Tex. App.—Houston [1st Dist.]
June 1, 2017, no pet.) (mem. op.) (citing Mayhew v.

93a
Town of Sunnyvale, 964 S.W.2d 922, 928 (Tex. 1998);
Tex. Ass’n of Bus. v. Tex. Air Control Bd., 852 S.W.2d
440, 444-45 (Tex. 1993)).
The TEC parties argue that a party has standing
as long as he or she alleges a pecuniary interest.
They contend that they have done so as “(1) the
displaced minority that formerly enjoyed use of the
property and as the only parties authorized by the
Church to lead the Diocese; and (2) the Church that
formed the Diocese and received a trust interest in
the property,” citing Getty Oil Company v. Insurance
Company of North America, 845 S.W.2d 794, 798-99
(Tex. 1992),49 cert. denied, 510 U.S. 820, 114 S.Ct. 76,
126 L.Ed.2d 45 (1993), and Hunt v. Bass, 664 S.W.2d
323, 324 (Tex. 1984).50
49

In Getty, a chemical buyer sued the seller and the seller’s
insurers after the chemicals exploded and killed someone and a
wrongful death judgment was obtained against it; the buyer
claimed in its subsequent suit that the seller and the seller’s
insurers were contractually obligated to provide insurance to
cover the judgment against it. 845 S.W.2d at 796-98. The court
held that res judicata barred the claims against the seller
because the buyer could have asserted those claims in the
earlier suit despite their contingency. Id. at 799. From this,
Appellants draw their argument that once their identity has
been established, their claims will no longer be contingent.
50

In Hunt, several plaintiffs filed a petition for writ of
mandamus after their separate lawsuits were delayed because
the commissioners’ court and commissioners failed to provide
adequate courtroom space and personnel. 664 S.W.2d at 324.
The trial court determined that the plaintiffs had no standing
to sue for mandamus relief and dismissed their petition. Id. The
supreme court held that because each plaintiff was a party to a
lawsuit pending in the district court (as distinguished from the
general public, which did not have lawsuits pending), and
because they had each alleged a failure of the court system to
provide trials in those lawsuits in a reasonable time, which

94a
According to Appellees, in contrast,
No matter how [the TEC parties] claim to have
suffered injury, a state statute says they have
no standing to sue the Corporation or its
Trustees for violating fiduciary duties or
corporate charters. Any claim for breach of
fiduciary duty owed to the Diocese or the
Corporation must be brought by those entities.
Since [the TEC parties’] counsel represent
neither, they have no authority to bring such
claims for them.
Additionally, lawsuits claiming that the acts
or property transfers of a Texas nonprofit
corporation violate its corporate purposes can
be brought only by a member or the Attorney
General. [The TEC parties] are neither; the
Corporation has no “members,” and the
Attorney General is not a party.
Since [the TEC parties] severed all connection
with the Diocese and the Corporation and
have no right to represent either, they have no
standing to complain about how either is
governed.
[Footnotes omitted.] Appellees refer us to articles
1396-2.03(B)51 and 1396-2.08(A)52 of the revised civil
potentially deprived each plaintiff of a valuable property right,
the plaintiffs had made sufficient allegations concerning the
infringement of their private rights to present justiciable
interests, providing them with standing for the mandamus
action. Id.
51

Act of Apr. 23, 1959, 56th Leg., R.S., ch. 162, art. 2.03(B),
1959 Tex. Gen. Laws 286, 290 (listing who may bring a
proceeding against the corporation with regard to an ultra vires
act—a member, the corporation itself through a receiver,

95a
statutes 53 and Cotten v. Weatherford Bancshares,
Inc., 187 S.W.3d 687, 698 (Tex. App.—Fort Worth
2006, pet. denied),54 disapproved of on other grounds
by Ritchie v. Rupe, 443 S.W.3d 856, 865 n.9, 871
n.17, 877 (Tex. 2014), in support of their argument.
With regard to this particular case, standing turns
at least in part on the neutral principles analysis
with which we have been tasked by the supreme
court. 55 From the application of these neutral
trustee, or other legal representative, or the Attorney General)
(current version at Tex. Bus. Orgs. Code Ann. § 20.002(c)(1)-(3)
(West 2012)).
52

Act of Apr. 23, 1959, 56th Leg., R.S., ch. 162, art. 2.08(A),
1959 Tex. Gen. Laws 286, 292 (“A corporation may have one or
more classes of members or may have no members.”) (current
version at Tex. Bus. Orgs. Code Ann. § 22.151(a) (West 2012)).
53

In their pleadings in the trial court, the parties appear to
have at least implicitly agreed that the applicable provisions of
the former statutes and current statutes in the business
organizations code are largely the same, and neither party has
indicated to us that there are any substantive differences
between the Corporation’s law of formation and the current
law. Accordingly, in the interest of judicial economy, we will cite
to the current sections of the business organizations code.
54

We stated in Cotten,
While corporate officers owe fiduciary duties to the
corporation they serve, they do not generally owe
fiduciary duties to individual shareholders unless a
contract or confidential relationship exists between
them in addition to the corporate relationship. Due to
its extraordinary nature, the law does not recognize a
fiduciary relationship lightly. Therefore, whether such a
duty exists depends on the circumstances. 187 S.W.3d
at 698 (citations omitted).
55

The standing debate arose several times during the course
of the proceedings, summed up by Appellees at one hearing as,

96a
principles, we will determine whether the TEC
parties have an interest in the property or entities
that would give them standing for the claims that
were resolved by the trial court’s final judgment.56
Additionally, we note that the ecclesiastical
abstention doctrine, which arises from the Free
Exercise Clause of the First Amendment to the
United States Constitution, may also affect our
The only argument that they [the TEC parties] have the
right to argue is whether they’re—the individuals are
duly elected. . . . Because it’s the nature of the claims
that the individuals are bringing that only the diocese
and the diocesan corporation could bring. An individual
who sues in a representative capacity is suing on behalf
of the individual entity that the person represents.
56

We touched on this issue in In re Salazar, when Appellees
filed a petition for writ of mandamus after the trial court denied
part of their motion to show authority under rule of civil
procedure 12 as to attorneys hired by the TEC parties to
represent the Corporation and EDFW in the property dispute.
315 S.W.3d at 281. The essence of that original proceeding was
one of identity. See id. at 282, 284 (observing that both
plaintiffs and defendants purported to represent EDFW and the
Corporation and that plaintiffs argued that the issue of the
identity of the true bishop and trustees was at the heart of the
suit). We did not reach the question of the “true identity” of the
bishop and trustees because we agreed with the trial court that
a rule 12 motion was not the appropriate vehicle to reach the
merits of an intra-church dispute. Id. at 285.
Instead, because neither side challenged the trial court’s
finding that the two attorneys did not discharge their burden of
proof, we concluded that the trial court abused its discretion by
not striking the pleadings filed by those attorneys on behalf of
the Corporation and EDFW. Id. at 286. We granted mandamus
relief because a corporation cannot sue itself, and we reasoned
that presentations from two opposing factions each claiming to
be the Corporation and EDFW could unnecessarily confuse a
trier of fact. Id. at 287.

97a
jurisdiction to consider some of the claims. See U.S.
Const. amend. I (“Congress shall make no law
respecting an establishment of religion, or
prohibiting the free exercise thereof.”); Masterson,
422 S.W.3d at 601 (observing that the Free Exercise
clause severely circumscribes the role that civil
courts may play in resolving church property
disputes by prohibiting civil courts from inquiring
into matters concerning theological controversy,
church discipline, ecclesiastical government, or
conformity of church members to the church’s moral
standards).
1.

Neutral Principles Framework

The structural underpinning of our review of the
trial court’s judgment begins with a review of cases
from the U.S. Supreme Court on the evolution of the
applicable law, followed by a closer look at Masterson
and other cases to which the parties have referred
us.
a.
(1)
(a)

Precedent
Authority

and

Persuasive

United States Supreme Court Cases
Watson v. Jones, 80 U.S. (13 Wall.) 679, 20
L.Ed. 666 (1871).

Watson, which set out the original “deference”
methodology applicable to hierarchical churches,
arose from a schism that presented the question “as
to which of two bodies shall be recognized as the
Third or Walnut Street Presbyterian Church,” as
well as who had the authority to lead it and to
possess the church’s property. 80 U.S. at 717-18. The
local church’s trustees had incorporated to hold title
to the property in trust “for the use of the persons

98a
who by the constitution, usages, and laws of the
Presbyterian body, are entitled to that use,” and
were elected by the local church’s congregation for
two-year terms. Id. at 720.
The Court noted that for congregational—that is,
independent, stand-alone—churches undergoing a
schism into “distinct and conflicting bodies, the
rights of such bodies to the use of the property must
be determined by the ordinary principles which
govern voluntary associations.” Id. at 724-25. In such
circumstances, if no trust was previously imposed
upon the property when purchased or given, the
court would not imply one, the majority would keep
the property, and “[t]he minority in choosing to
separate themselves into a distinct body, and
refusing to recognize the authority of the governing
body, can claim no rights in the property from the
fact that they had once been members of the church
or congregation.” Id. at 725.
But the Court treated a local church’s membership
in a hierarchical church—part of a large and general
organization of some religious denomination that is
“more or less intimately connected by religious views
and ecclesiastical government”—differently. Id. at
726. The Court acknowledged that the property’s
legal documents did not indicate its disposition 57 Id.
Rather, the property was purchased for the use of a
religious congregation, “and so long as any existing
religious congregation can be ascertained to be that
57

The Court stated, “Here is no case of property devoted
forever by the instrument which conveyed it, or by any specific
declaration of its owner, to the support of any special religious
dogmas, or any peculiar form of worship. . . .” Watson, 80 U.S.
at 726.

99a
congregation, or its regular and legitimate successor,
it is entitled to the use of the property.” Id.
(emphasis added). Instead of looking to the rules that
govern voluntary associations to determine identity
or succession, the Court stated that in cases
involving a hierarchical church,58 “we are bound to
look at the fact that the local congregation is itself
but a member of a much larger and more important
religious organization, and is under its government
and control, and is bound by its orders and
judgments” with regard to “questions of discipline, or
of faith, or ecclesiastical rule, custom, or law” that
have been decided by the highest of the hierarchical
church’s judicatories, and to accept those decisions as
final and binding “in all cases of ecclesiastical
cognizance.” Id. at 726-27,729.
In resolving the matter in favor of the local faction
that had remained with the national, hierarchical
church, the Court stated,
Whatever may have been the case before the
Kentucky court, the appellants in the case
presented to us have separated themselves
wholly from the church organization to which
they belonged when this controversy
commenced. They now deny its authority,
denounce its action, and refuse to abide by its
58

The Court specifically identified the ‘‘Protestant Episcopal’’
church as one of the ‘‘large and influential bodies [with] . . . a
body of constitutional and ecclesiastical law of its own, to be
found in [its] written organic laws, [its] books of discipline, in
[its] collections of precedents, in [its] usage and customs, which
as to each constitute a system of ecclesiastical law and religious
faith that tasks the ablest minds to become familiar with.’’
Watson, 80 U.S. at 729.

100a
judgments. They have first erected themselves
into a new organization, and have since joined
themselves to another totally different, if not
hostile, to the one to which they belonged
when the difficulty first began.
Id. at 734. Accordingly, the Court concluded, “the
appellants, in their present position, have no right to
the property, or to the use of it, which is the subject
of this suit.” Id.
Watson governed church property disputes until
neutral principles made an appearance, see
Windwood Presbyterian Church, Inc. v. Presbyterian
Church (U.S.A.), 438 S.W.3d 597, 602 (Tex. App.—
Houston [1st Dist.] 2014, no pet.) (op. on reh’g)
(referencing Justice Brennan’s concurring opinion in
Maryland & Va. Eldership of Churches of God v.
Church of God at Sharpsburg, Inc., 396 U.S. 367,
370, 90 S.Ct. 499, 501, 24 L.Ed.2d 582 (1970)
(Brennan, J., concurring)), 59 and elements of it
remain in play. See Masterson, 422 S.W.3d at 602

59

Maryland ended in dismissal from the U.S. Supreme Court
because the state court’s resolution of the church property
dispute involved no inquiry into religious doctrine. 396 U.S. at
367-68, 90 S.Ct. at 499-500. In his concurring opinion, Justice
Brennan recited that under Watson, a majority of a
congregational church or the highest authority of a hierarchical
church could make the property decision “unless ‘express terms’
in the ‘instrument by which the property is held’ condition the
property’s use or control in a specified manner” as long as those
express conditions may be effected without consideration of
doctrine and as long as the appropriate church govern- body can
be determined without the resolution of doctrinal questions and
without extensive inquiry into religious policy. 396 U.S. at 36870 & n.2, 90 S.Ct. at 500-01 & n.2 (Brennan, J., concurring).

101a
(stating that deference is not optional
ecclesiastical questions are at issue).

when

(b) Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in North America, 344 U.S. 94,
73 S.Ct. 143, 97 L.Ed. 120 (1952).
Kedroff involved a dispute over the right to use and
occupy a church building. 344 U.S. at 95, 73 S.Ct. at
144. The American branch of the Russian Orthodox
Church had created a corporation under New York
state law in 1925 to acquire a cathedral as “a central
place of worship and residence of the ruling
archbishop.” Id., 73 S.Ct. at 144. Title was in the
corporation’s name. Id. at 96 n.1, 73 S.Ct. at 144 n.1.
The only issue was who had the right to use the
cathedral—Archbishop Leonty, who was elected to
his ecclesiastical office by the American churches, or
Archbishop Benjamin,60 who was appointed by the
Supreme Church Authority of the Russian Orthodox
Church in Moscow. Id. at 96 & n.1, 73 S.Ct. at 144 &
n.1. The Court observed that determination of the
right to use and occupy the cathedral depended
“upon whether the appointment of Benjamin by the
Patriarch or the election of the Archbishop for North
America by the convention of the American churches
validly selects the ruling hierarch for the American
churches.” Id. at 96-97, 73 S.Ct. at 144.
The lower state courts concluded that the cathedral
had to be occupied by an archbishop appointed by the
60

Benjamin ordained Kedroff as a priest, and Kedroff then
“gave” the cathedral to Benjamin. See Saint Nicholas Cathedral
of Russian Orthodox Church in N. Am. v. Kedroff, 302 N.Y. 1,
96 N.E.2d 56, 67 (1950), rev’d sub nom. Kedroff, 344 U.S. 94, 73
S.Ct. 143, 97 L.Ed. 120 (1952).

102a
central authorities in Moscow (i.e., Benjamin). Saint
Nicholas, 96 N.E.2d at 67. The highest state court
disagreed, relying on a state statute that “had a
conclusive effect upon the issues presented,” in
addition to the fact that the lower courts had not
determined whether Benjamin et al. “could be relied
upon to carry out faithfully and effectively the
purposes of the religious trust,” and the fact that the
Moscow patriarchy functioned “as an arm of the
Russian Government to further its domestic and
foreign policy.” Id. at 67-68, 96 N.E.2d 56, 67. The
statute upon which the state court relied purported
to define the “Russian Church in America,” and to
define “Russian Orthodox church” as a term of art “to
denote the particular local buildings or organizations
of the Russian Orthodox faith as distinguished from
the spiritual church” and, using that term of art,
purported to identify who was the church’s leader.
Id. at 69-70, 96 N.E.2d 56, 67 (quoting the statute,
which provided, in pertinent part, that “[e]very
Russian Orthodox church in this state . . . shall
recognize and be and remain subject to the
jurisdiction and authority of the . . . governing bodies
and authorities of the Russian Church in America,
pursuant to the statutes for the government thereof
adopted at a general convention . . . held in the city
of New York”). The state court relied on the
legislative determination that the “Russian Church
of America” was the trustee that could be relied upon
“to carry out more effectively and faithfully the
purposes of th[e] religious trust.” Id. at 72, 96 N.E.2d
56, 67.
Predictably, the losing party in the state court
appealed to the Court, challenging the state statute

103a
as invalid based on interference with the exercise of
religion. Kedroff, 344 U.S. at 100, 73 S.Ct. at 146.
The statute had come into being because of
“differences between the Mother Church and its
American offspring.” Id. at 105, 73 S.Ct. at 149. The
Court concluded that because the statute undertook
by its terms to transfer the control of the New York
churches of the Russian Orthodox religion from the
central governing hierarchy of the Russian Orthodox
Church—the Patriarch of Moscow and the Holy
Synod—to the governing authorities of the Russian
Church in America, it violated the Fourteenth
Amendment. Id. at 107-08, 73 S.Ct. at 150
(“Legislation that regulates church administration,
the operation of the churches, [and] the appointment
of clergy, by requiring conformity to church statutes”
adopted by the general convention of the Russian
Church in America held in New York City in 1937
“prohibits the free exercise of religion”). This was
impermissible, even though the legislature had
sought to protect “the American group from
infiltration of [the Russian Government’s] atheistic
or subversive influences” when the legislature gave
the use of the churches to the American group “on
the theory that this church would most faithfully
carry out the purposes of the religious trust.” Id. at
109-10, 73 S.Ct. at 151.
The Court then proceeded to review its precedent
with regard to hierarchical churches, which it
defined as “those organized as a body with other
churches having similar faith and doctrine with a
common ruling convocation or ecclesiastical head.”
Id. at 110-14, 73 S.Ct. at 151-53 (referencing Watson,
80 U.S. at 727). The Court concluded that the

104a
controversy over the right to use the cathedral was
“strictly a matter of ecclesiastical government, the
power of the Supreme Church Authority of the
Russian Orthodox Church to appoint the ruling
hierarch of the archdiocese of North America,” and
that the statute, by fiat, displaced one church
administrator with another and passed the control of
strictly ecclesiastical matters from one church
authority to another in violation of the federal
constitution. Id. at 115-16, 119, 73 S.Ct. at 154-56
(“Freedom to select the clergy, where no improper
methods of choice are proven . . . must now be said to
have federal constitutional protection as a part of the
free exercise of religion against state interference.”).
In sum, then, the transfer by statute of control over
churches, including the determination thereby of
church leadership, violates the constitutional rule of
separation between church and state. Id. at 110, 73
S.Ct. at 151; see also Kreshik v. Saint Nicholas
Cathedral, 363 U.S. 190, 191, 80 S.Ct. 1037, 1038, 4
L.Ed.2d 1140 (1960) (applying the same rule to
judicial pronouncements). But at issue in the case
before us is not a statute that may or may not
unconstitutionally infringe upon the parties’ freedom
of religion or the identification of religious
leadership. Rather, we are to consider our business
organizations, property, and trust statutes within
the confines of the nondoctrinal portions of the
parties’ governing documents to determine whether
the Corporation followed its articles and bylaws and
whether a trust or trusts were created, and if so, for
whom.

105a
(c) Presbyterian Church v. Mary Elizabeth Blue
Hull Memorial Presbyterian Church, 393 U.S.
440, 89 S.Ct. 601, 21 L.Ed.2d 658 (1969).
Presbyterian Church, which involved a church
property dispute in which two local churches
withdrew from a hierarchical national church,
formalized the neutral principles framework as an
option for resolving such disputes. 393 U.S. at 441,
449, 89 S.Ct. at 602, 606. In 1966, the membership of
two local churches, under the leadership of their
ministers and most of their ruling elders, voted to
withdraw
and
reconstitute
themselves
as
autonomous organizations after they concluded that
some of the national church’s actions and
pronouncements
violated
the
organization’s
constitution and departed from the doctrine and
practice that were in force at the time they affiliated.
Id. at 442-43, 89 S.Ct. at 602-03. The state courts
considered the implied trust theory and integrated a
departure-from-doctrine element that allowed a jury
to conclude that the local churches should retain
their property. Id. at 443-44, 44950, 89 S.Ct. at 603,
606.
The Court noted that while the First Amendment
severely circumscribes the role that civil courts may
play in resolving church property disputes, not all
such disputes are precluded from the civil courts’
consideration. Id. at 447, 449, 89 S.Ct. at 605-06
(observing that in Kedroff, the Court converted into a
constitutional rule Watson’s principle as to the
binding and conclusive nature of a hierarchical
court’s ecclesiastical decisions in the absence of fraud
or collusion, even when affecting civil rights).
Specifically, “there are neutral principles of law,

106a
developed for use in all property disputes, which can
be applied without ‘establishing’ churches to which
property is awarded.” Id. at 449, 89 S.Ct. at 606. But
to do this, states, religious organizations, and
individuals must structure relationships involving
church property so as not to require the civil courts
to resolve ecclesiastical questions. Id., 89 S.Ct. at
606.
Accordingly, the Court reversed the decision of the
state court as violating the First Amendment
because
the
departure-from-doctrine
element
required the state court to determine matters at the
very core of a religion—whether the general church’s
challenged actions departed substantially from prior
doctrine pursuant to the court’s interpretation of the
doctrine’s meaning and then, after assessing the
relative significance to the religion of the tenets from
which departure was found, whether the issue on
which the general church departed “holds a place of
such importance in the traditional theology as to
require that the trust be terminated.” Id. at 449-50,
89 S.Ct. at 606-07. The Court remanded the case for
further proceedings. Id. at 452, 89 S.Ct. at 607
(stating that a civil court may no more review a
church decision applying a state departure-fromdoctrine standard than it may apply that standard
itself).
On remand, the state court held that, in light of the
Supreme Court’s pronouncement on the departurefrom-doctrine element, the implied-trust theory itself
was no longer valid. Presbyterian Church in U.S. v.
E. Heights Presbyterian Church, 225 Ga. 259, 167
S.E.2d 658, 659 (1969), cert. denied, 396 U.S. 1041,
90 S.Ct. 680, 24 L.Ed.2d 685 (1970). Accordingly,

107a
because no trust was created for the general church
in the property’s deed or required by the general
church’s constitution, and because the general
church had put no funds into the property, legal title
to the property remained with the local churches. Id.
at 659-60.
(d) Serbian Eastern Orthodox Diocese for the
United States of America & Canada v.
Milivojevich, 426 U.S. 696, 96 S.Ct. 2372, 49
L.Ed.2d 151 (1976).
Milivojevich involved a challenge to the suspension,
removal, and defrocking of a bishop in—and the
reorganization of his diocese into three dioceses by—
the Serbian Orthodox Church. 426 U.S. at 697-98, 96
S.Ct. at 2375. The basic dispute, according to the
Court, arose from a quarrel over control of the
Serbian Eastern Orthodox Diocese for the United
States of America and Canada, its property, and its
assets. Id. at 698, 96 S.Ct. at 2375. Years before the
dispute arose, the Serbian Eastern Orthodox Diocese
for the United States and Canada and other
nonprofit corporations were organized under the
state laws of Illinois, New York, California, and
Pennsylvania to hold title to property. Id. at 701-02,
96 S.Ct. at 2377. In the years immediately before the
dispute, the bishop had been the subject of numerous
complaints challenging his fitness to serve and his
administration of the diocese. Id. at 702, 96 S.Ct. at
2377. He subsequently refused to accept either his
suspension or the reorganization of his diocese on the
basis that they were not done in compliance with the
Mother Church’s constitution and laws and his
diocese’s constitution. Id. at 704, 96 S.Ct. at 2378.
This ultimately led to his defrocking and his diocese’s

108a
declaration that it was autonomous. Id. at 705-06, 96
S.Ct. at 2379.
Prior to his defrocking, the bishop had sued to
enjoin the Mother Church from interfering with the
assets of the nonprofit corporations and to have
himself declared the true bishop. Id. at 706-07, 96
S.Ct. at 2379. The Mother Church’s representatives
counterclaimed for a declaration that he had been
removed as bishop and that the diocese was properly
reorganized, and they sought control of the
reorganized dioceses and diocesan property. Id. at
707, 96 S.Ct. at 2379. The Illinois trial court granted
summary judgment for the ex-bishop and dismissed
the Mother Church’s countercomplaints. Id., 96 S.Ct.
at 2379. After the intermediate appellate court
reversed that judgment and remanded the case for a
trial on the merits, the trial court gave each side
some relief. Id. at 707-08, 96 S.Ct. at 2379-80.
In its judgment on remand, the trial court
concluded that no substantial evidence was produced
that fraud, collusion, or arbitrariness existed in any
of the actions or decisions before or during the final
proceedings of the defrocking decision; that the
property held by the corporations was held in trust
for all members of the American-Canadian Diocese;
that the Mother Church exceeded its authority by
dividing the diocese into three new dioceses; and that
the new bishop was validly appointed as temporary
administrator of the whole diocese in place of the
defrocked bishop. Id., 96 S.Ct. at 2379-80.
The Illinois Supreme Court reversed part of the
trial court’s judgment, holding that the ex-bishop’s
removal and defrocking had to be set aside because
the proceedings resulting in those actions “were

109a
procedurally and substantively defective under the
internal regulations of the Mother Church and were
therefore arbitrary and invalid” when not conducted
according to the court’s interpretation of the Mother
Church’s constitution and penal code, and it
purported to reinstate him. Id. at 698, 708, 96 S.Ct.
at 2375, 2380. But it affirmed part of the trial court’s
judgment, agreeing that the diocesan reorganization
was invalid as beyond the Mother Church’s scope of
authority to do so without diocesan approval. Id. at
708, 96 S.Ct. at 2380.
Thirteen years after the litigation’s inception, the
U.S. Supreme Court reversed the Illinois Supreme
Court’s judgment, holding that the inquiries that the
Illinois court had made “into matters of ecclesiastical
cognizance and polity and [its] actions pursuant
thereto contravened the First and Fourteenth
Amendments.” Id. at 698, 706-07, 96 S.Ct. at 2375,
2379.
Specifically, the Court stated that the “fallacy fatal
to the judgment of the Illinois Supreme Court is that
it rests upon an impermissible rejection of the
decisions of the highest ecclesiastical tribunals of
this hierarchical church upon the issues in dispute”
and that the court had impermissibly substituted its
own inquiry into church polity and the resolutions
based thereon to those disputes. Id. at 708, 96 S.Ct.
at 2380. The state supreme court’s conclusion that
the Mother Church’s decisions were “arbitrary” was
based on the court’s conclusion that the Mother
Church had not followed its own laws and procedures
in arriving at those decisions. Id. at 712-13, 96 S.Ct.
at 2382. But, as the Court pointed out, there is no
“arbitrariness” exception to the First Amendment.

110a
Id. at 713, 96 S.Ct. at 2382. “[R]ecognition of such an
exception would undermine the general rule that
religious controversies are not the proper subject of
civil court inquiry, and that a civil court must accept
the ecclesiastical decisions of church tribunals as it
finds them.” Id., 96 S.Ct. at 2382.
Because the case’s resolution “essentially involve[d]
not a church property dispute, but a religious dispute
the resolution of which . . . is for ecclesiastical and
not civil tribunals,” the state supreme court had
overstepped its authority. Id. at 709, 717, 721, 96
S.Ct. at 2380, 2384, 2386 (observing that there was
no dispute that questions of church discipline and
the composition of the church hierarchy were at the
core of ecclesiastical concern). The hierarchical
church’s religious bodies made the decisions to
suspend and defrock the bishop, and the authority to
make those decisions was vested solely in them. Id.
at 717-18, 96 S.Ct. at 2384. And as to the diocesan
reorganization, the court had impermissibly
substituted its own interpretations of the diocesan
and Mother Church’s constitutions for that of the
highest ecclesiastical tribunals in which church law
vested authority. Id. at 720-21, 96 S.Ct. at 2386
(noting that reorganization of the diocese involved a
matter of internal church government, an issue at
the core of ecclesiastical affairs).
The Court noted in a footnote, “No claim is made
that the ‘formal title’ doctrine by which church
property disputes may be decided in civil courts is to
be applied in this case.” 61 Id. at 723 n.15, 96 S.Ct. at
61

The “formal title” doctrine became the neutral principles
approach. See Milivojevich, 426 U.S. at 723 n.15, 96 S.Ct. at
2387 n.15.

111a
2387 n.15. The Court observed, “Whether corporate
bylaws or other documents governing the individual
property-holding corporations may affect any desired
disposition of the Diocesan property is a question not
before us.” 62 Id. at 724, 96 S.Ct. at 2387. The Court
nonetheless noted that the Mother Church’s
decisions to defrock the bishop and to reorganize the
diocese “in no way change[d] formal title to all
Diocesan property, which continue[d] to be in the
respondent property-holding corporations in trust for
all members of the reorganized Dioceses; only the
identity of the trustees is altered by the Mother
Church’s ecclesiastical determinations.” See id. at
723 n.15, 96 S.Ct. at 2387 n.15.
Accordingly, Milivojevich instructs us to confine
our analysis to formal title, corporate bylaws, and
other documents prevalent in the management of
non-religious entities rather than to attempt to
interpret internal church government—the core of
which pertains not to business but rather to the
mysteries of faith—and to avoid ecclesiastical
determinations like any other proverbial plague.
(e)

Jones v. Wolf, 443 U.S. 595, 99 S.Ct. 3020,
61 L.Ed.2d 775 (1979).

In Jones, the United States Supreme Court
addressed a dispute over the ownership of church
property following a schism in a local church
affiliated with a hierarchical church organization; in
62

A dissenting justice would have held that the state court’s
jurisdiction had been invoked by both parties with regard to the
church property and claims to diocesan authority, thus entitling
the state court to ask “if the real Bishop of the AmericanCanadian Diocese would please stand up.” 426 U.S. at 725-26,
96 S.Ct. at 2388 (Rehnquist, J., dissenting).

112a
particular, it considered the question of which faction
of a formerly united congregation was entitled to
possession and enjoyment of the disputed property.
443 U.S. at 597, 602, 99 S.Ct. at 3022, 3024. The
Court once more acknowledged that the First
Amendment “prohibits civil courts from resolving
church property disputes on the basis of religious
doctrine and practice.” Id. at 602, 99 S.Ct. at 3025
(citing Milivojevich, 426 U.S. at 710, 96 S.Ct. at
2381; Maryland, 396 U.S. at 368, 90 S.Ct. at 500
(Brennan, J., concurring); Presbyterian Church, 393
U.S. at 449, 89 S.Ct. at 606). That is, a civil court can
resolve a church property dispute “ ‘so long as it
involves no consideration of doctrinal matters,
whether the ritual and liturgy of worship or the
tenets of faith.’ ” Id., 99 S.Ct. at 3025 (quoting
Maryland, 396 U.S. at 368, 90 S.Ct. at 500 (Brennan,
J., concurring)). It held that the neutral principles
approach was consistent with the federal
constitution when merely looking to the language of
the deeds, the terms of the local church charters,
state statutes, and the provisions of the constitution
of the general church concerning the ownership and
control of church property. Id. at 602-03, 99 S.Ct. at
3025.
The Court approved of this methodology because
before any dispute arises, a religious group could
determine its priorities as to the disposition of
church property and enshrine those priorities under
the applicable civil law, making it easy both on
themselves and the court system:
[t]hrough appropriate reversionary clauses
and trust provisions, religious societies can
specify what is to happen to church property

113a
in the event of a particular contingency, or
what religious body will determine the
ownership in the event of a schism or doctrinal
controversy [and] . . . [i]n this manner, a
religious organization can ensure that a
dispute over the ownership of church property
will be resolved in accord with the desires of
the members.
....
. . . At any time before the dispute erupts, the
parties can ensure, if they so desire, that the
faction loyal to the hierarchical church will
retain the church property. They can modify
the deeds or the corporate charter to include a
right of reversion or trust in favor of the
general church. Alternatively, the constitution
of the general church can be made to recite an
express trust in favor of the denominational
church. The burden involved in taking such
steps will be minimal. And the civil courts will
be bound to give effect to the result indicated
by the parties, provided it is embodied in some
legally cognizable form.
Id. at 603-04, 606, 99 S. Ct. at 3025-26, 3027.
The Court cautioned that in reviewing church
documents, if the interpretation of instruments of
ownership would require a civil court to resolve a
religious controversy, then the court would have to
defer to the resolution of the doctrinal issue by the
authoritative ecclesiastical body. Id. at 604, 99 S.Ct.
at 3026.
In addressing which faction was entitled to control
local church property, the Court identified as a fact

114a
question for remand whether Georgia had adopted a
presumptive rule of majority representation with
regard to a voluntary religious association’s being
represented by the majority of its members or
whether the corporate charter or constitution of the
general church set out how the identity of the local
church was to be established if not by majority rule.
Id. at 607-08, 99 S.Ct. at 3027-28 (observing that
majority rule is generally employed in the
governance of religious societies and that a majority
faction generally can be identified without resolving
any question of religious doctrine or polity). The
Court observed that if state law provided for the
identity of the church to be determined according to
the general hierarchical church’s “laws and
regulations,” then the First Amendment would
require the civil courts to give deference to the
church’s determination of the local church’s identity.
Id. at 609, 99 S.Ct. at 3028. The implicit corollary of
this statement would be that if state law did not
provide for the church’s identity to be determined by
the general hierarchical church’s laws and
regulations, then the court would need to examine
everything else to identify the property’s owners .63

63

The parties have brought no such state statute to our
attention—and we have found none—that would allow us to so
facilely dispose of this appeal. Cf. Calvin Massey, Church
Schisms, Church Property & Civil Authority, 84 St. John’s L.
Rev. 23, 34 (2010) (“Virginia has adopted a statute directing
courts how to decide church property disputes when churches
divide into contending factions.” (citing Va. Code Ann. § 57-9)).
On remand from the U.S. Supreme Court, the state court in
Jones held that while the state’s rebuttable presumption of
majority rule could be overcome by reliance on neutral statutes,
corporate charters, relevant deeds, and the organizational

115a
Accordingly, Jones instructs us that we must
perform a non-religious-doctrine-related review,
within the context of our state law, of the language of
the deeds and the provisions dealing with ownership
and control of property contained within the local
and general churches’ governing documents—i.e., the
plain language to ascertain the parties’ intent—but
that if we attempt to divine ownership from the
church’s ritual and liturgy of worship or the tenets of
its faith, or if interpreting the parties’ documents
would require us to resolve a faith-based controversy,
then we veer into constitutionally-prohibited
territory.
(f)
Hosanna-Tabor Evangelical Lutheran
Church & School v. E.E.O.C., 565 U.S. 171, 132
S.Ct. 694, 181 L.Ed.2d 650 (2012).
In Hosanna-Tabor, the Court recently addressed a
related ecclesiastical matter, reviewing whether the
Establishment and Free Exercise Clauses of the
First Amendment bar an employment discrimination
lawsuit when the employer is a religious group and
the employee is one of the group’s ministers. 565 U.S.
at 176-77, 132 S.Ct. at 699. Cheryl Perich went from
an elementary school “lay” (also known as “contract”)
teacher to a “called” (also known as “Minister of
Religion, Commissioned”) teacher—both positions of
which generally performed the same duties—at a
religious school. Id. at 177-78, 132 S.Ct. at 699-700.
Following an employment dispute, Perich’s
constitutions of the denomination, none of these sources in that
case disclosed a provision that would rebut the majority-rule
presumption. Jones v. Wolf, 244 Ga. 388, 260 S.E.2d 84, 84-85
(1979), cert. denied, 444 U.S. 1080, 100 S.Ct. 1031, 62 L.Ed.2d
763 (1980).

116a
employer’s congregation voted to rescind her “call,”
and her employment was terminated. Id. at 178-79,
132 S.Ct. at 700. After reviewing Kedroff and
Milivojevich, among others, the Court reaffirmed
that it is impermissible for the government to
contradict a church’s determination of who can act as
its ministers and recognized the “ministerial
exception” as to the employment relationship
between a religious institution and its ministers. Id.
at 185-88, 132 S.Ct. at 704-06 (reasoning that to
require a church to accept or retain an unwanted
minister, or to punish a church for failing to do so,
intrudes not upon a mere employment decision but
rather interferes with the church’s internal
governance and infringes upon the religious group’s
right to shape its own faith and mission through its
appointments).64 But see McConnell & Goodrich, 58
Ariz. L. Rev. at 336 (explaining that in contrast to
64

In Hosanna-Tabor, the Court concluded that the ministerial
exception applied to Perich based on the circumstances of her
employment: her ministerial title in becoming a “called” teacher
reflected the six years of religious education that she had
pursued to obtain the designation; her election by the
congregation, “which recognized God’s call to her to teach”;
Perich’s having claimed a religious exemption’s housing
allowance on her taxes; and Perich’s having taught religion four
days a week and led her students in prayer three times a day,
performing “an important role in transmitting the Lutheran
faith to the next generation.” 565 U.S. at 190-92, 132 S.Ct. at
707-08. Accordingly, the Court held that because Perich was a
minister under the exception, the First Amendment required
dismissal of her employment discrimination suit against her
religious employer. Id. at 194-95, 132 S.Ct. at 709 (observing
that the exception ensures “that the authority to select and
control who will minister to the faithful—a matter ‘strictly
ecclesiastical’—is the church’s alone”).

117a
the ministerial exception set out in Hosanna-Tabor,
church property cases present a conflict between two
church entities through which state trust and
property law is used to discern the church’s original
decision and to give legal effect to that decision, not a
conflict between civil law and internal church rules).
(2)

Supreme Court of Texas Cases

(a)
Masterson v. Diocese of Northwest Texas,
422 S.W.3d 594 (Tex. 2013), cert. denied, — U.S.
—, 135 S.Ct. 435, 190 L.Ed.2d 327 (2014).
As instructed by our supreme court in Episcopal
Diocese, we also look to Masterson. See Episcopal
Diocese, 422 S.W.3d at 653. In Masterson, the court
addressed what happens to property when a majority
of the membership of a local church—rather than an
entire diocese—votes to withdraw from the larger
religious bodies of which it has previously been a
part—specifically, TEC and the Episcopal Diocese of
Northwest Texas. 422 S.W.3d at 596. As in the case
before us, legal title to the local church’s property
was held by a Texas nonprofit corporation. Id. A
doctrinal dispute with TEC led a majority of the local
church’s members to vote to amend the corporation’s
articles of incorporation and bylaws to revoke any
trusts in favor of TEC or the diocese that were on the
property. Id. at 596, 598. Predictably, a lawsuit over
the property’s possession and use followed. Id.
The court traced the parties’ background, starting
in 1961 when individuals bought some of the land at
issue and donated it to the Northwest Texas
Episcopal Board of Trustees for establishment of a
mission church. Id. at 597. Four years later, a group
of worshippers filed an application with the diocese

118a
to organize a mission, which the diocese approved.
Id. TEC made loans and grants to the church to
assist its growth. Id. More individuals bought more
land and donated it to the church’s board of trustees,
and in 1974, the church applied for parish status
with the diocese and received it. Id. The diocesan
canons required that parishes be corporations,65 so
the church incorporated under Texas law. Id. All of
the property was conveyed to the corporation; none of
the deeds to the corporation provided for or
referenced a trust in favor of TEC or the diocese. Id.
The corporation’s bylaws provided that it would be
managed by a vestry elected by members of the
parish and that those elected members “shall hold
office in accordance with the Church Canons.” Id. at
597 & n.1. The bylaws also described the
qualifications for voting at parish meetings—being a
communicant of the parish as shown on the parish
register, at least sixteen years old, baptized, and a
regular contributor according to the treasurer’s
records—and specified that amendments to the
bylaws would be by majority vote at an annual
parish meeting or at a special meeting called for that
purpose by a majority vote of the duly qualified
voters of the parish. Id. at 597 & nn.2-3.
Pursuant to the bylaws, the parish held a called
meeting in November 2006, seeking—among other
things—to amend the corporate bylaws to remove all
references to TEC and the diocese and to revoke any
trusts that may have been imposed on any of the
65

In contrast, here, under EDFW’s canons, parishes and
missions may form a corporation as an adjunct or instrument
but may not incorporate themselves.

119a
corporation’s property by TEC, the diocese, or the
original trustees. Id. at 598. After the resolutions
passed by majority vote, amended articles of
incorporation changing the corporate name from
“The Episcopal Church of the Good Shepherd” to the
“Anglican Church of the Good Shepherd” were filed.
Id. In conjunction with these acts, the majority of the
church’s members withdrew from the diocese and
TEC and retained possession of the parish property.
Id.
Like the first round of the case before us, in the
ensuing litigation between the church’s withdrawing
faction and the faction that remained loyal to TEC
and to the diocese, the parties’ focus was on
deference rather than the application of neutral
principles. Id. at 599. The trial court and the
intermediate appellate court both relied on deference
to identify the continuing parish and the proper
custodians of the church’s property. Id. After
reviewing both its own and U.S. Supreme Court
precedent, our supreme court acknowledged the
“neutral principles” methodology as the sole
applicable methodology, requiring courts to decide
non-ecclesiastical issues such as property ownership
based on the same neutral principles of law
applicable to other entities while deferring to
religious entities’ decisions on ecclesiastical and
church polity issues. Id. at 596, 601-07.
The supreme court concluded that TEC is a
hierarchical organization. Id. at 608. But the court
clarified that the question of identifying who owns
the property is not necessarily inextricably linked to
or determined by ecclesiastical matters, explaining
that

120a
[t]here is a difference between (1) the Bishop’s
determining which worshipers are loyal to the
Diocese and TEC, whether those worshipers
constituted a parish, and whether a parish
properly established a vestry, and (2) whether
the corporation’s bylaws were complied with
when the vote occurred to disassociate the
corporation from the Diocese and TEC.
Id. That is, the corporation, with its secular existence
derived from state law and its articles of
incorporation and bylaws, is subject to a neutral
principles determination. Id. Accordingly, the court
reversed the judgment of the court of appeals and
remanded the case to the trial court to apply the
neutral principles methodology. Id
The court noted that the trial court lacked
jurisdiction over whether the diocese’s bishop was
authorized to form a new parish and recognize its
membership and whether he could or did authorize
that parish to establish a vestry or recognize
members of the vestry because these items were
ecclesiastical matters of church governance,
questions upon which the trial court properly
deferred to the bishop’s exercise of ecclesiastical
authority. Id.
The court also took the opportunity, in the interest
of judicial economy, to address issues likely to be
raised on remand in the trial court, some of which
apply directly to the case now before us and are
summarized as follows:


Absent specific, lawful provisions in a
corporation’s articles of incorporation or bylaws
otherwise, whether and how a corporation’s

121a
directors or those entitled to control its affairs can
change its articles of incorporation and bylaws
are secular, not ecclesiastical matters, and an
external entity—under the former or current
statutory scheme—is not empowered to amend
them absent specific, lawful provision in the
corporate documents. Id at 609-10 (citing Tex.
Bus. Orgs. Code § 3.009; Tex. Rev. Civ. Stat. Ann.
art. 1396-2.09).


The TEC-affiliated bishop could, as an
ecclesiastical matter, determine which faction of
believers was recognized by and was the “true”
church loyal to the Diocese and TEC, and courts
must defer to such ecclesiastical decisions, but his
decision identifying the loyal faction as the
continuing parish does not necessarily determine
the property ownership issue, and his decisions
on secular legal questions such as the validity of
the parish members’ vote to amend the bylaws
and articles of incorporation are not entitled to
deference. Id. at 610.



If the title to the real property is in the
corporation’s name and the language of the deeds
does not provide for an express trust in favor of
TEC or the Diocese, then the corporation owns
the property. Id.



As to the Dennis Canon’s terms, which provide in
part that “all real and personal property held by
or for the benefit of any Parish, Mission or
Congregation is held in trust for TEC,”—
assuming, without deciding, that the Dennis
Canon attempted to impose a trust on the
nonprofit corporation’s property and limited the
nonprofit corporation’s authority over the

122a
property—these terms do not make a trust
expressly irrevocable under Texas law. Id. at 613.
To the contrary, “[e]ven if the Canon could be
read to imply the trust was irrevocable, that is
not good enough under Texas law. The Texas
statute requires express terms making it
irrevocable.” Id.
(b) Brown v. Clark, 102 Tex. 323, 116 S.W. 360
(1909).
In Brown, the 1909 case upon which the supreme
court relied to resolve the initial methodology issue
in Masterson and Episcopal Diocese, the supreme
court was faced with a task similar to the one before
us: two groups litigated over property deeded “by
different persons at different times to trustees for the
Cumberland Presbyterian Church at Jefferson, Tex.”
116 S.W. at 361. One group claimed to constitute
“the church session of the Cumberland Presbyterian
Church at the city of Jefferson, Tex.,” while the other
claimed to be “the church session of the Presbyterian
Church in the United States of America at Jefferson,
Tex.” Id.
At the time, nationally, the Cumberland
Presbyterian Church and the Presbyterian Church of
the United States of America (PCUSA) had overcome
their differences and reunited. Id. The members of
the Jefferson church held differences of opinion
“upon the subject of reunion,” and those who opposed
the reunion sued those who claimed that the reunion
had transferred the property to PCUSA. Id. at 362.
Upon the conclusion of a bench trial, the trial court
agreed with the PCUSA faction; the intermediate
appellate court disagreed and reversed the trial
court’s judgment. Id.

123a
The supreme court declined to address the
argument that the national churches could not
reunite because the highest court of the church—to
which the decision of doctrine and the modification of
the confession of faith were directed—had exclusive
jurisdiction over that question. Id. at 363-64.
Instead, the only question that the supreme court
had jurisdiction to address was the effect the reunion
had on the property when the deed’s plain language
was made “to the trustees of the Cumberland
Presbyterian Church at Jefferson, Tex.” 66 Id. at 364.
The supreme court concluded that the church to
which the deed was made still owned the property
and that “whatever body is identified as being the
church to which the deed was made must still hold
the title.” Id. at 364-65. In reaching the conclusion
that the property resided with the PCUSA faction,
the court traced the identity from the CumberlandPCUSA reunion, stating,
The Cumberland Presbyterian Church at
Jefferson was but a member of and under the
control of the larger and more important
Christian organization, known as the
Cumberland Presbyterian Church, and the
local church was bound by the orders and
judgments of the courts of the church. The
Jefferson church was not disorganized by the
act of union. It remained intact as a church,
losing nothing but the word “Cumberland”
from its name. Being a part of the Cumberland
Presbyterian Church, the church at Jefferson
66

The property had been paid for by the local church “in the
ordinary way of business.” Brown, 116 S.W. at 364.

124a
was by the union incorporated into the
Presbyterian Church of the United States of
America. . . . those members who recognize the
authority of the Presbyterian Church of the
United States of America are entitled to the
possession and use of the property sued for.
Id. at 365. The supreme court affirmed the trial
court’s judgment. Id.
(c) Westbrook v. Penley, 231 S.W.3d 389 (Tex.
2007).
Our supreme court has previously acknowledged
that when a church dispute involves property or a
contract and is purely secular, we have jurisdiction
to consider it. See Westbrook, 231 S.W.3d at 398-99.
Westbrook involved a tort action that arose from an
act of church discipline (shunning) resulting from
counseling performed by the church’s pastor. Id. at
391.
The court first observed that the First Amendment
prohibits governmental action, including court
action, that would burden the free exercise of religion
by encroaching on a church’s ability to manage its
internal affairs, presenting a question of subject
matter jurisdiction reviewed sua sponte and de novo.
Id. at 394 & n.3, 395 (“[T]he majority of courts
broadly conceptualize the prohibition as a subjectmatter bar to jurisdiction.”); see M.O. Dental Lab v.
Rape, 139 S.W.3d 671, 673 (Tex. 2004) (“[W]e are
obligated to review sua sponte issues affecting
jurisdiction.”). To gauge the constitutional validity of
a particular civil action, a court must identify the
nature of the constitutional and other interests at
stake. Westbrook, 231 S.W.3d at 396; see David J.

125a
Young & Steven W. Tigges, Into the Religious
Thicket-Constitutional Limits on Civil Court
Jurisdiction over Ecclesiastical Disputes, 47 Ohio St.
L.J. 475, 499 (1986) (describing some steps to take in
analyzing intrachurch litigation). “In determining
whether subject matter jurisdiction exists, courts
must look to the ‘substance and effect of a plaintiffs
complaint to determine its ecclesiastical implication,
not its emblemata.’ “ Westbrook, 231 S.W.3d at 405
(quoting Tran v. Fiorenza, 934 S.W.2d 740, 743 (Tex.
App.—Houston [1st Dist.] 1996, no writ)). The
difficulty comes in determining whether a particular
dispute is “ecclesiastical” or simply a civil law
controversy in which church officials happen to be
involved. Tran, 934 S.W.2d at 743 (holding that
whether priest had been excommunicated—divesting
him of his priestly authority—was unavoidably an
ecclesiastical matter even if the truth of that fact
would bar his defamation claim).
“ ‘Membership in a church creates a different
relationship from that which exists in other
voluntary societies formed for business, social,
literary, or charitable purposes.’ ” Westbrook, 231
S.W.3d at 398 (quoting Minton v. Leavell, 297 S.W.
615, 622 (Tex. Civ. App.—Galveston 1927, writ
ref’d)). Because a church’s autonomy in managing its
affairs has long been afforded broad constitutional
protections, the court must ask whether its decision
of the issues would “unconstitutionally impede the
church’s authority to manage its own affairs.” Id. at
397.
Ultimately, in Westbrook, the court concluded that
subjecting the church’s pastor to tort liability for
professional negligence as a counselor for engaging

126a
the church’s disciplinary process once facts were
revealed that triggered such discipline would have a
“chilling effect” on the church’s ability to discipline
members and deprive churches of their right to
construe and administer church laws. Id. at 400. The
court reasoned that
while the elements of Penley’s professionalnegligence claim can be defined by neutral
principles without regard to religion, the
application of those principles to impose civil
tort liability on Westbrook would impinge
upon [the church’s] ability to manage its
internal affairs and hinder adherence to the
church
disciplinary
process
that
its
constitution requires.
Id. The secular confidentiality interest represented
by Penley’s professional-negligence claim failed to
override the strong constitutional presumption that
favors preserving the church’s interest in managing
its affairs, particularly when the pastor’s actions did
nothing to endanger Penley’s or the public’s health or
safety. Id at 402, 404. The values underlying the
constitutional interest in prohibiting judicial
encroachment upon a church’s ability to manage its
affairs and discipline its members, who have
voluntarily united themselves to the church body and
impliedly consented to be bound by its standards,
must be zealously protected, and when presented
with conflicting interests like those presented in
Westbrook, generally “a ‘spirit of freedom for
religious organizations’ prevails, even if that freedom
comes at the expense of other interests of high social
importance.” Id. at 403 (internal citations omitted).
Accordingly, after liberally construing Penley’s

127a
pleadings, the court held that the trial court properly
dismissed the case on Westbrook’s plea to the
jurisdiction. Id. at 405.
(3)

Intermediate Appellate Court Cases

This court’s cases involving churches have run the
gamut, from the relationship between a church and
its ministers, which we recognized as of “prime
ecclesiastical concern,” to whether a church
incorporated under the nonprofit corporations act
gave proper notice of a business meeting. Compare
Smith v. N. Tex. Dist. Council of Assemblies of God &
House of Grace, No. 02-05-00425-CV, 2006 WL
3438077, at *3 (Tex. App.—Fort Worth Nov. 30,
2006, no pet.) (mem. op.) (affirming dismissal for
want of jurisdiction when appellants sued for
declaration that church’s district council did not
follow church constitution, bylaws, and rules of
procedure and for a division of church’s assets
between two congregations), Dean v. Alford, 994
S.W.2d 392, 395 (Tex. App.—Fort Worth 1999, no
pet.) (holding that the vote on a pastor’s removal in a
congregational
church
involved
a
purely
ecclesiastical, administrative matter), and Patterson
v. Sw. Baptist Theological Seminary, 858 S.W.2d
602, 603-04 (Tex. App.—Fort Worth 1993, no writ)
(affirming dismissal in wrongful termination suit
because case essentially involved a religious dispute,
the “key inquiry under the First Amendment [being]
whether a religious organization is making an
ecclesiastical decision”), with Kelly v. Church of God
In Christ, Inc., No. 02-1000047-CV, 2011 WL
1833095, at *13 n.18 (Tex. App.—Fort Worth May
12, 2011, pet. denied) (mem. op.) (avoiding issue of
whether negligence claims were barred by First

128a
Amendment by concluding that the trial court
properly granted summary judgment on the
negligence claims), and Randolph v. Montgomery,
No. 02-0600087-CV, 2007 WL 439026, at *1-2 (Tex.
App.—Fort Worth Feb. 8, 2007, no pet.) (mem. op.)
(holding no intrusion into ecclesiastical matters
when issue was whether proper notice of business
meeting was given by church incorporated under
nonprofit corporations act and trial court merely had
to apply statute’s plain language and apply neutral
principles of law). Yet, to the extent the application
of neutral principles requires discussion and
analysis, the issues now before us appear to be of
first impression. Cf. Smith, 2006 WL 3438077, at
*3.67 This is not so with some of our sister courts.
67

Smith involved an intracongregational dispute that arose
after some church members unsuccessfully sought a division of
church assets. 2006 WL 3438077, at *1. One of the complaints
raised in the ensuing litigation was that the church
constitution, bylaws, and rules of procedure had not been
followed. Id. at *2. We agreed that the trial court correctly
dismissed the case for want of jurisdiction when the plaintiffs’
claims asked the trial court to determine matters involving
clergy, church discipline, and ecclesiastical governance. Id. We
noted that the difficulty—as here—lies in determining whether
a particular dispute is ecclesiastical or simply a civil law
controversy in which church officials happen to be involved. Id.
at *3. We held that “[m]atters involving the interpretation of
church bylaws and constitutions, the relationship between an
organized church and its minister, and the division of church
assets are all ecclesiastical concerns.” Id. (citing Milivojevich,
426 U.S. at 708-09, 724-25, 96 S.Ct. at 2380, 2387-88).
However, per the supreme court’s instructions in Episcopal
Diocese and Masterson, we are required to consider the division
of church assets insofar as we can determine ownership
through the application of neutral principles and are required
in that analysis to consider church bylaws and constitutions.

129a
For example, the Amarillo court discussed the issue
in African Methodist Episcopal Church, Allen Chapel
v. Independent African Methodist Episcopal Church
(AMEC), within the context of what the case was not:
“[T]his is not one of those suits where the local
congregation becomes divided and each division
claims to have the right to the property to the
exclusion of the other members.” 281 S.W.2d 758,
759 (Tex. Civ. App.—Amarillo 1955, writ ref’d n.r.e.)
(emphasis added). In AMEC, all of the property was
bought and paid for by the local church, the deed was
made out to the trustees of the African Methodist
Church of Vernon and not to the mother church, and
the entire membership of the local church—including
the pastor—quit the mother church. Id. at 759-60.
When all of the members withdrew from the mother
church, dissolved the local church, and organized
under the name of Independent AMEC of Vernon,
Texas, because the trustees held the property in
trust for the benefit of those who had bought and
paid for it, the court concluded that the property
belonged to the local church. Id at 760. Part of the
rationale, however, was that this case preceded the
ability of unincorporated nonprofit associations to
hold property in any form other than under trustees.
See id.; cf. Tex. Bus. Orgs. Code Ann. § 252.003
(West 2012) (providing that nonprofit associations
may acquire, hold, encumber, and transfer real and
personal property in this state).

See Episcopal Diocese, 422 S.W.3d at 651-52; see also
Masterson, 422 S.W.3d at 606 (observing that many disputes
“will require courts to analyze church documents and
organizational structures to some degree”).

130a
The Texarkana court discussed the issue before us
in Presbytery of the Covenant v. First Presbyterian
Church of Paris, Inc., 552 S.W.2d 865 (Tex. Civ.
App.—Texarkana 1977, no writ). In that case, the
majority of the members of the First Presbyterian
Church of Paris sought to withdraw from the
national church, PCUSA, and to affiliate with
another group. Id. at 867. The Presbytery of the
Covenant—one of PCUSA’s governing layers—
sought to prevent the withdrawing faction from
taking possession of and asserting ownership to the
church property, and the withdrawing faction sued
the Presbytery and others to try title. Id. After a jury
trial, the trial court rendered judgment for the
withdrawing faction. Id. The appellate court reversed
the trial court’s judgment. Id. at 872.
On appeal, the court determined that prior to June
17, 1973—the date of the attempted withdrawal—
there was only one First Presbyterian Church of
Paris, which was affiliated with PCUSA and which
had acquired all of the real property involved at a
time when there was no disagreement over the
church property. Id at 867-69. Each of the deeds
named as grantee either First Presbyterian Church
of Paris U.S. or the corporation First Presbyterian
Church U.S. of Paris, Inc., which was chartered in
Texas in 1966 to hold property for the First
Presbyterian Church of Paris U.S. Id. at 869. On
February 13, 1973, the Presbytery established an
administrative commission in anticipation that some
of the local congregations might attempt to withdraw
from PCUSA and a pastoral letter required written
notices prior to calling a congregational meeting to
consider a proposal to withdraw. Id. The required

131a
written notices were not given; rather, on June 10,
1973, oral notice was given from the pulpit of the
congregational meeting to be held on June 17 to
consider a resolution to withdraw from PCUSA. Id.
At the June 17, 1973 meeting, 101 of the 149
members on the church’s active roll attended the
meeting and voted for the withdrawal. Id. The
Presbytery turned the matter over to the
administrative commission, which began a process
that resulted in the formal suspension and
divestiture of the local church’s leadership, and in
July 1973, the commission declared that the action
taken to withdraw was null and void. Id. at 869-70.
The withdrawing faction transferred the real
property and assets owned by the First Presbyterian
Church of Paris U.S. to a corporation that they
attempted to create by way of an amendment to the
charter of the First Presbyterian Church U.S. of
Paris, Inc., and they affiliated with a schismatic
organization, the Vanguard Presbytery of the
Continuing Presbyterian Church. Id. at 870. Of the
149 members, 30 signed statements of loyalty and
desire to remain in the PCUSA-recognized church,
and on September 13, 1973, the administrative
commission recognized them as constituting the
First Presbyterian Church of Paris U.S. Id.
The Texarkana court first identified the two
general types of religious organizations recognized in
the law: (1) congregational, which is strictly
independent of any other ecclesiastical association
and owes no fealty or obligation to any higher
authority, and (2) hierarchical, in which the local
congregation is but a subordinate member of some
general church organization in which there are

132a
superior ecclesiastical tribunals with general and
ultimate power of control more or less complete in
some supreme judicatory over the whole membership
of that general organization. Id. PCUSA—like TEC—
is recognized as a hierarchical church, “at least as to
ecclesiastical matters and church government.” Id.
The Texarkana court acknowledged that civil
courts’ power to resolve disputes relating to church
property was restricted to an adjudication of
property rights by the application of neutral
principles of law developed for use in all property
disputes and that when a hierarchical organization
is involved, the decisions of the highest church
judicatory to which the question has been taken, as
to questions of church discipline or government,
are—so far as they are relevant—final and binding
on the civil courts, subject only to narrow review if
found to have resulted from fraud or collusion. Id. at
870-71. With regard to the issue before it, the
Texarkana court recited that
[w]hen a division occurs in a local church
affiliated with a hierarchical religious body,
and a dispute arises between rival groups as to
the ownership or control of the local church
property, the fundamental question as to
which faction is entitled to the property is
answered by determining which of the factions
is the representative and successor to the
church as it existed prior to the division, and
that is determined by which of the two factions
adheres to or is sanctioned by the appropriate
governing body of the organization. It is a
simple question of identity. In making such a
determination, the civil court exercises no role

133a
in determining ecclesiastical questions. It
merely settles a dispute as to identity, which
in turn necessarily settles a dispute involving
property rights. In doing so, the court applies
neutral principles of law. . . .
Id. at 871 (citations omitted) (emphasis added).
Accordingly, the court reasoned that prior to June
17, 1973, the First Presbyterian Church of Paris U.S.
and all of its members were part of PCUSA’s
organization, and there was no question that
members dissatisfied with PCUSA’s actions could
withdraw their membership from the First
Presbyterian Church of Paris U.S. and thus their
affiliation with PCUSA. Id. But by their unilateral
action, the withdrawing members could not dissolve
the local church that was an integral part of PCU-SA
when the PCUSA constitution expressly vested in
the presbytery the power to dissolve a local church.
Id. When the local church was not dissolved and still
existed after June 17, it became the prerogative of
PCUSA’s governing judicatories to determine who
constituted the lawful congregation of the First
Presbyterian Church of Paris U.S. Id. Because the
loyal faction had submitted itself to PCUSA’s
judicatories and had been recognized as such as the
duly existing local congregation, they had “the
identity to make of them the First Presbyterian
Church of Paris U.S., and they are entitled to
possession and control of the property conveyed to
that church.” Id.
Specifically, despite the vote by the majority to
withdraw from PCUSA, the members of a church
organization “which is hierarchical as to church
government cannot dissolve a local church in

134a
contravention of the governing rules or edicts of the
mother church, and then re-establish themselves as
an independent church or one associated with a
schismatic group and take the church property with
them.” Id. at 871-72. The church existed prior to the
schism, still existed, and was composed of those
members who remained loyal to PCUSA and who
had been recognized by the governing judicatories as
the local church. Id. at 872. The question of the
church’s right to withdraw from PCUSA without the
consent of the Presbytery was one of church
government
determined
adversely
to
the
withdrawing faction by the appropriate church
tribunals. Id.; see also Green, 808 S.W.2d at 548-49,
552 (relying on Presbytery of the Covenant to affirm
trial court’s judgment awarding possession of church
property to loyalist group affiliated with United
Pentecostal
Church
International,
Inc.,
a
hierarchical church, which had adopted UPCI’s
bylaws for local church government prior to the
dispute over property ownership). But see Masterson,
422 S.W.3d at 605 & n.5 (listing Presbytery of the
Covenant as one of the court of appeals cases reading
Brown as applying a deference approach and
applying deference principles to hierarchical church
property dispute cases); Schismatic & Purported
Casa Linda Presbyterian Church in Am. v. Grace
Union Presbytery, Inc., 710 S.W.2d 700, 705 (Tex.
App.—Dallas 1986, writ ref’d n.r.e.) (stating that
although the Texarkana court purported to apply
neutral principles in Presbytery of the Covenant, “the
court in fact applied the deference rule in reaching

135a
its decision”),68 cert. denied, 484 U.S. 823, 108 S.Ct.
85, 98 L.Ed.2d 46 (1987).
Because the foregoing cases involved facts, legal
principles, and analysis similar to those facing us
here, they provide guidance to us in conducting our
analysis.
(4)

Other States’ Cases

Because other courts have previously faced
strikingly similar facts, we also examine these cases
to determine how those situations have been
resolved.
(a)

Diocese of San Joaquin

The annual convention of the Diocese of San
Joaquin voted to leave TEC and affiliate with the
Anglican Province of the Southern Cone in December
2007. Diocese of San Joaquin, 202 Cal.Rptr.3d at 57.
In January 2008, TEC disciplined then-Bishop JohnDavid Schofield, and Presiding Bishop Schori
ordered him to stop all “episcopal, ministerial, and
canonical acts, except as relate to the administration
68

Constitutionally speaking, the court in Presbytery of the
Covenant did not have a choice about applying deference in that
case. Deed construction was not an issue because each of the
deeds named either First Presbyterian Church of Paris U.S. or
the First Presbyterian Church of Paris U.S., Inc. as grantee.
552 S.W.2d at 869. Instead, the primary questions before the
court were (1) whether PCU-SA was hierarchical or
congregational as to property and (2) who was the “First
Presbyterian Church of Paris U.S.”? Id. at 868, 870-72. The
court’s answer to the first question—PCUSA was hierarchical—
determined the answer to the second. Id. at 870-72; see Brown,
116 S.W. at 364-65 (holding that the church that recognized the
authority of PCUSA was “identified as being the church to
which the deed was made”).

136a
of the temporal affairs of the Diocese of San
Joaquin.” Id. Approximately a week later, Schofield
filed with the California Secretary of State an
amendment to the articles of incorporation of the
corporation sole 69 to change its name from “The
Protestant Episcopal Bishop of San Joaquin” to “The
Anglican Bishop of San Joaquin.” Id. He represented
in the document that the amendment had been duly
authorized by the diocese, whose consent by annual
convention was required; however, the annual
convention had neither considered nor authorized
any such amendment. Id at 56-57.
Presiding Bishop Schori issued Schofield’s
deposition on March 12, 2008, terminating and
vacating his ecclesiastical and related secular offices.
Id. at 57-58. Nonetheless, on March 27, 2008,
Schofield began retitling twenty-seven pieces of real
property, first granting them to “The Anglican
Bishop of San Joaquin, a Corporate Sole,” and then
transferring them to the “Anglican Diocese Holding
Corporation,” which he had formed to perform the
same function as the corporation sole and to protect
the property from the provisional bishop elected by
the minority of parishes and members who had not
seceded from TEC. Id. at 58. In its lawsuit, TEC and
its affiliated diocese sought to reclaim possession of
property, among other things. Id. California’s
intermediate appellate court concluded that the
dispute regarding the identity of the incumbent
“Episcopal Bishop of the Diocese of San Joaquin” was
69

Under California law, a corporation sole is a perpetual
entity through which a religious organization can administer
and manage property dedicated to the benefit of that
organization. Diocese of San Joaquin, 202 Cal.Rptr.3d at 56 n.1.

137a
“quintessentially ecclesiastical,” as was the
continuity of the diocese as an entity within TEC. Id.
at 58-59. On remand, it instructed the trial court to
apply neutral principles of law to resolve the
property disputes on the remaining causes of action.
Id. at 59.
At trial, the parties stipulated that all of the dates
of Schofield’s transfer of the property had occurred
after he had been removed as TEC’s bishop. Id.
Accordingly, the trial court concluded that the
property transfers were void either because the
property was held in trust for TEC or because
Schofield lacked the authority to make the transfers.
Id. at 59-60.
On appeal, the court noted that deciding whether a
diocese can leave TEC does not resolve the property
dispute; rather, sources such as deeds, bylaws,
articles of incorporation, and relevant statutes must
be considered under the neutral principles analysis.
Id. at 63-64. The court also observed that the trial
court erred in its trust finding because the Dennis
Canon imposed by its terms an express trust in favor
of TEC on property held by a parish, not by a diocese.
Id. at 64. It refused to imply a trust on church
property because that
almost inevitably puts the civil courts squarely
in the midst of ecclesiastical controversies, in
that every dispute over church doctrine that
produces strongly held majority and minority
views forces the court to determine the true
implied beneficiaries of the church entities
involved. The court would be required to
determine which faction continued to adhere
to the “true” faith. This is something a civil

138a
court is not permitted to do. “If the civil courts
cannot properly determine which competing
group is the bearer of the true faith, they
cannot determine for whose benefit title to
church property is impliedly held in trust.”
Id. (quoting Barker, 171 Cal.Rptr. at 551).
The court looked at how title to the property was
held and the structure of the corporation sole when
Schofield attempted to make the transfers. Id. The
validity of the 2007 amendments to the diocesan
constitution and canons were not determinative
because the corporation sole, not the diocese, held
title to the property. Id. Because TEC had ordered
Schofield to continue administering the diocese’s
temporal affairs in the January 11, 2008 order, he
remained the chief officer of the corporation sole
until he was deposed on March 12, 2008. Id. at 65.
However, his attempted amendment was not
authorized at the 2007 diocesan convention as
required to be valid under California law. Id. at 65.
And the diocesan convention did not attempt to
ratify the action of the diocesan council in trying to
amend the canon requiring title of the corporation
sole to be “The Protestant Episcopal Bishop of San
Joaquin” until October 2008. Id. at 65-66. Thus,
under the terms of the diocese’s canons, the
amendment was invalid. Id. at 66.
Consequently, Schofield’s January 22, 2008
attempt to amend the articles of incorporation was
invalid and of no effect. Id. And because that
amendment was invalid, his attempt to transfer
property from the corporation sole known as “The
Protestant Episcopal Bishop of San Joaquin” to “The
Anglican Bishop of San Joaquin, a Corporation Sole”

139a
also failed, because no such entity existed when he
executed and recorded those deeds between March
and August 2008. Id. Likewise, Schofield’s attempt to
transfer the disputed property from “The Anglican
Bishop of San Joaquin, a Corporation Sole” to “The
Anglican Diocese Holding Corporation” also failed,
and title therefore remained with the Protestant
Episcopal Bishop of San Joaquin. Id. at 66-67. The
court affirmed the judgment returning the property
to TEC and the TEC-affiliated diocese. Id. at 67.
(b)

Diocese of Quincy

The Diocese of Quincy voted to end its association
with TEC and entered into membership with the
Anglican Church of the Southern Cone in November
2008. Diocese of Quincy, 2014 IL App (4th) 130901,
¶¶ 1, 383 Ill.Dec. 634, 14 N.E.3d at 124950. The
dissenters formed the “Diocese of Quincy of the
Episcopal Church,” and they and TEC (collectively,
the TEC dissenters) informed the bank holding
approximately $3 million in church assets that a
dispute had arisen over the funds’ ownership. Id. ¶ 1,
383 Ill.Dec. 634, 14 N.E.3d at 1249. After the bank
froze the assets, all parties sought a declaratory
judgment on the assets’ ownership. Id. ¶ 2, 383
Ill.Dec. 634, 14 N.E.3d at 1249. After a three-week
bench trial, the trial court, applying neutral
principles of law, found against the TEC dissenters
and issued twenty-one pages of findings with its
order. Id. ¶¶ 2, 19, 27, 383 Ill.Dec. 634, 14 N.E.3d at
1249, 1252-53.
In affirming the trial court’s judgment, the court
recounted that in 1893, the diocese had formed a
state nonprofit corporation called “The Trustees of
Funds and Property of the Diocese of Quincy”

140a
(hereafter, Corporation #1) to hold, manage, and
distribute the diocese’s funds. Id. ¶ 6, 383 Ill.Dec.
634, 14 N.E.3d at 1249-50. TEC was not a party to
the 1999 contract between the bank and Corporation
#1. Id. ¶ 7, 383 Ill.Dec. 634, 14 N.E.3d at 1250. Then
in 2005, the diocese incorporated as a state nonprofit
corporation called the Diocese of Quincy (hereafter,
Corporation #2). Id. ¶ 8, 383 Ill.Dec. 634, 14 N.E.3d
at 1250. Corporation #2’s directors were members of
the diocese, and in March 2009, Corporation #2 filed
its annual corporate report with the state, listing its
directors. Id. ¶¶ 8, 10, 383 Ill.Dec. 634, 14 N.E.3d at
1250. In April 2009, TEC declared void the diocese’s
November 2008 decision to disaffiliate and elected a
new bishop and other new leaders for the diocese. Id.
¶ 12, 383 Ill.Dec. 634, 14 N.E.3d at 1250. That same
month, Corporation #1 filed its annual report with
the state, listed its directors, and amended its bylaws
to remove references to TEC. Id. ¶ 11, 383 Ill.Dec.
634, 14 N.E.3d at 1250. Corporation #1’s amended
bylaws provided that directors did not have to be
Illinois residents but “shall be communicants in good
standing with their parish or mission church within
the Diocese of Quincy.” Id., 383 Ill.Dec. 634, 14
N.E.3d at 1250. TEC asked the court to hold that the
individuals listed as directors of Corporations #1 and
#2 had vacated their offices by leaving TEC and to
declare the new persons that had been elected as the
corporations’ directors. Id ¶ 17, 383 Ill.Dec. 634, 14
N.E.3d at 1251.
The court observed that Illinois had adopted the
neutral principles approach, “whereby a court may
objectively examine pertinent church characteristics,
constitutions and bylaws, deeds, state statutes, and

141a
other evidence to resolve the matter as it would a
secular dispute.” Id. ¶ 44, 383 Ill. Dec. 634, 14
N.E.3d at 1256. The court further noted that
deference is unavailable when the determination of a
church’s hierarchical structure is not easily
discernible. Id. ¶ 47, 383 Ill.Dec. 634, 14 N.E.3d at
1256. It pointed out that the trial court-after hearing
conflicting evidence-had concluded that it could not
“constitutionally determine the highest judicatory
authority or the locus of control regarding the
property dispute to which it would be required to
defer,” because the diocese’s status as a subordinate
in a hierarchy was “not clear or readily apparent,”
rendering deference unavailable. Id. ¶¶ 20-22, 27, 47,
383 Ill.Dec. 634, 14 N.E.3d at 1252-53, 1256; cf.
Masterson, 422 S.W.3d at 608 (“We agree with the
court of appeals that the record conclusively shows
TEC is a hierarchical organization.”).
Because the central matter underlying the parties’
dispute was “who owns the disputed property,” the
court did not have to determine whether the diocese
could leave TEC or identify the leaders of the
continuing diocese. Diocese of Quincy, 2014 IL App
(4th) 130901, ¶ 48, 383 Ill.Dec. 634, 14 N.E.3d at
1257. For the property at issue-funds in the bank
account and the deed to the “Diocesan House”—the
deed reflected that title to the property was held by
Corporation #1, and its language did not provide for
an express trust in favor of TEC; TEC was likewise
not a party to the contract between Corporation #1
and the bank, and it was undisputed that TEC had
never had any involvement with the bank account.
Id. ¶ 50, 383 Ill.Dec. 634, 14 N.E.3d at 1257. The
corporations were not organized under Illinois’s

142a
Religious Corporation Act, which would have
imposed certain requirements on the incorporating
body with regard to trustee membership. Id. ¶ 51,
383 Ill.Dec. 634, 14 N.E.3d at 1257. And the
evidence—including the deed, the bank contract, and
the diocese’s constitution and canons—revealed
nothing to show an express or implied trust or any
other interest vested in TEC. Id. ¶ 54, 383 Ill.Dec.
634, 14 N.E.3d at 1258. The Dennis Canon provided
that parish property was held in trust for the diocese
and TEC but included no “similar language with
respect to diocesan property being held in favor of”
TEC. Id., 383 Ill. Dec. 634, 14 N.E.3d at 1258.
Accordingly, the court affirmed the trial court’s
judgment.” Id.70 57, 383 Ill.Dec. 634, 14 N.E.3d at
1259.
70

In Diocese of San Joaquin, the court distinguished Diocese
of Quincy, observing that the Quincy diocese (Corporation #2)
was incorporated as a nonprofit corporation under Illinois law
and the property was held, managed, and distributed by
another nonprofit corporation (Corporation #1), the directors of
whom were members of Corporation #2. 202 Cal.Rptr.3d at 6061. In contrast, in the San Joaquin Diocese, the property was
held in the name of the corporation sole with the incumbent
bishop as the single officeholder. Id. at 61. The San Joaquin
court noted that because the Quincy diocese was organized
under the Illinois Not-For-Profit Corporation Act instead of the
Illinois Religious Corporation Act, TEC had no authority to
remove and replace the incorporated diocese’s directors,
whereas TEC had more influence and control over the
California corporation sole because any amendments to its
articles of incorporation had to be “authorized by the religious
organization.” Id. (observing that under the Illinois Religious
Corporation Act “a trustee of a religious corporation can be
removed from office for, inter alia, abandonment of the
denomination”); see 805 Ill. Comp. Stat. Ann. 110/46d (West,
Westlaw through 2018 Legis. Sess.) (providing that the trustee

143a
(c)

Diocese of South Carolina

During the pendency of this appeal, the Supreme
Court of South Carolina issued an opinion—or
rather, five opinions, as each justice wrote
separately—touching on some of the issues before us.
See Protestant Episcopal Church in the Diocese of
S.C. v. The Episcopal Church, 421 S.C. 211, 806
S.E.2d 82, 84, 93 (2017), cert. denied, No. 17-1136,
2018 WL 838170 (Feb. 9, 2018). As recounted by one
of the justices, a majority of three agreed that in
secular church disputes, neutral principles of law
should be applied to resolve the case, while a
different majority of three held that, with regard to
the twenty-eight church organizations that acceded
to the Dennis Canon, a trust in favor of TEC is
imposed on the property, putting title in the national
church. Id. at 125 n.72 (Toal, Acting J., dissenting).
(5)

Commentary

Unsurprisingly, cases involving church property
have attracted a number of scholarly articles
weighing in on various aspects of the tension
between the First Amendment and state secular law.
See McConnell & Goodrich, 58 Ariz. L. Rev. at 321-22
(observing the common pattern of church property
disputes and the arguments made by each side);
of a corporation organized under the Illinois Religious
Corporation Act “may be removed from office whenever his
office shall be declared vacant . . . for an abandonment of the
faith of the congregation, church, society, sect, or denomination,
or for failure to observe the usages, customs, rules, regulations,
articles of association, constitution, by-laws or canons of the
congregation, church or society, or of the ecclesiastical body, or
diocesan, or like ecclesiastical officer, having jurisdiction over
any ecclesiastical district or diocese).

144a
Valerie J. Munson, Fraud on the Faithful? The
Charitable Intentions of Members of Religious
Congregations & the Peculiar Body of Law Governing
Religious Property in the United States, 44 Rutgers
L.J. 471, 509 (2014) (observing that history suggests
that religion-based property disputes will always be
around and that “the only constant in that body of
law has been its utter inconsistency and
uncertainty”); Bertie D. Jones, Litigating the Schism
& Reforming the Canons: Orthodoxy, Property & the
Modern, Social Gospel of the Episcopal Church, 42
Golden Gate U. L. Rev. 151, 215 (2012) (asserting
that the property disputes within TEC are about
theology and proposing that ecclesiastical property
courts would be more efficient to determine the
Dennis Canon trust question); R. Gregory Hyden,
Comment, Welcome to the Episcopal Church, Now
Please Leave: An Analysis of the Supreme Court’s
Approved Methods of Settling Church Property
Disputes in the Context of the Episcopal Church &
How Courts Erroneously Ignore the Role of the
Anglican Communion, 44 Willamette L. Rev. 541,
560 (2008) (“By ignoring the judicatory procedures
outside of the national polity of the Episcopal
Church, courts are not following the principles they
set out for a hierarchical church in either a deference
approach or a neutral principles approach.”); Jeffrey
B. Hassler, Comment, A Multitude of Sins?
Constitutional Standards for Legal Resolution of
Church Property Disputes in A Time of Escalating
Intradenominational Strife, 35 Pepp. L. Rev. 399,
455 (2008) (“Churches have not ordered their affairs
in ways that lend themselves to easy civil court
resolution.”); Fennelly, 9 St. Thomas L. Rev. at 357
(“The unintended consequence of neutral principles

145a
has been . . . an unwarranted intrusion into a sphere
that lies outside government’s legitimate boundaries
of authority.”); Patty Gersten-blith, Civil Court
Resolution of Property Disputes Among Religious
Organizations, 39 Am. U. L. Rev. 513, 519-20 (1990)
(observing that Supreme Court jurisprudence that
grants greater deference in property disputes to
hierarchical religious organizations than to
congregational religious organizations “would seem
to create a structural relationship violative of the
establishment clause”). These commentaries have
provided valuable guidance to us.
(6)

Summary

Under the neutral principles methodology, we are
required to apply neutral principles of law to issues
such as land titles, trusts, and corporate formation,
governance, and dissolution, even when religious
entities are involved, Masterson, 422 S.W.3d at 606,
and “what happens to the property is not [an
ecclesiastical matter], unless the congregation’s
affairs have been ordered so that ecclesiastical
decisions effectively determine the property issue.”
Id. at 607. That is, as set out above, per Jones and
Milivojevich, we must perform a non-religiousdoctrine-related review of the plain language of the
deeds and the provisions dealing with ownership and
control of property contained within the local and
general churches’ governing documents, confining
ourselves to formal title, corporate documents, and
other items used in the secular world to determine
ownership issues, while avoiding questions about the
tenets of faith, including any religious test as to the
parties’ leadership or identity. If a case requires the
court only to interpret a contract or deed but not to

146a
intervene in matters of church discipline, internal
administration, or membership—or matters of
morality or church doctrine—then it should be a
simple matter to resolve a basic civil law controversy
that just happens to involve a church. See Episcopal
Diocese, 422 S.W.3d at 650 (stating that under
neutral principles, courts “defer to religious entities’
decisions on ecclesiastical and church polity issues
such as who may be members of the entities and
whether to remove a bishop” while deciding issues
like property ownership and the existence of a trust
“on the same neutral principles of secular law that
apply to other entities”). But whether the application
of the neutral principles approach is unconstitutional
depends on how it is applied. Id. at 651; see also
Westbrook, 231 S.W.3d at 400, 403. Milivojevich,
Kedroff, and Hosanna-Tabor warn us, at all costs, to
avoid becoming unconstitutionally entangled in the
parties’ theological, hierarchical web of who is or can
be the “real” bishop or diocese for religious purposes.
We have translated these and other strictures into a
flow chart.

147a

See Young & Tigges, 47 Ohio St. L.J. at 498-99
(“[I]ndeed it is the presence of such a doctrinal issue
which turns a case concerning church discipline,
organization, or government into an ecclesiastical
one calling for deference. Once a doctrinal question is
present in a case, it cannot be avoided through
neutral principles or any other approach.” (footnote
omitted)); see also Hyden, 44 Willamette L. Rev. at
569-70 (recommending that courts should ensure
that churches wishing to disaffiliate have first

148a
exhausted all remedies available to them within the
structure of the national and international church
and, if so, then give the deference courts traditionally
give to administrative agency decisions). Compare
Gonzalez v. Roman Catholic Archbishop of Manila,
280 U.S. 1, 16, 50 S.Ct. 5, 7-8, 74 L.Ed. 131 (1929)
(observing that in the absence of fraud or collusion,
“the decisions of the proper church tribunals on
matters purely ecclesiastical, although affecting civil
rights, are accepted in litigation before the secular
courts as conclusive, because the parties in interest
made them so by contract or otherwise”), and Singh
v. Sandhar, 495 S.W.3d 482, 490 (Tex. App.—
Houston [14th Dist.] 2016, no pet.) (“While the
Supreme Court left open the possibility that fraud or
collusion claims may serve as vehicles for civil court
review of ecclesiastical decisions, we have found no
Texas case that has applied such an exception.”),
with Libhart, 949 S.W.2d at 794 (citing a
Washington case for the proposition that when
church proceedings are tainted by fraud, judicial
review is appropriate).”71

71

In considering whether a former pastor fraudulently
misrepresented material facts in selling church facilities, the
Libhart court quoted the Supreme Court of Washington as
prohibiting the use of “chicanery, deceit, and fraud” to divert
church property “to a purpose entirely foreign to the purposes of
the organization[ ] for . . . selfish benefit.” 949 S.W.2d at 794
(quoting Hendryx v. People’s United Church of Spokane, 42
Wash. 336, 84 P. 1123, 1127 (1906)). The parties in the instant
case have not specified any fraud claims.

149a
b.

State Substantive Law

Within the neutral principles framework, we must
consider our state’s associations, corporations, and
trust law as applicable to the case.
(1)

Associations Law

EDFW is a Texas nonprofit association governed by
chapter 252 of the business organizations code. See
Tex. Bus. Orgs. Code Ann. §§ 1.103, 252.001 (West
2012). These days, a nonprofit association may be the
beneficiary of a trust, contract, or will. See id.
§ 252.015 (noting that until September 1, 1995, a
nonprofit association could not hold an estate or
interest in real or personal property, so the interest
was held in trust by a fiduciary, but after September
1, 1995, the fiduciary could transfer the interest to
the nonprofit association in the nonprofit’s name).
The nonprofit association is separate from its
members for purposes of determining and enforcing
its rights, duties, and liabilities in contract and tort.
Id. § 1.002(57)-(58) (West Supp. 2017), §§ 3.002,
252.006(a) (West 2012). Under chapter 252, a
“member” is a person who, under the association’s
rules or practices, may participate in the selection of
persons authorized to manage association affairs or
in the development of association policy. Id.
§ 252.001(1). “A member of, or a person considered as
a member by, a nonprofit association may assert a
claim against the nonprofit association,” and vice
versa. Id. § 252.006(d).
“It is generally held that the constitution and bylaws
of a voluntary association,
whether
incorporated or not, are controlling as to its internal
management.” Dist. Grand Lodge No. 25 Grand

150a
United Order of Odd Fellows v. Jones, 138 Tex. 537,
160 S.W.2d 915, 922 (1942); Juarez v. Tex. Ass’n of
Sporting Officials El Paso Chapter, 172 S.W.3d 274,
279 (Tex. App.—El Paso 2005, no pet.) (“[T]he courts
of this state recognize the right of a private
association to govern its own affairs.”). Texas courts
have recognized that an association’s bylaws
constitute a contract between the parties. Monasco v.
Gilmer Boating & Fishing Club, 339 S.W.3d 828, 838
n.14 (Tex. App.—Texarkana 2011, no pet.). But see
Westbrook, 231 S.W.3d at 398 (quoting Minton, 297
S.W.2d at 62122, for the proposition that church
membership creates a different relationship from
that of other voluntary associations); Harden v.
Colonial Country Club, 634 S.W.2d 56, 60 (Tex.
App.—Fort Worth 1982, writ refd n.r.e.) (stating that
a suit on bylaws and policies is not the type of
breach-of-contract suit contemplated by the
legislature with regard to the recovery of attorney’s
fees). The constitution and bylaws of an association
confer no legal rights on nonmembers. Schooler v.
Tarrant Cty. Med. Soc’y, 457 S.W.2d 644, 647 (Tex.
Civ. App.—Fort Worth 1970, no writ).
By becoming a member of an association, an
individual “subjects himself, within legal limits, to
the association’s power to administer as well as its
power to make its rules.” Harden, 634 S.W.2d at 59.
The actions of the association’s leadership are
permissible and binding on the association’s
membership so long as they are not illegal, against
some public policy, or fraudulent. Id. at 60 (refusing
judicial intervention in association’s internal dispute
over rules pertaining to sale of country club
membership); see also Whitmire v. Nat’l Cutting

151a
Horse Ass’n, No. 02-08 00176-CV, 2009 WL 2196126,
at *4 (Tex. App.—Fort Worth July 23, 2009, pet.
denied) (mem. op.) (“Judicial review is only proper
when the actions of the organization are illegal,
against some public policy, arbitrary, or capricious.”).
But see Milivojevich, 426 U.S. at 713, 96 S.Ct. at
2382 (disavowing an exception for arbitrariness as to
religious
associations).
Legislative
enactment
dictates what is public policy in this state. See Dist.
Grand Lodge No. 25, 160 S.W.2d at 920; see also
Dickey v. Club Corp. of Am., 12 S.W.3d 172, 177 (Tex.
App.—Dallas 2000, pet. denied) (holding that
membership in a golf club is not a valuable property
right, particularly when plaintiffs did not allege
gender inequity or discrimination and there was no
claim of fraud or illegality, and that “[i]f the courts
were to intervene each time members of a golf club
felt that restrictions on tee times were unreasonable,
operation of such clubs would become unmanageable
and valuable judicial resources would be wasted”).
Complaints that attract judicial review are those
that “allege a wholesale deprivation of due process or
the opportunity to be heard in violation of some civil
or property right.” Whitmire, 2009 WL 2196126, at
*5; see Stevens v. Anatolian Shepherd Dog Club of
Am., Inc., 231 S.W.3d 71, 74-75 (Tex. App.—Houston
[14th Dist.] 2007, pet. denied) (reciting that despite
the general rule of noninterference with a voluntary
association’s internal management, courts will
interfere in a private association’s inner-dealings if a
valuable right or property interest is at stake or if
association fails to accord members “something
similar to due process”).

152a
The TEC parties assert that Appellees lost EDFW’s
property when they disassociated from TEC, and
they refer us to several cases to support their
position. See Int’l Printing Pressman v. Smith, 145
Tex. 399, 198 S.W.2d 729, 736 (1946);72 920;73 see also
72

In International Printing, Smith sued the parent union for
his wrongful expulsion from the local union, a chartered
subordinate organization, after it failed to follow the parent
union’s rules in expelling him. 198 S.W.2d at 731-32. After a
jury trial, the trial court issued a JNOV for the union, but the
supreme court rendered judgment for Smith. Id. at 731, 738.
The court held that Smith’s expulsion was illegal and void—the
result of “a breach of the fundamental guarantees established
by the union for the protection of the rights of the individual
member,” id. at 732, and while the parent union contended that
it was not responsible for its subordinate unit’s actions, the
local union had acted as its agent and was “but the alter ego of
the national organization” when it breached the contract—
constitution and bylaws—between the organization and its
members. Id. at 733-34, 736, 742-43. That is, while the local
union could elect its own officers and adopt its own constitution
and bylaws, the parent union’s constitution and bylaws took
precedence, regulating in detail how the local union could
operate and its officers’ performance of their duties. Id. at 733.
The parent union could also forfeit the local union’s charters,
take over the administration of its affairs, and remove and
expel its officers for a failure to perform their duties. Id. And
while the parent union’s constitution and bylaws did not
contain any express promise to allow union members to remain
members and enjoy the benefits thereof, the court held that
there was an implied obligation to allow a member to enjoy the
benefits of his membership “so long as he complies with the
obligations imposed by the constitution and by-laws.” Id. at
737-38.
73

In Grand Lodge, the supreme court considered whether the
property held by a defunct local fraternal lodge would go to its
members or to the grand lodge of which the local lodge had been
a constituent member. 160 S.W.2d at 920. Grand Lodge, a
fraternal benefit society organized in 1890, sued members of

153a
the defunct local lodge in a trespass-to-try-title action involving
three lots. Id. at 917-18. The local lodge had been one of Grand
Lodge’s subordinate lodges when it acquired the lots but
became “defunct” in 1936, paying no membership dues or
assessments to either Grand Lodge or the national
organization. Id. at 918. The lots, acquired between 1909 and
1920, were paid for by the local lodge’s members, and none of
Grand Lodge’s or the national organization’s funds were used
directly or indirectly in purchasing the lots or making
improvements upon them. Id. The deeds were executed to
named members of the local lodge “as trustees of said Local
Lodge and to their successors in trust for said lodge.” Id. In
1936, the self-described duly elected and qualified trustees of
the local lodge executed general warranty deeds conveying the
lots to thirty-four individuals (including themselves) as “all of
the present qualified and paid up members” of the lodge, which
“is contemplated to be dissolved.” Id.
The court construed Grand Lodge’s constitution and bylaws,
which had been in effect since 1908 and which provided that
title to all property acquired by subordinate lodges was as
trustee for and for the benefit of Grand Lodge, that no property
held by a subordinate lodge could be mortgaged, sold, or
otherwise encumbered without written permission and consent
from Grand Lodge, and that when a subordinate lodge became
defunct, all of the property held in trust by the local lodge “shall
be taken over . . . and re-possessed by the District Grand Lodge”
and “shall vest absolutely in the District Grand Lodge.” Id. at
918-19. The court then looked to the statutory provisions
relating to incorporated lodges—even though Grand Lodge was
not incorporated—to determine whether Grand Lodge’s
constitution and bylaws were contrary to the public policy
stated therein and observed that the statutory language “is
clear and unequivocal and plainly states what is to become of
the property of a defunct local lodge”—i.e., it passes to and
vests in the grand body to which it was attached. Id. at 920-21
(referring to the statute “merely as a legislative statement of
the [underlying] public policy”). Accordingly, the court held that
the applicable provisions in Grand Lodge’s constitution and
bylaws were not contrary to public policy, making Grand Lodge
the lots’ owner because its constitution and bylaws “became a

154a
Progressive Union of Tex. v. Indep. Union of Colored
Laborers, 264 S.W.2d 765, 768 (Tex. Civ. App.—
Galveston 1954, writ ref’d n.r.e.);74 see generally Tex.
part of the contract entered into by the defendants when they
became members of the order and whatever rights defendants
had in the lots in controversy were merely incidental to their
membership
and
terminated
absolutely
with
such
membership.” Id. at 920. While the local lodge had held
superior equitable title based on the deeds’ language, when it
became defunct, it lost its interest in the lots. Id. at 920, 923; cf
Simpson v. Charity Benevolent Ass’n, 160 S.W.2d 109, 109-10,
112-13 (Tex. Civ. App.—Fort Worth 1942, writ ref’d w.o.m.)
(holding claimants did not show title vested in them when local
lodge purchased property three years before adoption of bylaws
upon which claimants relied and entity under which claimants
claimed title was not local lodge’s parent organization).
74

In Progressive, the court observed that it “is well settled
that when a person ceases to be a member of a voluntary
association, his interest in its funds and property ceases and
the remaining members become jointly entitled thereto,” even
when the majority secedes and organizes a new association. 264
S.W.2d at 768. In that context, 17 individual incorporators
obtained a charter for a union in 1930 and became the union’s
supreme council, which supplied a franchise to Lodge No. 1, an
unincorporated association. Id. at 766. The franchise authorized
the organization of Lodge No. 1 and gave it a constitution,
bylaws, and a password. Id. Lodge No. 1 collected dues and
assessments from its members and regularly paid dues to the
supreme council. Id. Lodge No. 1 subsequently acquired some
property and purported to adopt a constitution and bylaws
authorizing its officers to execute legal documents in connection
therewith. Id. at 766-67. By 1951, Lodge No. 1 had over 1,000
members, had paid off the indebtedness on its land, and had
around $8,500. Id. at 767. As resentment towards the supreme
council festered, some of the officers of Lodge No. 1 became
incorporators of the Progressive Union of Texas, to which the
State of Texas issued a charter. Id. Those incorporators/officers
executed a deed conveying Lodge No. l’s property to Progressive
and withdrew Lodge No. l’s funds but continued to make
reports to the supreme council as Lodge No. 1 for two or three

155a
Bus. Orgs. Code Ann. § 23.110(a) (West 2012)
(providing that when a subordinate body attached to
a grand body is wound up and terminated, “all
property and rights existing in the subordinate body
pass to and vest in the grand body to which it was
attached, subject to the payment of any debt owed by
the subordinate body”).
The business organizations code has a separate
chapter for “special-purpose” corporations. See Tex.
Bus. Orgs. Code Ann. §§ 23.001-.110 (West 2012).
This category applies to business development
corporations, which are formed “to promote, develop,
and advance the prosperity and economic welfare of
this state,” id. § 23.052, and to “Grand Lodges,” such
as the Free Masons, Knights Templar, Odd Fellows,
or “similar institution or order organized for
charitable or benevolent purposes.”75 Id. § 23.101; see
months. Id. The majority of Lodge No. l’s members ultimately
affiliated with Progressive, while 60 or 70 members of Lodge
No. 1 continued to hold meetings separately. Id. Litigation
ensued, and the remaining members of Lodge No. 1 prevailed in
a jury trial. Id. Progressive appealed, complaining that the trial
court’s judgment affected the rights of 900 persons,
representing 96% of Lodge No. l’s former membership, but to no
avail. Id. at 768. The court likewise observed that the evidence
was sufficient to support the jury’s finding that the
incorporator/officers had withdrawn as members from Lodge
No. 1 before executing the deed, leaving them without the
power to convey Lodge No. l’s property. Id.
75

In addition to the implied exclusion of other types of
associations based on the list in the “special-purpose” statute,
grand lodges can be fraternal benefit societies, subject to
additional rules applicable to their unique character. See Tex.
Ins. Code Ann. § 885.051 (West 2009) (defining “fraternal
benefit society” in part as a corporation, society, order, or
voluntary association that has a lodge system and

156a
also CKB & Assocs., Inc. v. Moore McCormack
Petroleum Inc., 734 S.W.2d 653, 655 (Tex. 1987)
(explaining the maxim expressio unius est exclusio
alterius to mean “that the naming of one thing
excludes another”); Johnson v. Second Injury Fund,
688 S.W.2d 107, 108-09 (Tex. 1985) (“The legal
maxim Expressio unius est exclusio alterius is an
accepted rule of statutory construction in this state”
through which the express mention or enumeration
“of one person, thing, consequence or class is
equivalent to an express exclusion of all others”).
While the facial simplicity of comparing grand lodges
to the types of associations here is alluring, we
cannot conclude that the statutory principles
applicable to grand lodges apply to entities that lack
grand lodges’ defining characteristics.76
representative form of government, with or without limiting its
membership to a secret fraternity); Wonderful Workers of the
World v. Winn, 31 S.W.2d 879, 881 (Tex. Civ. App.—Waco 1930,
writ dism’d w.o.j.) (“The charter, constitution, bylaws, and rules
of appellant offered in evidence show that it consists of a grand
lodge with subordinate lodges, and is a fraternal benefit society
as contemplated by articles 4820, 4821, 4822, 4823, 4824, and
4834 of the Revised Statutes.”); see also State v. The
Praetorians, 143 Tex. 565, 186 S.W.2d 973, 975-76 (1945)
(observing that respondent, a fraternal benefit association
operating under a lodge system of government, was the type of
association “dealt with in a separate chapter of the statutes . . .
and . . . regulated by laws applicable to them alone,” and
“regarded by the Legislature as being different from ordinary
insurance companies and all other organizations”).
76

For example, under section 23.104, “Subordinate Lodges,”
“[a] subordinate body is subject to the jurisdiction and control of
its respective grand body, and the warrant or charter of the
subordinate body may be revoked by the grand body.” Tex. Bus.
Orgs. Code Ann. § 23.104(c). But TEC’s constitution and canons
do not provide for the complete disassociation—voluntary or

157a
Furthermore, labor unions and lodges—and the
policies and law applicable to them—have more in
common with each other than with hierarchical
religious associations. Compare Westbrook, 231
S.W.3d at 398 (identifying distinction between
church membership and that of other voluntary
associations formed for business, social, literary, or
charitable purposes), with Comment, State Court
Holds Union Must Reinstate & Compensate Members
Wrongfully Expelled for Intra-Union Political
Activity: Madden v. Atkins, 59 Colum. L. Rev. 190,
190 (1959) (“Labor unions were early characterized
as unincorporated associations not for profit and
thus were governed by legal principles which had
been formulated for social and benevolent
organizations.” (footnotes omitted)). As one
commentator has noted,
The explicitly stated purpose of limiting the
local union’s retention of its property is to
strengthen the national labor organization and
increase its bargaining power. In the context
of church property disputes, the goal of
favoring and strengthening the religious
hierarchy is not legitimate because it would
clearly violate the establishment clause of the
[F]irst [A]mendment.

involuntary—of a diocese by somehow revoking its membership
in the hierarchical church. Indeed, part of the problem in this
case is that there was no established framework for
disaffiliation. See Hassler, 35 Pepp. L. Rev. at 455 (observing
“an integral part of the nature of the belief systems of religious
communities is the hope that their shared beliefs will make
their temporal unity lasting and secure”).

158a
Gerstenblith, 39 Am. U.L. Rev. at 570-71 (footnote
omitted) (referencing Ina Bhd. of Boilermakers v.
Local Lodge D474, 673 F.Supp. 199, 203 (W.D. Tex.
1987) (“Other courts have held that disaffiliation
does justify a trusteeship since disaffiliation would
have a detrimental effect on the collective bargaining
process.”)).
Accordingly, the law applicable to lodges, unions, or
other special-purpose corporations does not apply to
the case before us, and we overrule this portion of
the TEC parties’ issue 1(c). We will address the
remainder of their associations sub-issue in our
analysis below.
(2)

Corporations Law

The Corporation, formed under Texas law, came
into existence when its certificate of formation was
filed. See Tex. Bus. Orgs. Code Ann. § 1.002(22)
(explaining that one of the “filing” entities is a
domestic entity that is a corporation), § 1.101 (West
2012) (stating that Texas law governs the formation
and internal affairs of an entity if the entity files a
certificate of formation in accordance with the
provisions of the business organizations code),
§ 3.001(c) (West 2012) (“Formation and Existence of
Filing Entities”). A nonprofit corporation must
include in its certificate of formation whether it will
have members and the number of directors
constituting the initial board of directors and their
names and addresses, among other things. Id.
§ 3.009(1)—(3). In a religious nonprofit corporation,
as here, the board of directors may be affiliated with,
elected, and controlled by “an incorporated or
unincorporated convention, conference, or association
organized under the laws of this or another state, the

159a
membership of which is composed of representatives,
delegates, or messengers from a church or other
religious association.” Id. § 22.207(a).77 The board of
directors of such a corporation may be wholly or
partly elected by one or more associations organized
under state law if the corporation’s certificate of
formation or bylaws provide for that election and the
corporation has no members with voting rights. Id.
§ 22.207(b).
A nonprofit corporation’s board of directors is “the
group of persons vested with the management of the
affairs of the corporation, regardless of the name
used to designate the group,” and its bylaws are the
rules adopted to regulate or manage the corporation.
Id. § 22.001(1), (2) (West Supp. 2017). Unless a
director of a nonprofit corporation resigns 78 or is
removed, he or she holds office for the period
specified in the certification of formation or bylaws
and until a successor is elected, appointed, or
designated and qualified. Id. § 22.208(a)—(b) (West
2012). A director may be removed from office under
any procedure provided by the certificate of
formation or bylaws. Id. § 22.211(a) (West 2012). “In
the absence of a provision for removal in the
certificate of formation or bylaws, a director may be
removed from office, with or without cause, by the
persons entitled to elect, designate, or appoint the
77

Revised civil statute article 1396, section 2.14(B) contained
the same provisions. See Act of Apr. 23, 1959, 56th Leg., R.S.,
ch. 162, art. 2.14, 1959 Tex. Gen. Laws 286, 294.
78

Except as provided by the certificate of formation or bylaws,
a director of a corporation may resign at any time by providing
written notice to the corporation. Tex. Bus. Orgs. Code Ann.
§ 22.2111 (West 2012).

160a
director.” Id. § 22.211(b). If the director was elected
to office, his or her removal requires an affirmative
vote equal to the vote necessary to elect the director.
Id. Unless otherwise provided by the certificate of
formation or bylaws, a vacancy in the board of
directors shall be filled by the affirmative vote of the
majority of the remaining directors, regardless of
whether that majority is less than a quorum. Id.
§ 22.212(a) (West 2012).
As to the general standards applicable to the
directors of a nonprofit corporation’s board, a director
shall discharge his or her duties “in good faith, with
ordinary care, and in a manner the director
reasonably believes to be in the best interest of the
corporation,” and he or she “is not liable to the
corporation, a member, or another person for an
action taken or not taken as a director if the director
acted in compliance with” section 22.221. Id.
§ 22.221(a), (b) (West 2012). A director is not
considered to have the duties of a trustee of a trust
with respect to the corporation or with respect to
property held or administered by the corporation,
including property subject to restrictions imposed by
the donor or transferor of the property.79 Id § 22.223
(West 2012).
In construing bylaws, we apply the rules that
govern contract interpretation. In re Aguilar, 344
S.W.3d 41, 49 (Tex. App.—El Paso 2011, orig.
proceeding). We also apply the general rules of
contract construction, as expressed in Texas case
79

Depending on a nonprofit corporation’s federal tax
qualification, the nonprofit corporation may also serve as the
trustee of a trust. Tex. Bus. Orgs. Code Ann. § 2.106(a) (West
2012).

161a
law, to interpret a Texas corporation’s articles of
incorporation. Corcoran v. Atascocita Cmty.
Improvement Ass’n, No. 14-1200982-CV, 2013 WL
5888127, at *2 (Tex. App.—Houston [14th Dist.] Oct.
31, 2013, pet. denied) (mem. op.) (citing Highland
Crusader Offshore Partners, L.P. v. Andrews &
Kurth, L.L.P., 248 S.W.3d 887, 891 (Tex. App.—
Dallas 2008, no pet.)). We attempt to harmonize and
give effect to every provision, and we presume that
the parties intended to impose reasonable terms.
Aguilar, 334 S.W.3d at 50. We examine the
document as a whole in light of the circumstances
present when it was written. Corcoran, 2013 WL
5888127, at *2. If the bylaw or article is written so
that it can be given a definite interpretation, it is not
ambiguous and the court will construe it as a matter
of law. See Aguilar, 334 S.W.3d at 50.
Appellees refer us to Chen v. Tseng, No. 01-0201005-CV, 2004 WL 35989, at *6 (Tex. App.—
Houston [1st Dist.] Jan. 8, 2004, no pet.) (mem. op.),
a corporation case, to support their argument that
“[i]t is easy to separate ecclesiastical and property
disputes in most cases.” The TEC parties respond
that the First court subsequently held that case
irrelevant under the circumstances presented here,
citing Greanias v. Isaiah, No. 01-04-00786-CV, 2006
WL 1550009, at *9 (Tex. App.—Houston [1st Dist.]
June 8, 2006, no pet.) (mem. op.).
In Chen, the First court, citing our opinion in Dean,
994 S.W.2d at 395, noted—as set out above—that
civil courts have jurisdiction over matters involving
churches and their civil, contract, and property
rights as long as neutral principles of law may be
applied to decide the issues. 2004 WL 35989, at *6.

162a
The membership of a religious group had formed a
corporation to build a temple; the corporation’s
bylaws set out the requirements for an annual
meeting of the membership to elect directors, the
length of their terms, how vacancies would be filled,
and the date of the annual meeting. Id. at *1. In
conducting corporate affairs, the directors frequently
consulted with the religion’s patriarch and generally
followed his instructions. Id. at *2. After he died, a
dispute arose with regard to the composition of the
corporation’s board. Id. at *2-3.
Chen, who had served as the patriarch’s assistant
and who subsequently attempted to reorganize the
corporation outside the parameters of the
corporation’s bylaws, conceded that the trial court
applied neutral principles of law in interpreting and
applying the bylaws. Id. at *2, *6. After a four-day
bench trial, the trial court “merely applied the
bylaws to make a determination of the validity of the
selection of directors of the [c]orporation.” Id. at *3,
*6. While the corporation’s board controlled the
corporation’s membership, it did not control
membership in the religious group. Id. at *6.
In Greanias, the court considered a plea to the
jurisdiction brought in a suit to determine the
rightful board of trustees (parish council) of the
Annunciation Greek Orthodox Cathedral, organized
as a Texas nonprofit corporation, after the hierarch
of the regional division of the Greek Orthodox
Archdiocese of America removed some of the trustees
(10 of 15 total, elected to three-year, staggered terms,
from 2000-2002) from office. 2006 WL 1550009, at *1.
Prior to the trustees’ removal from the board, the

163a
Cathedral had adopted its own bylaws rather than
the Archdiocese’s uniform parish regulations. Id.
Internal strife occurred in 2001, with the
appointment by the hierarch of a priest with whom
the subsequently removed board members did not
get along. Id. at *2-3 (recounting that the board
members had the priest followed by a private
investigator and twice notified the IRS about his
personal finances). In 2002, the hierarch refused to
ratify the purported election of new board members
because the priest had refused to sign the election
results, as required by the local bylaws. Id. at *2.
The board members also ignored the hierarch’s
request that they amend the local bylaws to conform
to the archdiocese’s uniform parish regulations. Id.
at *1. In 2003, the hierarch demanded that board
members with uncompleted terms submit their
resignations. Id. at *2. When only three did so, he
rescinded his ratification of the remaining original
board members’ elections. Id. at *2-3 (quoting the
hier-arch’s statement that “[i]t does not take a rocket
scientist to see that there is no working cooperation
between the spiritual head of the parish and those
who took the oath to assist him in his work”). The
hierarch and the local priest organized an interim
council, which elected officers and assumed control of
the Cathedral—actions that ultimately led to a
lawsuit seeking a declaratory judgment that the
corporation’s bylaws were the controlling document
governing the Cathedral’s affairs. Id. at *3. The trial
court granted the hierarch’s plea to the jurisdiction.
Id. at *4.
On appeal, the board members complained that
under the local bylaws, the hierarch lacked the

164a
power to dismiss them and to create an interim
council and that only they—as the original parish
council—had the right to serve and act on the
Cathedral’s behalf. Id. The court recited the neutralprinciples template before noting that “if an issue—
even one that is claimed to be based solely on neutral
principles of law—cannot be decided without
determining prohibited religious matters, the court
must defer to the ecclesiastical authority’s resolution
of that issue.” Id. at *5. Accordingly, the court had to
examine the substance and effect of the plaintiffs
petition, without considering the technical claims
asserted, to determine the suit’s ecclesiastical
implications. Id.
The Cathedral’s bylaws set out a corporate purpose
that included maintaining, conducting, and
operating “a church in conformity with the doctrine,
canons, worship, discipline, usages and customs of
the Greek Orthodox Church,” and required that
candidates for parish council be members of the
Cathedral in good standing for at least a year before
the election. Id. at *7. To be in good standing, the
member was required to, among other things, live
“according to the faith and canons of the [Greek
Orthodox] Church.” Id. The bylaws also required
newly elected parish council members to have their
election ratified by the hierarch and to be
administered the oath of office by the parish priest.
Id. And they required the parish council to conduct
the Cathedral’s secular business “in furtherance of
the aims and purposes of the [Greek Orthodox]
Church and in accordance with . . . the constitution,
canons, discipline, and regulations of the

165a
Archdiocese,” and to refer all spiritual questions to
the hierarch. Id.
Although the board members argued that the
controversy involved a simple determination of
which bylaws applied and the application of the
nonprofit corporation act’s provisions to the
corporate organization, the First court observed that
“[t]he controversy inherently and inextricably
involves a presiding hierarch’s power to discipline a
local parish council; his power to determine whether
that council’s members have violated their oath to
obey the church’s hierarchy, discipline, and canons;
and an archdiocese’s right to insist on what by-laws
may be adopted by its subordinate parishes,” all of
which constituted ecclesiastical matters inextricably
intertwined with the board members’ request for a
declaration that the local bylaws controlled. Id. at *78. And such inextricable intertwining prevented the
court from resolving the dispute on purely neutral
principles. Id. at *8.
Specifically, in affirming the trial court’s judgment
granting the plea to the jurisdiction, the court
observed that there was a question as to whether the
local bylaws or the uniform parish regulations
controlled when the uniform regulations provided
that the mere assignment of a parish priest would
bind the parish to the regulations—”[t]hose matters
are at the heart of this dispute, and they are
inextricably intertwined with ecclesiastical issues of
church governance, polity, and doctrine that we may
not determine.” Id. The court distinguished Chen in
part based on the lack of a preserved challenge in
that case concerning which bylaws applied and what
they required, pointing out that the Chen dispute

166a
had only involved whether various elections and
appointments had been lawful under those bylaws.
Id. at *9. The court observed that Chen did not
involve a situation “in which a higher authority,
external of the local congregation, was disputing
what the document governing the local congregation
was” and that the evidence in Chen showed that
membership in the religious corporation was not coextensive with membership in the religion. Id
Chen and Greanias were both decided before the
supreme court fleshed out the neutral principles
analysis in Episcopal Diocese and Masterson but, to
some extent, they represent the range of religious
corporation cases, from the most neutral—was there
compliance with the bylaws?—to the most
inextricably intertwined—which bylaws apply and do
they involve a religious test or religious governance?
When we review the Corporation’s bylaws in our
analysis below, we will consider these questions to
determine where the case before us rests on that
spectrum. See Mouton v. Christian Faith Missionary
Baptist Church, 498 S.W.3d 143, 150 (Tex. App.—
Houston [1st Dist.] 2016, no pet.) (concluding that
Masterson did not alter the principle for which
Westbrook stands: courts may apply neutral
principles of law in cases involving religious entities
only if doing so does not implicate inherently
ecclesiastical concerns). Whether neutral principles
may be applied to a claim turns on the substance of
the issues it raises. Id.
(3)

Trust Law

In addition to the questions of association and
corporate control, at issue is whether the property
claimed by both parties is held in trust and if so, for

167a
whom. See Perfect Union Lodge No. 10, A.F. & A.M.,
of San Antonio v. Interfirst Bank of San Antonio, NA,
748 S.W.2d 218, 220 (Tex. 1988) (“It is well
established that the legal and equitable estates must
be separated; the former being vested in the trustee
and the latter in the beneficiary. This separation of
legal and equitable estates in the trust property is
the basic hallmark of the trust entity.” (citations
omitted)); see also Tex. Prop. Code Ann. § 111.004(4)
(West 2014) (stating that an express trust “means a
fiduciary relationship with respect to property which
arises as a manifestation by the settlor of an
intention to create the relationship and which
subjects the person holding title to the property to
equitable duties to deal with the property for the
benefit of another person”). When an express trust
fails, the law implies a resulting trust with the
beneficial title vested in the settlor, to prevent unjust
enrichment. Pickelner v. Adler, 229 S.W.3d 516, 52627 (Tex. App.—Houston [1st Dist.] 2007, pet.
denied).80

80

If fraud is involved, a constructive trust—an equitable
remedy implied by operation of law to prevent unjust
enrichment—may be imposed, under the theory that equitable
title should be recognized in someone other than the holder of
legal title. Pickelner, 229 S.W.3d at 527; see also Kinsel v.
Lindsey, 526 S.W.3d 411, 426 (Tex. 2017) (noting that the
specific instances in which equity may impress a constructive
trust are as numberless as the modes by which property may be
obtained through bad faith and unconscientious acts); KCM
Fin. LLC v. Bradshaw, 457 S.W.3d 70, 87 (Tex. 2015)
(observing that constructive trusts have historically been
applied to ameliorate harm arising from a wide variety of
misfeasance).

168a
(a)

Law of Situs

Texas law governs the transfer of Texas land.
Welch v. Trs. of Robert A. Welch Found., 465 S.W.2d
195, 198, 200 (Tex. Civ. App.—Houston [1st Dist.]
1971, writ ref’d n.r.e.) (op. on reh’g) (stating that
“[t]he general rule that the law of the state in which
real estate is situated governs its descent, alienation,
and transfer is not questioned,” and that “the law of
this state controls and governs the transmission by
will of real estate located therein and the
construction and effect of all instruments intended to
convey such real estate”); see Toledo Soc’y for
Crippled Children v. Hickok, 152 Tex. 578, 261
S.W.2d 692, 694, 697 (1953) (“[T]he law of the situs
governs the matter of testamentary or intestate
succession to land.”), cert. denied, 347 U.S. 936, 74
S.Ct. 631, 98 L.Ed. 1086 (1954).
(b)

Standard of Review

The construction of a trust instrument is a question
of law for the court. Eckels v. Davis, 111 S.W.3d 687,
694 (Tex. App.—Fort Worth 2003, pet. denied). We
look to the law that was in effect at the time that the
trust became effective. See Carpenter v. Carpenter,
No. 02-10-00243-CV, 2011 WL 5118802, at *3 (Tex.
App.—Fort Worth Oct. 27, 2011, pet. denied) (mem.
op.); see also Act of May 26, 1983, 68th Leg., R.S., ch.
576, § 7, 1983 Tex. Gen. Laws 3475, 3730 (stating
that the 1984 Act was intended only as a
recodification and that no substantive change was
intended); Perfect Union Lodge No. 10, 748 S.W.2d at
220 (stating that the new trust code provides that
the Texas Trust Act, which was repealed in 1984,
will govern the creation of trusts entered into while
the Act was in effect); Cutrer v. Cutrer, 162 Tex. 166,

169a
345 S.W.2d 513, 519 (1961) (“It would be quite
strange to ascertain th[e settlor’s] intention by
looking to the provisions of statutes enacted after the
trust instruments became effective or considering
changes in public policy as reflected thereby.”).
Accordingly, we review our trust statutes and case
law for the defining characteristics of trusts.
Trust statutes were “framed to supplement rather
than to supplant the desires of a trustor.” St. Marks
Episcopal Church, Mt. Pleasant, Tex. v. Lowry, 271
S.W.2d 681, 684 (Tex. Civ. App.—Fort Worth 1954,
writ ref’d n.r.e.). Thus, we look to the words of the
instrument first, seeking to uphold rather than
destroy a trust, and then turn to statutory provisions
to fill in any gaps. See id. at 684-85 (construing will
to determine deceased’s intent with regard to trust
income); see also Runyan v. Mullins, 864 S.W.2d 785,
789 (Tex. App.-Fort Worth 1993, writ denied)
(“[W]hen the terms of a trust set out a specific
method or manner in which to amend the trust, the
Texas Trust Code indicates that those terms are
controlling and must be followed.”); Commercial
Nat’l Bank in Nacogdoches v. Hayter, 473 S.W.2d
561, 565 (Tex. Civ. App.-Tyler 1971, writ ref’d n.r.e.)
(“Since the Testator did not choose to direct the
manner of apportionment, it would seem to follow
that he intended the Texas Trust Act to govern.”); see
generally Tex. Prop. Code Ann. § 111.002 (West
2014) (“This subtitle and the Texas Trust Act, as
amended . . . shall be considered one continuous
statute, and for the purposes of any statute or of any
instrument creating a trust that refers to the Texas
Trust Act, this subtitle shall be considered an
amendment to the Texas Trust Act.”), § 111.0035(b)

170a
(West Supp. 2017) (stating that the trust’s terms
prevail over statutory provisions except as to items
such as illegal purposes, exculpation for breaches of
trust, limitations periods, and a court’s jurisdiction
to take certain actions, including modifying or
terminating a trust or removing a trustee) 81 But
“under general rules of construction[,] we avoid
strictly construing an instrument’s language if it
would lead to absurd results.” Hemyari v. Stephens,
355 S.W.3d 623, 626-27 (Tex. 2011).
(c)

Trust Formation

“We look to the settlor’s intent to determine
whether a trust was created.” Hubbard v. Shankle,
138 S.W.3d 474, 484 (Tex. App.—Fort Worth 2004,
pet. denied). “The intent of the settlor must be
ascertained from the language used within the four
corners of the instrument,” and we must harmonize
all terms to properly give effect to all parts of the
trust instrument and construe it to give effect to all

81

Section 111.0035 was added in 2005 and became effective
January 1, 2006. See Act of May 12, 2005, 79th Leg., R.S., ch.
148, §§ 2, 32, 2005 Tex. Gen. Laws 287, 287-88, 296, amended
by Act of May 11, 2007, 80th Leg., R.S., ch. 451, § 2, 2007 Tex.
Gen. Laws 801, 801-02, amended by Act of May 21, 2009, 81st
Leg., R.S., ch. 414, § 2, 2009 Tex. Gen. Laws 995, 995, and
amended by Act of May 9, 2017, 85th Leg., R.S., ch. 62, § 1,
2017 Tex. Sess. Law Serv. 135, 135 (West). For trusts existing
on January 1, 2006, that were created before that date, the
2005 changes apply only to an act or omission relating to the
trust that occurred on or after January 1, 2006. Act of May 12,
2005, 79th Leg., R.S., ch. 148, § 31(b), 2005 Tex. Gen. Laws at
296.

171a
provisions so that none is rendered meaningless 82
Eckels, 111 S.W.3d at 694.
There are no particular words required to create a
trust if there exists reasonable certainty as to the
intended property, the subject to which the trust
obligation relates, and the beneficiary, Hubbard, 138
S.W.3d at 483-84, but “[t]o create a trust by a written
82

Although a settlor’s manifestation of intent to create a trust
was not an express statutory requirement until the legislature’s
replacement of the Texas Trust Act with the Texas Trust Code
in 1983 (effective January 1, 1984), see Act of May 24, 1983,
68th Leg., R.S., ch. 576, art. 2, § 2, 1983 Tex. Gen. Laws at
3654-3731 (current version at Tex. Prop. Code Ann. §§ 111.001117.012 (West 2014 & Supp. 2017)), the requirement that the
settlor clearly express the intention to create a trust had
already long been embedded in our case law. See Mills v. Gray,
147 Tex. 33, 210 S.W.2d 985, 987 (1948) (quoting 54 Am. Jur.
22, sec. 5, for the proposition that a trust “intentional in fact”—
i.e., one in which the “execution of an intention” occurs—is an
express trust); see also Omohundro v. Matthews, 161 Tex. 367,
341 S.W.2d 401, 405 (1960) (stating that an express trust arises
because of a manifestation of intention to create it); Fitz-Gerald
v. Hull, 150 Tex. 39, 237 S.W.2d 256, 260 (1951) (“[W]e believe
that the Texas cases hold that an express trust ‘can come into
existence only by the execution of an intention to create it by
the one having legal and equitable dominion over the property
made subject to it.’ ” (quoting Mills, 210 S.W.2d at 987)). The
1983 Texas Trust Code repeated the requirement that a settlor
could revoke a trust “unless it is irrevocable by the express
terms of the instrument creating it or of an instrument
modifying it.” See Act of May 24, 1983, 68th Leg., R.S., ch. 576,
art. 2, § 2, 1983 Tex. Gen. Laws at 3659 (current version at Tex.
Prop. Code Ann. § 112.051); see also Ayers v. Mitchell, 167
S.W.3d 924, 931 (Tex. App.—Texarkana 2005, no pet.)
(observing that when there is only one senior and he or she
dies, the trust becomes irrevocable but that when one of
multiple settlors dies and there are purposes of the trust yet
unfulfilled, the trust does not become irrevocable).

172a
instrument, the beneficiary, the res, and the trust
purpose must be identified.” Perfect Union Lodge No.
10, 748 S.W.2d at 220 (construing trust created by
will); Alpert v. Riley, 274 S.W.3d 277, 286 (Tex.
App.—Houston [1st Dist.] 2008, pet. denied) (op. on
reh’g) (“[T]he person intended to be the beneficiary
must be certain.”); see Tex. Prop. Code Ann.
§ 112.001(1) (stating that a trust may be created by a
property owner’s declaration that the owner holds
the property as trustee for another person). The mere
designation of a party as “trustee” does not create a
trust. Nolana Dev. Ass’n v. Corsi, 682 S.W.2d 246,
249 (Tex. 1984). If the trust’s language is
unambiguous and clearly expresses the settler’s
intent, it is unnecessary to construe the instrument
because it speaks for itself. Eckels, 111 S.W.3d at
694.
A trust in real property is enforceable only if there
is written evidence of the trust’s terms bearing the
signature of the settler or the settler’s authorized
agent. See Tex. Prop. Code Ann. § 112.004; Act of
April 15, 1943, 48th Leg., R.S., ch. 148, § 7, 1943 Tex.
Gen. Laws 232, 234, repealed by Act of May 24, 1983,
68th Leg., R.S., ch. 576, §§ 6, 8, 1983 Tex. Gen. Laws
at 3729-30 (rev. civ. stat. art. 7425b-7). And an entity
cannot unilaterally name itself as the beneficiary of a
trust involving another entity’s property. See Best
Inv. Co. v. Hernandez, 479 S.W.2d 759, 763 (Tex. Civ.
App.-Dallas 1972, writ ref’d n.r.e.) (reciting the
requirement of a written instrument for a real
property trust and that “[d]eclarations of the
purported beneficiary of the trust are not competent
to establish the trust”). So while a person can
establish a trust for his or her own benefit, he or she

173a
must own the property that is transferred in order to
create the trust. See Lipsey v. Lipsey, 983 S.W.2d
345, 351 n.7 (Tex. App.—Fort Worth 1998, no pet.)
(citing Tex. Prop. Code Ann. § 112.001); see also
Elbert v. Waples-Platter Co., 156 S.W.2d 146, 152
(Tex. Civ. App.-Fort Worth 1941, writ ref’d w.o.m.)
(citing Wise v. Haynes, 103 S.W.2d 477, 483 (Tex.
Civ. App.—Texarkana 1937, no writ), for the
proposition that the declarations of a beneficiary are
not competent to establish a trust).
(d)

Trust Statutes

In 1943, the legislature enacted the Texas Trust
Act to govern express trusts. See Act of Apr. 15,
1943, 48th Leg., R.S., ch. 148, § 48, 1943 Tex. Gen.
Laws 232, 23247 (effective as of April 19, 1943, as
revised civil statute articles 7425b-1-b-47); see also
Tex. Prop. Code Ann. § 111.003 (stating that trust
statutes do not govern resulting, constructive, or
business trusts or security instruments). Under the
1943 Act, a trust “in relation to or consisting of real
property” was invalid unless created, established, or
declared by a written instrument “subscribed by the
trustor or by his agent” or by any other instrument
under which the trustee claimed the affected estate.
Act of Apr. 15, 1943, 48th Leg., ch. 148, § 7, 1943
Tex. Gen. Laws at 234. And “[e]very trust shall be
revocable by the trustor during his lifetime, unless
expressly made irrevocable by the terms of the
instrument creating the same or by a supplement or
amendment thereto.” Id. § 41, 1943 Tex. Gen. Laws
at 246.83
83

Prior to April 19, 1943, trusts in Texas were considered
irrevocable unless an expressed power of revocation was

174a
The 1945 amendments to the Texas Trust Act did
not affect the above provisions. See generally Act of
Apr. 5, 1945, 49th Leg., R.S., ch. 77, 1945 Tex. Gen.
Laws 109, 109-14. Likewise, although the Dennis
Canon-one of the trust provisions to which we are
referred-was added by TEC to its canons in
September 1979, the above provisions were not
substantially modified during the intervening
decades. See Tex. Rev. Civ. Stat. Arts. 7425b-2, b-7,
b-41, Texas Historical Statutes Project, West’s Texas
Statutes
1979
Supp.
vol.
2,
https://www.s11.texas.gov/assets/pdf/
historicalstatutes/1979-2/1979-2supplement-to1974-weststexas-statutes-and-codes.pdf; id., West’s Texas
Statutes 1974, vol. 5, https://www.sll.texas.gov/
assets/pdf/historical-statutes/1974-5/1974-5
weststexas-statutes-and-codes.pdf.
(e)

Trespass to Try Title and Adverse
Possession

The TEC parties brought a trespass-to-try-title
claim, while Appellees argued, to the contrary, that
they adversely possessed any interest that might
otherwise exist for the TEC parties.
An action of trespass to try title may be brought on
an equitable title. Longoria v. Lasater, 292 S.W.3d
156, 165 (Tex. App.—San Antonio 2009, pet. denied)
(op. on reh’g) (“A suit to resolve a dispute over title to
land is, in effect, a trespass to try title action
regardless of the form the action takes and whether
legal or equitable relief is sought.”). An owner of a
reserved in the trust’s terms. See Citizens Nat’l Bank of
Breckenridge v. Allen, 575 S.W.2d 654, 657 (Tex. Civ. App.—
Eastland 1978, writ ref d n.r.e.).

175a
superior equitable title may recover in a trespass-totry-title action if the record shows the equitable title
is superior to the defendant’s bare legal title. Id.
(citing Binford v. Snyder, 144 Tex. 134, 189 S.W.2d
471, 474 (1945)). And, of course, here we must look to
any subsequent arrangements-such as the 1984
consent judgment-to determine whether any
equitable interests were modified. See, e.g., Allstate
Ins. Co. v. Clarke, 471 S.W.2d 901, 907-08 (Tex. Civ.
App.—Houston [1st Dist.] 1971, writ ref’d n.r.e.)
(considering whether earlier trust agreement was
superseded by a subsequent one based on the clear
intention of the parties).
The plaintiff in a trespass-to-try-title suit must
recover on the strength of his own title and not on
the weakness of the defendant’s title. Bellaire
Kirkpatrick Joint Venture v. Loots, 826 S.W.2d 205,
209 (Tex. App.—Fort Worth 1992, writ denied)
(citing Adams v. Rowles, 149 Tex. 52, 228 S.W.2d
849, 853 (1950)). When title is controverted, the
defendant admits possession of the subject property
but claims better title, and the burden of proof is on
the plaintiff to establish a superior title in himself by
an affirmative showing. Id.
When a trustee’s legal title is adversely possessed,
the equitable interest goes with it. See Capps v.
Gibbs, No. 10-1200294-CV, 2013 WL 1701772, at *7
(Tex. App.—Waco Apr. 18, 2013, pet. denied) (mem.
op.) (concluding legal and equitable title obtained by
adverse possession); Broussard Tr. v. Perryman, 134
S.W.2d 308, 313 (Tex. Civ. App.—Beaumont 1939,
writ ref’d) (stating that “when the bar of the statute
is complete against the legal title vested in the

176a
trustee, it applies also to the equitable title of the
cestui que trust”).
The applicable adverse possession standard
depends on whether the person claiming to have
adversely possessed the interest is a stranger or a
cotenant. See Rife v. Kerr, 513 S.W.3d 601, 616 (Tex.
App.—San Antonio 2016, pet. denied). For example,
“[c]otenants must surmount a more stringent
requirement because acts of ownership ‘which, if
done by a stranger, would per se be a disseizin,’ are
not necessarily such when cotenants share an
undivided interest.” BP Am. Prod. Co. v. Marshall,
342 S.W.3d 59, 70 (Tex. 2011) (quoting Todd v.
Bruner, 365 S.W.2d 155, 160 (Tex. 1963)). Under
such circumstances, the proponent must prove
ouster—unequivocal, unmistakable, and hostile acts
the possessor took to disseize the other cotenants. Id.
2.

Ownership of Equitable Title

In response to the TEC parties’ issues, Appellees
assert that they hold both legal and beneficial title
and are the Corporation’s and EDFW’s rightful
officers. They argue that the TEC parties’ case is
based on revoked trusts, superseded deeds, repealed
bylaws, and oral statements and that the TEC
parties’ “scattershot defenses don’t annul neutral
principles” because this is not an ecclesiastical
dispute. They urge that associations are governed by
neutral principles and that a Fort Worth case
(Shellberg) from almost 50 years ago is no basis for
defying the supreme court’s mandate.
As previously stated, no one disputes that the
Corporation holds legal title to the various items of
property at issue. See Houston First Am. Say. v.
Musick, 650 S.W.2d 764, 767 (Tex. 1983) (“Assertions

177a
of fact, not pled in the alternative, in the live
pleadings of a party are regarded as formal judicial
admissions.”). The crux of the parties’ dispute,
however, is ownership of equitable title. We therefore
turn, as directed by the supreme court, to the
application of our state law on trusts, corporations,
and associations to the deeds and the various
entities’ formative documents, to determine the
property ownership issue before us.
a.

Trust Law Application

The TEC parties argue that the Dennis Canon sets
forth an enforceable, irrevocable trust for TEC under
Texas trust law, as well as under Jones v. Wolf
irrespective of state law requirements, and under
this court’s Shellberg opinion as a contractual trust.
They further argue that even if a trust was not
established for TEC in the Dennis Canon, the deeds
of various properties set forth trusts for EDFW or
the congregations.
(1)

Dennis Canon

Although the TEC parties “contend that the Dennis
Canon is enforceable under Texas trust law,” we
disagree.
The Dennis Canon was adopted in 1979 and
purports to impose a trust for TEC and TEC’s diocese
on parish, mission, and congregation real and
personal property, stating,
All real and personal property held by or for
the benefit of any Parish, Mission or
Congregation is held in trust for this Church
and the Diocese thereof in which such Parish,
Mission o[r] Congregation is located. The
existence of this trust, however, shall in no

178a
way limit the power and authority of the
Parish, Mission or Congregation otherwise
existing over such property so long as the
particular Parish, Mission or Congregation
remains a part of, and subject to, this Church
and its Constitution and Canons.
The section that follows essentially provides that no
other action need be taken for the trust to be
enforceable but that dioceses can take additional
action, stating,
The several Dioceses may, at their election,
further confirm the trust declared under the
foregoing Section 4 by appropriate action, but
no such action shall be necessary for the
existence and validity of the trust.
But Texas law requires a writing signed by the
settlor or the settlor’s agent to create a trust with
regard to real property. See Tex. Prop. Code Ann.
§ 112.004; Act of Apr. 15, 1943, 48th Leg., R.S., ch.
148, § 7, 1943 Tex. Gen. Laws at 234, repealed by Act
of May 24, 1983, 68th Leg., R.S., ch. 576, §§ 6, 8,
1983 Tex. Gen. Laws at 3729-30 (rev. civ. stat. art.
7425b7). As stated above, a proposed beneficiary
cannot unilaterally name itself as the beneficiary of a
trust involving another entity’s property. See Lipsey,
983 S.W.2d at 351 n.7; Best Inv. Co., 479 S.W.2d at
763; see also Tex. Prop. Code Ann. § 111.004(14)
(defining “settlor” as a person who creates a trust or
contributes property to a trustee of a trust; “settlor”
means the same as “grantor” and “trustor”),
§ 112.001 (defining the methods of creating a trust:
through a property owner’s declaration, intervivos
transfer, or testamentary transfer, through the
power of appointment to another person as trustee

179a
for the donee of the power or for a third person, or
through a promise to another person whose rights
under the promise are to be held in trust for a third
person), § 112.005 (“A trust cannot be created unless
there is trust property.”); McConnell & Goodrich, 58
Ariz. L. Rev. at 322, 335 (reasoning that
“[d]enominations cannot create a trust in favor of
themselves in property they did not previously own”
and that “[c]hurches can adopt any internal rules
they wish, but those rules do not have legal force
unless they are embodied in the forms required by
state law”). Because under Texas law, an entity that
does not own the property to be held in trust cannot
establish a trust for itself simply by decreeing that it
is the beneficiary of a trust,84 the Dennis Canon, by
itself, did not establish a trust under Texas law,85
and we overrule this portion of the TEC parties’
argument.
(2)

Application of Jones v. Wolf

The TEC parties also argue that regardless of the
content of our state law requirements, a trust is
enforceable by virtue of the Dennis Canon,
contending that Jones requires the enforcement of
84

See also Gerstenblith, 39 Am. U. L. Rev. at 566 (explaining
that implied trusts serve to obfuscate land titles and may
discourage productive use of the land because “any investment
in the property would be lost if the local entity chose to
disaffiliate”).
85

In Masterson, the supreme court did not determine whether
the Dennis Canon imposed a trust but stated that even
assuming that it had created one, its terms did not make it
expressly irrevocable. 422 S.W.3d at 613. Based on our
resolution here, we do not reach the question of irrevocability
with regard to the Dennis Canon.

180a
express trusts recited in governing church
documents irrespective of state law. But in Jones,
the Court merely referenced the need for “some
legally cognizable form.” 443 U.S. at 603-04, 606, 99
S.Ct. at 302526, 3027. And our supreme court has
already stated, “We do not read Jones as purporting
to establish substantive property and trust law that
state courts must apply to church property disputes.”
Masterson, 422 S.W.3d at 612. That is, in Texas, the
required legally cognizable form is the one provided
by our statutes and case law. 86 We overrule this

86
The Supreme Court of Tennessee recently reviewed the
two schools of thought that interpret what the Court meant by
its “legally cognizable form” phraseology, characterizing them
as the “Strict Neutral-Principles Approach” and the “Hybrid
Neutral-Principles Approach.” See Church of God in Christ, Inc.
v. L.M. Haley Ministries, Inc., 531 S.W.3d 146, 168 (Tenn. 2017)
(observing that most neutral-principles-related litigation has
arisen. “where a hierarchical religious organization includes a
provision in its constitution and/or other governing documents
providing that local church property is held in trust for the
hierarchical organization and a local church fails or declines to
include the trust provision in deeds or other documents of
conveyance”). The Tennessee court described the strict
approach as only giving effect to provisions in church
constitutions and governing documents of hierarchical religious
organizations “if the provisions appear in civil legal documents
or satisfy the civil law requirements and formalities for
imposition of a trust.” Id. (citing McConnell & Goodrich, 58
Ariz. L. Rev. at 324-25, defining strict approach’s construction
of “legally cognizable form” as complying with the formalities of
property, trust, or contract law). The court described the hybrid
approach—which the majority of states addressing the issue
have followed—as deferring to and enforcing trust language
contained in the constitutions and governing documents even if
the language would not satisfy the civil law formalities
normally required to create a trust but recognized that Texas

181a
portion of the TEC parties’ argument. Having
concluded that a trust—revocable or not—was not
imposed for TEC through the Dennis Canon, we do
not reach the TEC parties’ Shellberg argument. See
Tex. R. App. P. 47.1
(3)

Other Trusts

The TEC parties complain about the misallocation
of 55 properties that contain what they describe as
express trusts in favor of TEC, EDFW, and the
congregations, “with similar language” to the
following set out in their brief:
This Conveyance, however, is in trust for the
use and benefit of the Protestant Episcopal
Church, within the territorial limits of what is
now known as the said Diocese of Dallas, in
the State of Texas. . . .
But in their brief, they point to only one deed of
dubious legibility appearing in the record to support
this assertion.87 Additionally, the TEC parties fail to

has adopted the strict approach. Id. (citing Masterson, 422
S.W.3d at 611-12).
87

In their brief, the TEC parties do refer us to ‘‘Table E—‘In
Trust for The Episcopal Church’ ’’ appearing on 23 pages in
volume 30 of the clerk’s record. The footnote to Table E states
that it covers ‘‘Episcopal Property held in trust for The
Episcopal Church, held in trust for The Episcopal Church and
its Constituent Diocese, held in trust for a Congregation, and/or
held outright by a Congregation or a related entity but is not
limited to the properties listed in Table E.’’ While Table E
contains references to the Bates numbers of the joint appendix
created by the parties during the summary judgment phase in
which the deeds themselves can be found, it does not recite the
trust language at issue for any of the deeds listed therein.
Rather, it contains the legal description of each property.

182a
inform us as to the degree of similarity they contend
this one deed bears to the 54 others. Therefore, in
our analysis and application of the law, we will
consider only the language of (1) this deed, as
discussed by the TEC parties in their brief, which is
to one of the properties claimed by All Saints; (2) the
other All Saints deed, also discussed by the TEC
parties in their brief; and (3) any other documents
related to these two deeds.
(a)

Deeds, Judgment, and Trust Language
(i)

1947 Warranty Deed

The snippet of language that the TEC parties claim
is similar to 54 other properties is contained in a
1947 warranty deed transferring “[a]ll of Block 14,
Appellees argue in this appeal that 35 deeds that ‘‘placed title
in the bishop of Dallas ‘for the use and benefit of the Protestant
Episcopal Church, within the territorial limits of what is now
known as the said Diocese of Dallas, in the State of Texas,’ ’’
imposed a trust for the Diocese of Dallas, not TEC, and that
EDFW and its congregations ‘‘inherited all those rights upon
division’’ in the 1984 judgment. They refer us to a chart in one
of the supplemental volumes of the clerk’s record that identifies
various deeds in the joint appendix. The chart contains
property descriptions, identifies the grantee of each deed, and
contains Appellees’ opinion of whether a trust is stated in each
deed, along with their statement of which church uses the
property. We decline the parties’ invitation to parse through
this voluminous record on their behalf to confirm that the
conveyance instruments for 35–55 properties contain ‘‘similar
language’’ and do or do not create trusts. See Rogers v. Ricane
Enters., Inc., 772 S.W.2d 76, 81 (Tex. 1989) (‘‘[A] general
reference to a voluminous record which does not direct the trial
court and parties to the evidence on which the movant relies is
insufficient.’’). In light of our disposition below, the parties will
have the opportunity to sort out and present these arguments
to the trial court on remand.

183a
Chamberlain Arlington Heights”88 from John P. King
and J. Roby Penn to Charles Avery Mason, as Bishop
of the Protestant Episcopal Church for the Diocese of
Dallas, his successors, and assigns, “for and in
consideration of the sum of” $5,000. This deed states,
in pertinent part,
TO HAVE AND TO HOLD, all and singular
the above described premises until the said
CHARLES AVERY MASON, as aforesaid, his
successors in said office of Bishop aforesaid
and his and their assigns forever, upon
condition and in trust, however, for the
purposes declared and set forth.
....
It being expressly agreed between the grantors
aforesaid and the grantee aforesaid, and
binding upon his successors in office and
assigns, that the above described land shall be
used only for the building site of a church
and/or for the erection of buildings
appertaining to a church, subject however to
the following conditions. . . .
....
This Conveyance, however, is in trust for the
use and benefit of the Protestant Episcopal
Church, within the territorial limits of what[]
is now known as the Diocese of Dallas, in the
State of Texas, and for this purpose the said
CHARLES AVERY MASON, as aforesaid, and
his successors in office, shall hold, use,
88

This corresponds to the All Saints property at 5001
Crestline (sanctuary).

184a
improve, manage and control the above
described property in such manner as to him or
them, may seem best for the interest of said
Church within said Diocese. And the said
CHARLES AVERY MASON, as aforesaid, and
his successors in office, shall have, and by
these presents, do have, the right, power, and
authority, whenever it may to him or them
seem best for the interest of said Church
within said Diocese so to do, lease, mortgage,
sell and otherwise encumber or dispose of the
aforesaid premises, upon such terms, for such
prices and in such manner as to him or them
may seem best. And for this purpose he or they
may make, execute and deliver all such leases,
mortgages, deeds of trust, deeds and other
written instruments, as the circumstances of
the case may render necessary and expedient.
But neither the said CHARLES AVERY
MASON nor any one else shall ever have any
right, power or authority during the
continuance of this trust to in anywise
encumber or create a lien upon or any liability
against the above described premises except
by an instrument in writing expressly giving a
lien upon said premises, and duly signed and
acknowledged by the said CHARLES AVERY
MASON, as aforesaid, or by some one of his
successors in said office of Bishop.89
And in the event of death, resignation,
suspension, deposition or removal from office
89

See, e.g., McConnell & Goodrich, 58 Ariz. L. Rev. at 342–43
(‘‘Placing title in a denominational official ensures that the
property will always remain within the denomination.’’).

185a
for any cause of any Bishop in whom may at
the time of such death, resignation, suspension,
deposition or other removal from office, be
vested the title to the above described premises,
as trustee under this instrument, then, and in
that event, the senior Bishop of the Protestant
Episcopal Church in the United States of
America shall be held and deemed to be, for the
purpose of sustaining and p[e]rp[e]tuating this
trust, the successor in office of said Bishop,
until vacancy shall have been regularly filled;
provided, however, that said senior Bishop of
the Protestant Episcopal Church in the United
States of America shall have no power while
thus temporarily holding the title as trustee to
the above described property to sell, mortgage,
lease or in any manner encumber or dispose of
said property. [Emphasis added.]
(ii)

1950 Warranty Deed

The record also contains the June 1950 deed for
5003 Dexter, the other All Saints property, which
Robert McCart Jr., his wife Alice W. McCart, Fannie
Belle Hackney, her husband T.E.D. Hackney, and
John Lee McCart conveyed to C. Avery Mason,
“Bishop of the Protestant Episcopal Church, Diocese
of Dallas, in the State of Texas, and his successors in
office” for $4,000. It contains no trust language.
(iii)

1984 Judgment

The 1984 judgment transferred legal title to both
properties to the Corporation. In the 1984 judgment,
the trial court stated,
[L]egal title to the following real and personal
property shall be as follows . .. [w]ith respect

186a
to the Diocese of Fort Worth, title to the
following assets and property shall be vested
by this declaratory judgment in Corporation
. . . [a]ll real property which as of December
31, 1982, stands in the name of Episcopal
Diocese of Dallas or in the name of any of its
Bishops as Bishop of Dallas, including Bishop
Charles Avery Mason . . . which is physically
located within the Count[y] of . . . Tarrant . . .
described on Exhibit B attached hereto and
incorporated herein by reference. . . .
The trial court further stated, “Nothing in this
judgment shall be deemed to deal with, or otherwise
affect, properties, real or personal, disposed of under
testamentary or inter vivos gift executed or effective
prior to December 31, 1982, which bequest is to the
Diocese of Dallas or the Bishop thereof.”
(iv)

EDFW’s Constitutional and Canonical
Trust Provisions

EDFW’s constitution states that title to all real
property acquired “for the use of the Church in this
Diocese,” including the real property of all parishes,
missions, and diocesan institutions, shall be held
“subject to control of the Church in the90 Episcopal
Diocese of Fort Worth acting by and through a
corporation known as ‘Corporation of the Episcopal
Diocese of Fort Worth.’ ” The Corporation is to hold
real property acquired for the use of a particular
parish or mission in trust for that parish or mission’s
use and benefit, but if that mission or parish were to
90

By 2006, the word ‘‘the’’ was capitalized, reciting that the
property would be held ‘‘subject to control of the Church in The
Episcopal Diocese of Fort Worth.’’

187a
dissolve, the property would revert
Corporation for EDFW’s use and benefit.

to

the

EDFW’s canon 18.2 (previously canon 12.4), revised
in 1989, provides that real property acquired by the
Corporation for the use of a particular parish,
mission, or diocesan school would be held in trust for
the use and benefit of such entities and that it was
“immaterial whether said acquisition is by
conveyance to the Corporation by a Parish, Mission
or Diocesan School now holding title, by the Bishop
now holding title as a corporate sole, by a declaratory
judgment upon division from the Diocese of Dallas,
or by subsequent conveyance to the Corporation, so
long as such property was initially acquired by a
Parish, Mission or Diocesan School by purchase, gift
or devise to it, as a Parish, Mission or Diocesan
School.” Canon 18.4, added by 1989, states that all
other property of the Corporation held for EDFW is
held for exempt religious purposes—as defined by
the Internal Revenue Code and determined by
EDFW’s convention “and the appropriate officers
elected by it.” 91
Since EDFW’s inception, under EDFW’s canons, a
parish can organize a corporation “to use in
connection with the administration of its affairs,” but
it is “merely an adjunct or instrumentality,” because
the parish itself, “being the body in union with
Convention, shall not be incorporated.” The adjunct
corporation “shall not hold title to real estate
acquired for the use of the Church in the Diocese,
which title must be vested and dealt with in
91

Pursuant to the 1989 revisions, section 18.4 also expressly
disclaims any beneficial interest for TEC.

188a
accordance with
constitution.
(v)

the

provisions”

in

EDFW’s

All Saints Episcopal Church, Inc.

All Saints Episcopal Church incorporated an entity,
and in its 1991 bylaws, it added a clause as follows
with regard to property:
All real and personal property held by or for
the benefit of All Saints’ Episcopal Church is
held in trust for The Episcopal Church and the
Diocese thereof in which the Church is located.
The existence of this trust, however, shall in
no way limit the power and authority of All
Saints’ Episcopal Church otherwise existing
over such property so long as the Church
remains a part of, and subject to The
Episcopal
Church
General
Convention
Constitution and Canons. Title I, Canon 7,
Section 4 [the Dennis Canon] of the General
Convention Canons is hereby ratified and
confirmed in its entirety. [Emphasis added.]
These amendments were signed by All Saints’s clerk
and rector. All Saints subsequently deleted the last
sentence, “Title I, Canon 7, Section 4 of the General
Convention Canons is hereby ratified and confirmed
in its entirety,” in 2001, but the remainder went
unchanged.
(b)
(i)

Identification of Beneficiaries

Other Summary Judgment Evidence

We have previously set out the history of TEC’s
presence in Texas, beginning in 1849 with the
formation of the Diocese of Dallas, which gave birth
to EDFW, which in 1982 received approval from TEC
and acceded to TEC’s constitution and canons.

189a
(A)

TEC’s Constitution and Canons

There was no substantive change in TEC’s relevant
constitutional and canonical provisions between 1979
and 2006. The preamble to TEC’s constitution states
that the association’s name is the Protestant
Episcopal Church in the United States of America,
“otherwise known as The Episcopal Church (which
name is hereby recognized as also designating the
Church).” The constitution also sets out the method
that EDFW followed in becoming a TEC diocese.
Other provisions explain how two dioceses can be
reunited into one (essentially, the dissolution of one
of two dioceses into its originating diocese) and that
for missionary dioceses outside the territory of the
United States of America, TEC’s presiding bishop
can consult “with the appropriate authorities in the
Anglican Communion” and “take such action as
needed for such Diocese to become a constituent part
of another Province or Regional Council in
communion with” TEC. There is no corresponding
provision in TEC’s constitution and canons for a
diocese—missionary or not—within the United
States to separate from TEC.
Although the Dennis Canon did not set forth a
valid express trust under Texas law, its language
provides some indication of how TEC views Church
property: parish property is held for “this Church
and the Diocese thereof in which such Parish,
Mission or Congregation is located.” Likewise, TEC’s
canons provide that “[n]o Church or Chapel shall be
consecrated until the Bishop shall have been
sufficiently satisfied that the building and the
ground on which it is erected are secured for
ownership and use by a Parish, Mission,

190a
Congregation, or Institution affiliated with this
Church and subject to its Constitution and Canons.”
(B)
(I)

EDFW’s Constitution and Canons
EDFW’s Geographic Description

EDFW’s constitution and canons, as adopted by
conventions from 1982 to 2006, included the
following geographic description of EDFW:
The Diocese of Fort Worth shall consist of
those Clergy and Laity of the Episcopal
Church in the United States of America
resident in that portion of the State of Texas
including the twenty-three (23) Counties of
Archer, Bosque, Brown, Clay, Comanche,
Cooke, Dallas (only that portion of the County
that includes the City of Grand Prairie),
Eastland, Erath, Hamilton, Hill, Hood, Jack,
Johnson, Mills, Montague, Palo Pinto, Parker,
Somervell, Stephens, Tarrant, Wichita, Wise,
and Young.
This provision was omitted in the 2008 constitution
and canons.
Pursuant to the 1982 constitution, every parish and
mission in EDFW
in existence at the time of the organization of
the Diocese and every Parish and Mission
which shall have been created and admitted in
accordance with the Constitution and Canons
of this Diocese, shall be deemed to be in union
with and entitled to representation in the
Convention of the Diocese, unless deprived of
such right either through suspension or
dissolution. [Emphasis added.]

191a
By 2006, the provision about existence at the time of
EDFW’s organization had been deleted and was
modified to read, “Every Parish and Mission which
shall have been created or admitted in accordance
with the Constitution and Canons of this Diocese.
. . .” [Emphasis added.] There was no substantive
change between 2006 and 2008 as to the definition of
who would be considered “in union with” EDFW.
(II)

1982

On November 13, 1982, “pursuant to the approval
of the 67th General Convention of The Episcopal
Church,” EDFW acceded to TEC’s constitution and
canons and adopted its own constitution and canons.
The preamble of that constitution states, “We, the
Clergy and Laity of the Episcopal Church, resident
in that portion of the State of Texas, constituting
what is known as the Episcopal Diocese of Fort
Worth, do hereby ordain and establish the following
constitution[.]” The original governing EDFW
documents consisted of 18 articles and 39 canons.
They set out recognition of the authority of TEC’s
General Convention by “The Church in this Diocese,”
and set out governing procedures for EDFW’s
conventions, its annual meeting, voting, 92 and
amending the constitution.93 Canons that were “not
92

The constitution provided for majority rule “[u]nless a vote
by orders is determined or required or otherwise provided by
the Constitution or Canons” or where the constitution or canons
require a two-thirds vote.
93

The constitution provided for majority vote in the first year
of the constitutional amendment’s consideration by the annual
convention, and then a concurrent majority of the vote of both
orders in the second year of its consideration by the annual
convention.

192a
inconsistent” with the diocesan convention or with
TEC’s constitution and canons could be adopted,
altered, amended, or repealed at any annual
convention by a majority vote, subject to notice
requirements. We have already set out above the
constitutional and canonical provisions dealing with
real property.
(III) 2006
By 2006, over two decades later, EDFW’s
constitution increased from 18 to 19 articles, and its
number of canons increased to 42. There was no
change to the preamble, but the first article,
“Authority of General Convention,” was modified to
state,
The Church in this Diocese accedes to the
Constitution and Canons of The Episcopal
Church, and recognizes the authority of the
General Convention of said Church provided
that no action of General Convention which is
contrary to Holy Scripture and the Apostolic
Teaching of the Church shall be of any force or
effect in this Diocese. [Emphasis added.]
Additionally, the article on canons saw a rephrasing
that allowed greater latitude in EDFW’s discretion,
from the earlier, “Canons not inconsistent with this
Constitution, or the Constitution and Canons of the
General Convention, may be adopted, altered,
amended, or repealed at any Annual Convention by a
majority vote of the Convention,” to “Canons
consistent with this Constitution, and the
Constitution and Canons of the Episcopal Church,
may be adopted, altered, amended, or repealed at
any Annual Convention by a majority vote of the
Convention.” [Emphasis added.]

193a
(IV)

2008

In 2008, EDFW’s constitution retained 19 articles
but the number of canons increased from 42 to 44,
and the diocese’s geographic description was deleted.
The constitution and canons were significantly
modified, beginning with the preamble, from the
original, “We, the Clergy and Laity of The Episcopal
Church, resident in that portion of the State of Texas,
constituting what is known as The Episcopal Diocese
of Fort Worth,” from 1982-2006, to “We, the Clergy
and Laity of The Episcopal Diocese of Fort Worth.”
[Emphasis added.]
Article 1, previously “Authority of General
Convention,” was replaced with “Anglican Identity,”
stating,
The Episcopal Diocese of Fort Worth is a
constituent
member
of
the
Anglican
Communion, a Fellowship within the Only
Holy
Catholic
and
Apostolic
Church,
consisting of those duly constituted Dioceses,
Provinces
and
regional
Churches
in
communion with the See of Canterbury,
upholding and propagating the historic Faith
and Order as set forth in the Old and New
Testaments and expressed in the Book of
Common Prayer. [Emphasis added.]
Article 18, “Canons,” was amended to delete
reference to the Constitution and Canons of TEC’s
General Convention.94 Most of EDFW’s canons that
94

The new provision stated, “Canons consistent with this
Constitution may be adopted, altered, amended, or repealed at
any Annual Convention of the Episcopal Diocese of Fort Worth
by a majority vote of the Convention.”

194a
contained references to “The Episcopal Church in the
United States of America” were amended to remove
those references,95 although the express denial of a
beneficial interest in TEC in property held by the
Corporation in canon 18 was retained. 96 A new
constitutional article was added to provide for
95

For example, whereas the 2006 canons on missions and
new parishes required in the application to join EDFW that
aspirant members of missions or parishes “promise to abide by
and to conform to the Constitution and Canons of the General
Convention, and of the Diocese of Fort Worth,” the 2008 canons
required that they “promise to abide by and to conform to the
Constitution and Canons of the Episcopal Diocese of Fort
Worth.” The annual parochial report that every parish and
mission was required to prepare “upon the form provided by
The Executive Council of The Episcopal Church in the United
States of America” was changed in the 2008 amendments to
“upon the form provided by The Episcopal Diocese of Fort
Worth.” The 2006 canons provided that books and accounts in
every congregation in EDFW “shall conform to THE MANUAL
OF BUSINESS METHODS IN CHURCH AFFAIRS of The
Episcopal Church in the United States of America.” This
requirement was changed in 2008 to require conformance “to
generally accepted accounting principles.”
96

Article 17, “Election of Bishops and Calling of an Assistant
Bishop,” in an apparent oversight, continued to provide that the
bishop “may call an Assistant Bishop in accordance with the
Constitution and Canons of the Episcopal Church.” [Emphasis
added.] The standing rules of procedure of the annual
convention with regard to appointments, in another apparent
oversight, continued to provide that
The Bishop shall have the authority to appoint all
Board members, Trustees, Committee members, and fill
other positions which are not required to be elected or
otherwise selected by the Constitution or Canons of the
Episcopal Church in the United States of America, the
Constitution or Canons of the Diocese of Fort Worth or
any other lawful authority. [Emphasis added.]

195a
deputies or delegates to “extra-diocesan conventions
or synods.” Canon 32, previously entitled
“Controversy between Rector and Vestry,” was
amended to cover controversies “between a Parish
and the Diocese.”
The record reflects that on three occasions during
2008—January 9, February 12, and September 8—
Bishop Iker and the standing committee presented
reports to EDFW on the constitutional and canonical
implications and means of becoming a member
diocese of the Anglican Province of the Southern
Cone. The third report recommended that EDFW
affiliate with the Anglican Province of the Southern
Cone as a member diocese “until such time as an
orthodox Province of the Anglican Communion can
be established in North America.” Bishop Iker
likewise issued a statement entitled, “10 Reasons
Why Now Is the Time to Realign,” which included
observing that “[a]t this time there is nothing in the
Constitution or Canons of TEC that prevents a
Diocese from leaving . . . [s]o we have this window of
opportunity to do what we need to do” before TEC’s
General Convention could adopt amendments
making it more difficult to separate.
(ii)

Associations Law versus Identity
(A)

The Parties’ Arguments

The TEC parties apply a macro-level approach to
the associative relationship between TEC and EDFW
by arguing that the First Amendment forbids us
from overriding TEC on the question of who can
represent an Episcopal diocese or congregation and
that under associations law, only the TEC parties
are entitled to control EDFW. That is, the TEC

196a
parties view Appellees’ claimed disaffiliation as void
under the larger association’s rules and the General
Convention’s determination that the alleged
disaffiliation was a nullity. They also argue that the
All Saints properties are held in trust for TEC and
for the All Saints Church affiliated with TEC.
Appellees respond that this is not an ecclesiastical
dispute and claim that “[s]ince a dispute about the
officers of a Texas corporation is not ecclesiastical,
then a dispute about the officers of a Texas
unincorporated association isn’t either.” They also
argue that the highest authority on property issues—
within or outside of TEC—is the local bishop, not
TEC’s administrative officers, reciting terminology
from TEC’s Canons, Title IV, “Ecclesiastical
Discipline,” which defines “ecclesiastical authority”
as the diocese’s bishop or standing committee “or
such other ecclesiastical authority established by the
Constitution and Canons of the Diocese.”
Appellees further argue that “[t]he founders of TEC
had made similar solemn engagements to the Church
of England—but they certainly didn’t forfeit church
property in America when those churches
separated.97 And they argue, “[N]one of the property
documents incorporate religious tests, and neither
side has asked the courts to decide who can lead
worship or attend church conventions,” nor have the
courts been asked “to decide who can lead any

97

Appellees conveniently ignore the revolutionary reason for
the separation and the geopolitical and logistical complexity in
the 1700s that recuperating such property would have entailed.

197a
religious body, or whether dioceses can withdraw
from TEC.”98
Appellees point out that Texas law dictates how the
association’s and corporation’s officers can be elected
or replaced, and Texas law governs the Corporation’s
and EDFW’s amendments to drop any reference to
TEC. Appellees rely on the Corporation’s holding
legal title and their defendant-congregations holding
beneficial title based on their union with the
diocesan convention. They argue: (1) EDFW’s
constitution and canons define missions and parishes
as unincorporated associations in union with the
diocesan convention; those not “in union” are not
entities for which the Corporation holds property and
those “in union” are those who send delegates to the
convention’s annual meeting; (2) Texas law makes
EDFW’s constitution and bylaws controlling, and the
annual convention elected Bishop Iker and opted to
disaffiliate; and (3) TEC’s “newly formed” diocese did
not inherit the property of the existing diocese
simply by adopting the same name.99
98

As noted by the court in Diocese of San Joaquin, we do not
have to decide whether a diocese can leave TEC to resolve this
property-based dispute. See 202 Cal.Rptr.3d at 63-64. And per
Westbrook, we cannot decide whether a diocese can leave TEC.
See 231 S.W.3d at 403 (referring to the spirit of freedom for
religious organizations “even if that freedom comes at the
expense of other interests of high social importance”).
99

Perhaps learning from other dioceses’ experience, one of
Appellees’ theories appears to be “Keep the name, keep the
stuff.” See Diocese of San Joaquin, 202 Cal.Rptr.3d at 66-67
(holding attempts to transfer property from The Protestant
Episcopal Bishop of San Joaquin to The Anglican Bishop of San
Joaquin invalid). They also argued in the trial court that
turning churches over to congregations that do not use them

198a
The TEC parties reply that Appellees’ own theory
concedes that the neutral principles analysis
establishes legally-enforceable trusts for EDFW and
its congregations, which leads to the ecclesiastical
question of who may control these religious entities
and puts the case squarely within the exception
Masterson and Episcopal Diocese detailed (i.e.,
ecclesiastical structure determines property dispute).
They further argue that the All Saints properties are
in trust for the TEC-affiliated All Saints based on All
Saints’s governing documents, particularly the All
Saints 2001 bylaws.
(B)

Analysis

We must initially determine whether this is an
associations-law question or an identity question.100
To do so, we must look at the substance and effect of
the TEC parties’ live pleading. In their live pleading,
the TEC parties intermingled a number of claims
would violate the express trust in EDFW’s charters for the
benefit of those who actually use them and that to hold against
them would unjustly enrich a minority group “too small to
impose its will” during the schism.
100

If it is an identity question—i.e., whether Appellees are
“Episcopal” (capital-E) or merely “episcopal” (lowercase-e) as
pertains to “of, being, or suited to a bishop,” see episcopal,
Webster’s 3rd New Int’l Dictionary 764 (3rd ed. 2002)—then the
First Amendment bars our consideration of this religious issue
within the limits set out by U.S. Supreme Court jurisprudence.
Webster’s second definition of “episcopal” has two parts: (a) “of,
advocating, or governed by an episcopacy,” and (b) “of or
relating to the Protestant Episcopal Church or the Episcopal
Church in Scotland.” Id. at 764-65. Webster’s defines
“episcopalian” as (1) an adherent to the episcopal form of
church government and (2) “a member of an episcopal church
(as the Protestant Episcopal Church).” See id. at 765.

199a
seeking legal and equitable relief with others seeking
relief based on doctrine and internal procedures.
Some of their claims, particularly as beneficiaries of
trusts—as set out above—are claims that we may
legitimately consider in our neutral-principles
review. Based on the above, we have determined that
there is a question about who is the “Protestant
Episcopal Church, within the territorial limits of
what is now known as the said Diocese of Dallas, in
the State of Texas,” referred to in the 1947 deed.
With that in mind, we note that our supreme court
has already identified TEC as a hierarchical
organization and has stated that whether TEC’s
appointed bishop can take such actions as forming a
parish, recognizing membership, and authorizing the
establishment of a vestry “are ecclesiastical matters
of church governance” over which the court lacks
jurisdiction. Masterson, 422 S.W.3d at 608. Our
supreme court has also acknowledged that TEC’s
appointed bishop could, “as an ecclesiastical mat,-ter,
determine which faction of believers was recognized
by and was the ‘true’ church loyal to the Diocese and
TEC.” Id. at 610. TEC has recognized the TEC
parties as the Episcopal Diocese of Fort Worth.
And
notwithstanding
any
ecclesiastical
implications, where the internal actions of TEC and
EDFW are not illegal in the nonecclesiastical sense,
fraudulent, against public policy, or a threat to
public health and safety, judicial review of these
actions would be improper. See Westbrook, 231
S.W.3d at 392, 402, 404; Whitmire, 2009 WL
2196126, at *4-5; Harden, 634 S.W.2d at 59-60. One
of the questions before us, then—to the extent we
can consider it—is whether this record reflects that

200a
their actions were illegal, against public policy,
fraudulent, or a threat to public health and safety, or
whether, instead, they were proper actions that were
permissible and binding on their members under
their internal rules. To the limited extent that we
can consider these organizations’ internal actions, we
do not think that the record affirmatively reflects
any activities that were per se illegal in a
nonecclesiastical sense or against public policy,
fraudulent, or against public health and safety.
Although Appellees argue that under state
associations law they were within their rights to
remove the diocese and diocesan property from TEC,
such law applies to the rules used by associations to
regulate, within legal limits, their own internal
affairs, not to the question of an association’s
identity. Compare Juarez, 172 S.W.3d at 279 (private
association’s right to govern its affairs), with Jones,
443 U.S. at 604, 99 S.Ct. at 3026 (stating that if the
interpretation of an ownership instrument requires
resolution of a religious controversy, the court must
defer to resolution of the doctrinal issue by the
authoritative ecclesiastical body), and Westbrook,
231 S.W.3d at 398, 400 (quoting Minton, 297 S.W. at
621-22, to explain why courts must decline
jurisdiction over disputes concerning church
membership and holding that while neutral
principles may define a dispute, their application
may impinge on a church’s ability to manage its
internal affairs). Further, their assertion ignores the
fact that EDFW was part of the larger, hierarchical

201a
association and subject to the larger association’s
constitution and canons until disaffiliation.101
Under associations law, while the members of
EDFW were within their rights to modify their
governing documents however they saw fit as long as
they did so by following their own internal rules,
EDFW was also a member entity of a larger
association, and its actions in modifying its
governing documents directly conflicted with the
larger association’s governing documents. When it
defied the governing strictures of the association of
which it was a member, and particularly when it
declared itself apart from that organization, it lost its
identity as a part of that larger association.102 See
Green, 808 S.W.2d at 550-51 (listing factors courts
consider to identify whether a church is
hierarchical); Templo Ebenezer, Inc., 752 S.W.2d at
198 (distinguishing hierarchical churches from
congregational
churches
based
on
the
congregational-type church’s independence and
ability to “totally control[ ] its own destiny”).
TEC’s dioceses are members of TEC, identified by
the dioceses’ accession to TEC’s governing rules, just
as parishes simultaneously accede both to TEC’s
governing rules and to their governing diocese’s
rules. Individual members of a parish may decide to
101

Representatives from each parish and mission voted in
EDFW’s conventions; EDFW representatives, until 2008, voted
in TEC conventions. TEC set up rules over EDFW, and EDFW
set up rules over parishes, missions, and other congregations,
which were also governed by TEC’s rules until 2008.
102

The obedience or disobedience of TEC to an even larger
body—the Anglican Communion—is not a question before us
and not one that we could address even if it were.

202a
worship elsewhere; a majority of individual members
of a parish or diocese may decide to do so. But when
they leave, they are no longer “Episcopalians” as
identified by TEC; 103 they become something else.
And that something else is not entitled to retain
property if that property, under the terms of the
deed, is held in trust for a TEC-affiliated diocese or
congregation. By rejecting TEC, Appellees also
rejected any claim to items and property affiliated
with TEC or with being a TEC-affiliated diocese to
the extent that the instruments of ownership spell
out an express interest. While a decision to
disaffiliate is an ecclesiastical matter, what happens
to the property is not, unless the affairs have been
ordered so that the ecclesiastical decisions effectively
determine the property issue, see Masterson, 422
S.W.3d at 607, and the macro-level view of the
associations’ relationship is consistent with the
deference we are required to give to the ecclesiastical
determination by a hierarchical church. See id.
(“Civil courts are constitutionally required to accept
as binding the decision of the highest authority of a
hierarchical religious organization to which a dispute
regarding
internal
government
has
been
submitted.”).
The plain language of the 1947 deed sets forth a
trust with the identified beneficiary as “the
Protestant Episcopal Church” as it was located
within the territorial limits of what was formerly the
Diocese of Dallas. As set out above, it was within
those territorial limits that the Diocese of Dallas
103

Under article V of TEC’s constitution, there are only three
ways to create a new diocese, voiding Appellees’ argument that
the TEC-affiliated diocese is a “new” diocese.

203a
gave birth to EDFW. From the various documents in
the record of this case, the “Protestant Episcopal
Church” identified in the deed at the time of the
deed’s making is TEC, thus making TEC’s local Fort
Worth affiliate the beneficiary of the trust. That is,
the trust did not make TEC itself the beneficiary;
rather, by its language, the trust identified the
diocese affiliated with TEC as located within that
territory as the beneficiary. This is most clear when
considering that the 1984 judgment did not actually
touch the property’s equitable title, which was vested
in the Church in a diocese whose name and
geographic
configuration
might
change
as,
anticipated since 1910, the giant Diocese of Dallas
would—and subsequently did—pursuant to its
division into two TEC dioceses. TEC continues to
exist and has identified its affiliate within the
territory. See Episcopal Diocese, 422 S.W.3d at 652
(“[D]etermination of who is or can be a member in
good standing of TEC or a diocese is an ecclesiastical
decision.”).
Plugging these answers into our flow chart leads us
to the conclusion that the TEC-affiliated EDFW
holds the equitable interest under the 1947 deed.104
That is, because there is a question about who is “the
Protestant Episcopal Church, within the territorial
104

Although EDFW’s canon on real property purported to
create a trust on real property acquired by the Corporation “for
the use of a particular parish or mission,” neither the 1947 deed
nor the canon itself identifies All Saints as the beneficiary of
the trust, and there is no indication that the property “was
initially acquired by” All Saints Parish “by purchase, gift or
devise to it” as a parish. Accordingly, no trust was expressly
created for All Saints by EDFW in its governing documents.

204a
limits of what is now known as the Diocese of
Dallas,” we must ask whether TEC is a hierarchical
church. Because our supreme court has already
determined that TEC is a hierarchical church, see
Masterson, 422 S.W.3d at 608, we must defer to
TEC’s identification of its affiliated diocese when no
claim of fraud or collusion for secular purposes, or a
threat to public health and safety, has been raised.




Apply neutral principles:
Legal title in the Corporation;
Equitable title for “the Protestant
Episcopal Church, within the
territorial limits of what is now
known as the Diocese of Dallas.”

There is a question about who is “the
Protestant Episcopal Church, within the
territorial limits of what is now known as
the Diocese of Dallas.”

Per Masterson, 422 S.W.3d at 608, TEC is a
hierarchical church.

205a
TEC has decided who its affiliated diocese is.

There is no claim of fraud or collusion for
secular purposes (or a threat to public
health and safety) pertaining to the parties’
actions.

Defer to TEC’s decision on identity.
As to the 1947 deed presented to us for review, we
cannot say—because we may not delve into questions
of theology—whether the group that left TEC shares
the same beliefs as the original EDFW’s membership
at the time of the deed. We may not consider the
religious beliefs of anyone when making a legal
determination under neutral principles. See Jones,
443 U.S. at 604, 99 S.Ct. at 3026 (stating that when
the deed incorporates religious concepts in the
provisions relating to the ownership of property, if
the interpretation of the ownership instrument
requires the court to resolve a religious controversy,
“then the court must defer to the resolution of the
doctrinal issue by the authoritative ecclesiastical
body”); Presbyterian Church, 393 U.S. at 450, 89
S.Ct. at 606-07 (stating that the First Amendment
forbids civil courts from considering whether general
church’s actions constitute a substantial departure
from the tenets of faith and practice existing at the
time of the local churches’ affiliation); Brown, 116
S.W. at 364-65 (“[T]he church to which the deed was
made still owns the property, and . . . whatever body

206a
is identified as being the church to which the deed
was made must still hold the title.”); cf. Diocese of
Quincy, 2014 IL App (4th) 130901, ¶ 47, 383 Ill.Dec.
634, 14 N.E.3d at 1256 (concluding deference does
not apply when hierarchical structure is not
discernible). All we have done here is apply the
binding precedent of the United States and Texas
Supreme Courts to the plain language of the
instruments of title.
As to the 1950 deed, although EDFW attempted to
impose a trust for All Saints in its governing
documents, per Masterson, based on the plain
language of the deed and the 1984 judgment, the
Corporation holds both legal and equitable title to
this property. See 422 S.W.3d at 610 (“Under neutral
principles of law, the deeds conveying the property to
Good Shepherd corporation ‘expressed no trust nor
limitation upon the title,’ and therefore the
corporation owns the property.”). As such, EDFW
could not declare itself or anyone else as the
beneficiary of property to which it held neither a
legal nor equitable interest.105 See Lipsey, 983 S.W.2d
at 351 n.7; Best Inv. Co., 479 S.W.2d at 763.
We sustain the TEC parties’ subissues 1(a) and 1(b)
and part of subissue 1(c), and we sustain TEC’s sole
stand-alone issue with regard to whether the trial
court erred as a matter of law in its application of
neutral principles by failing to defer to TEC’s

105

All Saints likewise attempted to impose a trust on this
property for EDFW and TEC, but it held no interest that would
have allowed it to do so. Further, it did so through its
incorporated entity, which also held neither a legal nor an
equitable interest. Therefore, its attempted trust also failed.

207a
ecclesiastical determination
constitutes EDFW.
(c)

of

which

entity

Adverse Possession

Appellees argue that 1989’s canon 18 expressly
disclaimed any beneficial interest for TEC and that
because EDFW was a separate legal entity controlled
by its own convention, TEC’s claim for a trust
interest was barred by limitations. But we have
already held that TEC has no trust interest in the
two properties at issue.
With regard to a trust interest by the remaining
TEC parties, until 2008, when Appellees formally
severed ties to TEC, Appellees’ possession of the
properties was not adverse—“hostile,” under a claim
of right inconsistent with another’s claim—to them.
See Tex. Civ. Prac. & Rem. Code Ann. § 16.021(1)
(West 2002). Accordingly, the trial court erred by
granting summary judgment for Appellees on the
two pieces of property at issue if it granted summary
judgment on this basis, and we sustain the TEC
parties’ subissue 1(i).
(d)

Conclusion

To avoid delving into ecclesiastical matters—
considerations forbidden to us by the First
Amendment and U.S. Supreme Court and Texas
Supreme Court precedent—we conclude that the
Corporation holds the property identified in the 1947
deed in trust for the TEC-affiliated EDFW and holds
legal and equitable title to the property identified in
the 1950 deed. We sustain the TEC parties’ subissue
1(e) as it relates to the 1947 deed and their subissue
1(k) as to the 1947 deed and remand this portion of
the case for reconsideration of the other deeds

208a
containing the language “similar” to that identified
above.
3.

Control of the Corporation

We must now determine who controls the
Corporation. 106 As stated by the supreme court in
Masterson, the principles set out in our business
organizations code govern because the Corporation
“was incorporated pursuant to secular Texas
corporation law and Texas law dictates how the
corporation can be operated, including how and when
corporate articles and bylaws can be amended and
the effect of the amendments.” 422 S.W.3d at 613; see
Tex. Bus. Orgs. Code Ann. §§ 1.002(59), 22.001(3);
see also id. § 2.002(1) (West 2012).
a.

The Corporation’s Formation and
Governance
(1)

Articles and Bylaws

As set out in our factual recitation, the
Corporation’s articles of incorporation were filed in
the Texas Secretary of State’s Office on February 28,
1983, and established that the Corporation’s purpose
was “[t]o receive and maintain a fund or funds or
real or personal property, or both, from any source
including all real property acquired for the use of the
Episcopal Diocese of Fort Worth as well as the real
property of all parishes, missions and diocesan
institutions.” [Emphasis added.] Property held by the
Corporation was to be “administered in accordance
with the Constitution and Canons of the Episcopal
Diocese of Fort Worth as they now exist or as they
106

This issue will determine standing for the ownership issue
as to the 1950 deed.

209a
may hereafter be amended.” The Corporation’s
articles also set out that its bylaws would address
the election of its board of directors and their terms
of office.
The 1983 bylaws specified that the Corporation’s
affairs would be “conducted in conformity with the
Constitution and Canons of the Episcopal Church in
the United States of America and the Constitution
and Canons of the Episcopal Diocese of Fort Worth,
as they may be amended or supplemented from time
to time by the General Convention of the Church or
by the Convention of the Diocese,” and that any
conflict between the bylaws and the constitution and
canons would be resolved in favor of the constitution
and canons.
With regard to the number, election, and term of
office of trustees for the “Diocesan Corporation,” the
bylaws provided for EDFW’s bishop to be the
chairman, plus five elected trustees serving five-year
terms, with one trustee to be elected every year at
the annual convention. Each of the elected trustees
would serve until his successor’s election and
qualification or “until his death, resignation,
disqualification or removal.” The bylaws specified
that to be qualified, a trustee “may be either lay
persons in good standing of a parish or mission in the
Diocese of Fort Worth, or members of the Clergy
canonically resident within the Diocese.” Any trustee
at that time could be removed by EDFW’s bishop.
The bylaws also provided for amendment “by the
affirmative vote of a majority of the total number of
Trustees at any regular or special meeting of the
Board, if notice of the proposed change is included in
the notice of such meeting.”

210a
The 2006 bylaw amendments provided that the
Corporation’s affairs
shall be conducted in conformity with the body
now known as the Episcopal Diocese of Fort
Worth’s acknowledgment of and allegiance to
the One, Holy, Catholic and Apostolic Church
of Christ; recognizing the body known as the
Anglican Communion to be a true branch of
said Church; with all rights and authority to
govern the business and affairs of the
Corporation being solely in the board of
trustees (as hereinafter defined, the “Board”)
of the Corporation. [Emphasis added.]
This amendment deleted prior reference to “the
Constitution and Canons of the Episcopal Church in
the United States of America and the Constitution
and Canons of the Episcopal Diocese of Fort Worth.”
A new section was added to facilitate identification
of the EDFW bishop as chairman of the board,
stating, in pertinent part, “The bishop recognized by
the body now known as the Episcopal Diocese of Fort
Worth (the “Bishop”) shall be a trustee and a member
of the Board.” [Emphasis added.]
There was no change to the number, election, or
term of office for trustees other than to clarify that
the trustees, who were elected at a rate of one per
annual meeting, could be either lay persons in good
standing of a parish or mission “in the body now
known as the Episcopal Diocese of Fort Worth” or
members of the clergy “canonically resident within
the geographical region of the body now known as
the Episcopal Diocese of Fort Worth.” [Emphasis
added.] The rest of the sections remained
substantively unchanged except for the section

211a
pertaining to removal of trustees—while the previous
section provided that any trustee could be removed
by the bishop, the amended section stated that any
elected trustee could be removed by a majority of the
remaining members of the board.
The Corporation’s September 2006 amended and
restated articles of incorporation deleted the portion
of the earlier article with regard to real property
acquired for the use of the diocese, parishes,
missions, and diocesan institutions and stated that
the Corporation was organized “[t]o receive and
maintain a fund or funds or real or personal
property, or both, from any source.” The articles were
also amended to delete reference to EDFW’s
constitution and canons with regard to the
administration of the property held by the
Corporation. The articles incorporated the same
provision as the amended bylaws to identify the
Corporation’s chairman.
(2)

Corporate Records

Virden, who had been the Corporation’s secretary
since 1983, averred in his affidavit that he was the
custodian of the Corporation’s business records. He
sponsored excerpts from the Corporation’s official
minutes, which showed that on August 15, 2006, the
board of trustees voted to amend the Corporation’s
articles and bylaws. Between February 1, 2005 and
2014, the record reflects no change in the Board’s
composition of Bishop Iker, Salazar, Patton, Bates,
Barber, and Virden. None of the Corporation’s
minutes reflect the removal or resignation of any
trustee nor the election of any other trustees.
At the August 15, 2006 meeting, all of the
trustees—Bishop Iker, Salazar, Patton, Bates,

212a
Barber, and Virden—were present. Bishop Iker
requested that the minutes “reflect that due notice
was given to all trustees that the meeting would
include consideration and voting on the adoption of
Amended and Restated Articles of Incorporation for
the Corporation . . . and proposed amendments to the
bylaws of the [C]orporation.” Bates moved to adopt
the proposed amendments to the bylaws, Patton
seconded the motion, and the motion passed
unanimously. Patton moved to approve the amended
and restated articles of incorporation, Bates
seconded her motion, and the motion passed
unanimously.
(3)

Other Documents

EDFW’s constitution and canons provided for the
establishment of the Corporation. Article 13 of the
1982 Constitution, “Title to Church Property,”
provides—in pertinent part to the corporations law
question before us—that title to the real property of
all parishes, missions, and diocesan institutions
“acquired for the use of the Church in this Diocese”
before or after the constitution’s adoption, would be
vested in the Corporation and “shall be held subject
to control of the Church in the Episcopal Diocese of
Fort Worth acting by and through” the Corporation.
The Corporation, in turn, would hold real property
acquired “for the use of a particular parish or
mission in trust for the use and benefit of such
parish or mission.” The Corporation could not
convey, lease, or encumber such property without the
consent of the rector, wardens, and vestry of such
parish or mission. If a parish or mission were
dissolved, the property held in trust by the
Corporation “shall revert to said Corporation for the

213a
use and benefit of the Diocese, as such.” The same
article in the 1989, 2006, and 2008 EDFW
constitution and canons reflects no change other
than renumbering. The corresponding canon,
“Corporation of the Episcopal Diocese of Fort Worth,”
established the Corporation’s purposes and
management of its affairs.
b.

Application
(1)

The Parties’ Arguments

The TEC parties argue that either the TEC parties
control the Corporation or Appellees are in breach.
Specifically, they complain that the trial court failed
to apply the portion of the 2006 corporate bylaws
requiring each director to be a member in good
standing of a parish in the diocese when, by
December 5, 2008 (or February 2009 at the latest),
Appellees held no role in the diocese, making them
“disqualified.” They refer us to Byerly v. Camey, 161
S.W.2d 1105, 1111 (Tex. Civ. App.—Fort Worth 1942,
writ ref’d w.o.m.),107 to support this proposition. They
107

In Byerly, we observed that the absence of a corporation’s
directors was insufficient to dissolve the corporation or show
that it had ceased to exist. 161 S.W.2d at 1111 (“[N]o court
would declare the corporation out of existence simply because it
found itself without directors.”). Instead, under general
principles of corporation law, the stockholders either would
have the inherent power to elect new directors or a court could
bring about the selection of new directors “as may be done in
certain cases where a trust estate finds itself without a
trustee.” Id. The appeal was brought from a dismissal, though,
and the observations about corporate law had no bearing on the
case’s ultimate affirmance. Id. at 1106-11. A treatise has
indicated that our 1942 observation was a reflection of the
common law for when a corporation’s charter or bylaws made
no provision for filling a board vacancy in the event of death

214a
further argue that the Corporation is bound by its
fiduciary duties as a trustee to EDFW and its
congregations so, if we find that Appellees
legitimately control the Corporation, then the
Corporation should be removed as trustee, citing
Ditta v. Conte, 298 S.W.3d 187, 192 (Tex. 2009).108
Appellees respond that the articles and bylaws
provide for trustees to be elected one per year at
EDFW’s annual convention and identify their
qualifications. They further respond that courts
cannot just remove trustees for good-faith
disagreements about trust management. To support
these arguments, they refer us to Hill v. Boully, No.
11-08-00289-CV, 2010 WL 2477868, at *4 (Tex.

below the minimum number prescribed by the charter. See 2
Fletcher Cyc. Corp. § 286. By whom directors and officers are to
be nominated, elected or appointed—In case of vacancies on the
board of directors (Sept. 2017).
108

In Ditta, the supreme court held that no statutory
limitations period restricts a court’s discretion to remove a
trustee. 298 S.W.3d at 188, 191 (observing that a removal
decision turns on the special status of the trustee as a fiduciary
and the ongoing relationship between trustee and beneficiary,
not on any particular or discrete act of the trustee). Trustee
removal actions are sometimes premised on the trustee’s prior
behavior but exist to prevent the trustee from engaging in
further behavior that could potentially harm the trust. Id. at
192. As long as potential harm to the trust remains, an action
to remove the trustee should be allowed to proceed. Id. A
trustee may be removed by a court under property code section
113.082 for various reasons. Tex. Prop. Code Ann. § 113.082
(listing as grounds material violation or attempted violation of
the terms of the trust resulting in a material financial loss,
incapacitation or insolvency of the trustee, failure of the trustee
to make an accounting required by law or the trust’s terms,
and, broadly, “other cause for removal”).

215a
App.—Eastland June 17, 2010, no pet.) (mem. op.),109
Kappus v. Kappus, 284 S.W.3d 831, 837 (Tex.
2009),110 section 22.212 of the business organizations
code,111 and section 112.054 of the property code.112
109

Hill involved the construction and application of the
bylaws of Sportsman’s World Ranch Owners’ Association, Inc., a
Texas nonprofit corporation created in connection with a real
estate development, and the declaration of covenants,
conditions, and restrictions associated with the development,
which provided that record property owners were members of
the corporation, with one vote per acre owned. 2010 WL
2477686, at *1-2. The bylaws provided for a board of three
trustees and that any trustee could be removed, with or without
cause, by a majority vote of the corporation’s membership; if a
trustee died, resigned, or was removed, his successor would be
selected by the two remaining board members to serve out his
predecessor’s unexpired term. Id. at *2. The corporation’s
members sought to remove two of the three trustees and asked
the remaining trustee to appoint two new ones; he did so. Id. at
*3. The court held that this complied with the bylaws, which
logically must have envisioned “member” as either singular or
plural, in anticipation of two trustees resigning or dying at the
same time. Id. at *6.
110

In Kappus, the court addressed an alleged conflict of
interest between the independent executor of an estate and a
good-faith dispute over his percentage ownership of estate
assets. 284 S.W.3d at 833. The court held that “conflict of
interest” was not a ground listed in the probate code for
removing an executor and that it would not engraft one onto the
statute; there was no evidence to support the executor’s
removal under the statutory grounds (such as dishonesty or
misappropriation, gross misconduct or gross mismanagement,
or legal incapacity). Id. at 833, 836-38 (observing that a
potential conflict does not equal actual misconduct or make one
mentally or physically impaired to the extent that personal
decision-making is impossible). The court noted that the
fiduciary duties owed by both an executor and a trustee are
similar but that removal of a trustee under property code
section 113.082 gives the trial court more leeway. Id. at 838

216a
(2)

Corporation’s Owner

There is no question that the Corporation became a
nonprofit corporation under Texas law in 1983 and
that its board was allowed to amend its bylaws and
articles. As pointed out by the supreme court in
Masterson,
Absent specific, lawful provisions in a
corporation’s articles of incorporation or
bylaws otherwise, whether and how a
corporation’s directors or those entitled to
control its affairs can change its articles of
incorporation and bylaws are secular, not
ecclesiastical, matters. . . . The current
statutory scheme changes the default rule on
who is authorized to amend the bylaws, but
under neither the former nor the current
statute is an external entity empowered to
(holding that the trial court did not abuse its discretion by not
removing executor as trustee of testamentary trust when,
viewing the same conduct, it was not error to keep him as
independent executor).
111

Business organizations code section 22.212, “Vacancy,”
does not address what happens if there are no qualified
directors left on the board to fill a vacancy. See Tex. Bus. Orgs.
Code Ann. § 22.212(a). Apparently, neither the parties nor our
legislature has considered what might happen if a disaster were
to wipe out an entire corporate board.
112

Property code section 112.054, “Judicial Modification,
Reformation, or Termination of Trusts,” states in subsection (a)
that on the petition of a trustee or a beneficiary, the court may
order, among other things, that the trustee be changed. Tex.
Prop. Code Ann. § 112.054(a). Subsection (b) states that the
court has the discretion to order a modification, termination, or
reformation of the trust “in the manner that conforms as nearly
as possible” to the settlor’s probable intent. Id. § 112.054(b).

217a
amend them absent specific, lawful provision
in the corporate documents.
422 S.W.3d at 609-10 (emphasis added) (referencing
revised civil statutes article 1396-2.09 and business
organizations code section 22.102).
According to the supreme court in Masterson, if
nothing in the corporate documents requires
amendments to be subject to approval of TEC, and
no Texas law precludes such a corporation from
amending its articles and bylaws to exclude
references to TEC, then there is no requirement
under Texas corporations law to otherwise subject
the Corporation to TEC’s attempted interference. See
id. at 613 (“To the contrary, the articles of
incorporation and bylaws specified that qualified
parish members were entitled to elect the vestry and
amend the bylaws”). As nothing in the Corporation’s
documents provides for TEC’s approval and nothing
in our law precludes the amendments to exclude
references to TEC, TEC lacks standing for a claim as
to the Corporation, and to the extent the trial court
granted summary judgment on this basis, it did not
err.
Further, according to the amended bylaws, the
board of directors identifies the “Bishop” for the
Corporation’s purposes. Although this might
otherwise
be
considered
an
“ecclesiastical”
determination, because the bylaws treat the
identification of the “Bishop” as merely the
identification of the Corporation’s chairman of the
board, we cannot say that a title alone, under the
circumstances presented in the bylaws here, requires
“consideration of doctrinal matters,” i.e., “the ritual
and liturgy of worship or the tenets of faith,” see

218a
Jones, 443 U.S. at 602, 99 S.Ct. at 3025, particularly
as the bylaws provide the methodology for the
Corporation’s board to identify the “Bishop” for the
Corporation’s purposes.
However, the bylaws were amended on August 15,
2006, when there was only one “body now known as
the Episcopal Diocese of Fort Worth,” from which lay
and clergy members of the board were drawn and the
bishop identified, and that body was affiliated with
TEC. [Emphasis added.] Over two years later, on
November 15, 2008, Appellees voted to leave TEC.
The schism gave rise to two distinct entities: one
recognized by TEC as the Episcopal Diocese of Fort
Worth and one self-identified by Appellees as such.
The bylaws and articles do not provide a description
of the characteristics of the diocese self-identified by
Appellees, but they do require that elected trustees
be either lay persons in good standing of a parish or
mission, or canonically resident, in the entity
identified by the Corporation’s board as “the body
now known as the Episcopal Diocese of Fort Worth.”
[Emphasis added.] As set out above, it is within
TEC’s province to identify its diocese in the
geographic area identified as Fort Worth and what it
takes to be a member in good standing or canonically
resident therein. Accordingly, on November 15, 2008,
when Appellees voted to disaffiliate, it was TEC’s
prerogative to determine whether the board
members of the diocese formerly associated with
TEC
had
become
disqualified
under
the
Corporation’s bylaws.
We conclude that the TEC-affiliated EDFW
controls appointment to the Corporation’s board and
therefore that the TEC parties identified within the

219a
TEC-affiliated EDFW have standing for these
related complaints. We sustain the TEC parties’
subissue 1(h).
4.

Remaining
Arguments:
Trust, Estoppel

Constructive

Paralleling the complaints in their live pleading,
the TEC parties refer us to TEC canon I.17.8,
“Fiduciary responsibility,” which refers to a TEC
officer’s duty to “well and faithfully” perform the
duties of that office in the Church and to a lay
person’s responsibility to be a communicant in good
standing. They further refer us to the “Declaration of
Conformity” that Bishop Iker and “every dissident
cleric” signed, refer us to prior statements by Bishop
Iker and others in previous cases involving
dissidents that could be read to contradict Bishop
Iker’s nouveau-dissident position here, and complain
that the trial court allowed Bishop Iker et al. “to
renege on their promises, break their commitments,
and breach relationships of trust and confidence as
Church officers.”
The TEC parties base their constructive trust
argument on the basis of a fiduciary duty owed to
them as the diocese and congregations that remained
loyal to TEC, asserting that Appellees “broke a
century’s worth of oaths and commitments” when
they left and took the TEC-affiliated property,
resources, and name. They rely on IRS disclosures
and assertions in other lawsuits as a basis for
estoppel. Based on our resolution above, however, we
need not address these arguments with regard to any
of the TEC parties except for TEC itself.

220a
As to TEC, these arguments misplace the
measuring stick and would require us to delve into
the mysteries of faith, when—on the face of the
documents before us—procedure, not position, at
least with regard to the causes of action that have
not been severed out, determines the outcome of this
portion of the case. Specifically, this case does not
turn on a breach of contract in the usual
transactional sense. Indeed, the TEC parties did not
bring a claim for any such breach of an actual
contract. Instead, their causes of action were for


“Breach of Express Trust,” based on, among other
things,


the November 13, 1982 subscription to TEC’s
constitution and canons;



the June 29, 1984 petition in the friendly
lawsuit between the Diocese of Dallas and
EDFW; and



“the associational benefits of affiliation,”
described as consideration and the basis of a
contractual trust;



“Constructive Trust—Conveyance,” based on the
exchange
of
property
for
accession
as
consideration;



“Constructive Trust—Fiduciary Commitments,”
based on a “confidential relationship with [TEC]
and its subordinate entities” and commitments on
how they would hold the property;



“Estoppel,” which the TEC parties further clarify
is actually “quasi-estoppel,” based on some of the
same actions above;

221a


“Diocesan Trust” and “Congregation-level Trust,”
based on the same express and constructive trust
arguments;



“Promissory Estoppel,” based on “promises to
[TEC] as a condition of” EDFW’s formation,
“receipt of disputed property,” and the same
actions as relied upon in their other claims;



“Conversion,” by unlawfully retaining and
claiming property—sacramental and liturgical
instruments and materials, bank and brokerage
accounts, monies, valuable chattels, personnel
records, financial records, real property records
and deeds, and historical records—“in a way that
departed from the conditions under which it was
received”;



“Texas Business & [Commerce]
using EDFW’s trade names
without permission “and in a
dilute the distinctive quality
trade names and marks”;



“Breach of Fiduciary Duty,” with regard to
Appellees’
“constitutional
and
canonical
obligations to the Diocese, the Church, and the
Episcopal Parishes and Missions,” among other
misfeasance;



“Action to Quiet Title” with regard to the disputed
property on a table attached to their petition; and



“Trespass to Try Title,” with regard to the same
property in their quiet title claim.113

113

Code § 16.29,” for
and trademarks
manner likely to
of the foregoing

They also sought declaratory and injunctive relief and an
accounting.

222a
Of these, conversion, damages for breach of fiduciary
duty, the action to quiet title and for an accounting,
and the claims under business and commerce code
section 16.29 were severed out of the instant case
and remain pending in the original action, cause
number 141-237105-09.
As to the claims not severed out, and as to the relief
sought in the form of a constructive trust, TEC relies
on the idea of a confidential relationship that is more
intimate than any kind generally considered under
our law outside of the divorce context. Just as the
dissolution of a long-term marriage involving
allegations of infidelity and abuse can result in a
messy, unpleasant divorce for all involved, likewise,
the disassociation of a faction within a religious
entity can be (and, as here, has been) equally messy
and unpleasant for everyone involved. Whether, in a
religious or personal sense, Bishop Iker and the rest
are the perfidious oath-breakers characterized by the
TEC parties is not for us to determine because such
questions are inextricably intertwined with First
Amendment implications. To the extent TEC has
rights outside of the ones brought by the other TEC
parties, 114 we have not found a legal or equitable
114

Many of the assertions set out above pertain to
ecclesiastical matters. And much like the end of a fiduciary
duty between marital partners at divorce, when Bishop Iker et
al. excised their faction from TEC, any fiduciary duty
obligations to TEC ended. See, e.g., In re Marriage of Notash,
118 S.W.3d 868, 872 (Tex. App.—Texarkana 2003, no pet.)
(“The fiduciary duty between husband and wife terminates on
divorce.”); Parker v. Parker, 897 S.W.2d 918, 924 (Tex. App.—
Fort Worth 1995, writ denied) (“While marriage may bring
about a fiduciary relationship, such a relationship terminates in
a contested divorce when a husband and wife each have

223a
basis under our neutral principles analysis and the
documents in the record before us for imposing a
constructive or resulting trust. See McConnell &
Goodrich, 58 Ariz. L. Rev. at 354 (“Courts that have
applied ordinary principles of trust law have
generally found that internal church rules and
relationships fail to create either a resulting trust or
a constructive trust.”).
Accordingly, we overrule subissues 1(f) and (g) as
they pertain to TEC; as to the remaining TEC
parties, based on our disposition of the associations,
corporations, and trust questions above, we need not
reach them. See Tex. R. App. P. 47.1.
IV.

Conclusion

Based on all of the above, to the extent that TEC
has standing, we sustain its sole stand-alone issue
with regard to its ecclesiastical determination of
which entity constitutes EDFW but overrule its
portion of the TEC parties’ subissues (f), (g), and (j)
as they pertain to the issues in this appeal.
We sustain all of the TEC parties’ subissues (a), (b),
(h), and (i). As to all of the TEC parties except for
TEC itself, we sustain in part subissues (c), (e), (j),
and (k) and do not reach subissue (d) or the
remaining TEC parties’ subissues (f) and (g). We
independent attorneys and financial advisers.”), disapproved of
on other ground by Formosa Plastics Corp. USA v. Presidio
Eng’rs & Contractors, Inc., 960 S.W.2d 41 (Tex. 1998) (op. on
reh’g). Jane R. Parrot, a financial records custodian, stated in
an affidavit that all loans from TEC prior to the 2008
disaffiliation “were fully repaid before that date.” Parrott also
attached a summary of the financial contributions and receipts
between EDFW and TEC showing that EDFW had contributed
more than $2 million to TEC during the years of affiliation.

224a
thereby hold as follows in response to the questions
directed on remand by the Supreme Court of Texas:
(1) Appellees’ actions, as corporate trustees, were
invalid under Texas law after disaffiliation in
2008.
(2) Under Texas Corporations Law, the articles of
incorporation and bylaws at issue were
amenable to amendment but the plain
language used in 2006—“now known as”—
prior to disaffiliation in 2008 means that the
TEC-affiliated EDFW controls appointment to
the Corporation’s board.
(3) To the extent that the Dennis Canon could be
construed as attempting to create a trust, it
did not impose one on EDFW’s property in
favor of TEC.
(4)Equitable title to the property in the 1947
deed is held for the TEC-affiliated EDFW; the
Corporation holds legal and equitable title to
the property in the 1950 deed.
(5) Based on the above, all of the TEC parties
except for TEC have standing to bring the
above claims that are not barred by
ecclesiastical abstention, and on remand, TEC
may have standing with regard to some of the
severed claims.
Accordingly, we affirm in part and reverse in part
the trial court’s judgment and remand the case to the
trial court for further proceedings not inconsistent
with this opinion.
GABRIEL, J., concurs without opinion.

225a
APPENDIX C
_________
DISTRICT COURT OF TEXAS
141st Judicial District
Tarrant County
_______
THE EPISCOPAL CHURCH, ET AL.,
v.
FRANKLIN SALAZAR, ET AL.,
_________
No. 141-252083-11
_________
July 27, 2015
_________
Final Judgment
_________
John P. Chupp, Judge.
This Final Judgment merges and supersedes the
Court’s orders of March 2, 2015, and June 10, 2015.
In accordance with those orders, and having
considered all the parties’ pleadings, motions,
responses, replies, evidence on file, governing law,
and arguments of counsel, the Court issues this
Final Judgment.
The Court hereby ORDERS that Defendants’
Second Motion for Partial Summary Judgment filed
December 1, 2014, is GRANTED except with respect
to claims relating to All Saints Episcopal Church

226a
(Fort Worth), and Plaintiffs’ Motion for Partial
Summary Judgment filed December 1, 2014, is
DENIED.
The Court further ORDERS that Defendants’
Third Motion for Partial Summary Judgment
Relating to All Saints Episcopal Church filed May 6,
2015, is GRANTED, and Plaintiffs’ Supplemental
Motion for Partial Summary Judgment on Claims
Relating to All Saints’ Episcopal Church filed May 6,
2015, is DENIED.
7. The Defendants hold legal title and control of
the funds and endowments listed on Exhibit 2
attached to this Order, subject to the terms of each.
8. Plaintiffs have no express, implied, or
constructive trust in the properties or funds listed in
the Exhibits attached to this Order.
9. Defendants have not breached any fiduciary
duty to or special relationship with any Plaintiffs.
The Court further ORDERS that the following
listed claims and defenses remain pending in Cause
No. 141-237105-09, and to the extent they are also
pending in this cause are hereby DISMISSED
WITHOUT PREJUDICE and preserved for
litigation in Cause No. 141-237105-09: claims for
attorneys' fees in both causes, Conversion, Texas
Business & Commercial Code § 16.29, damages for
Breach of Fiduciary Duty (as opposed to as a
predicate of constructive trust), Action to Quiet Title,
and for an Accounting.
The Court further ORDERS that Plaintiffs take
nothing, and that Defendants recover costs of court
in this cause.

227a
The Court further ORDERS that Plaintiffs are to
cancel all lis pendens filed as to properties listed on
Exhibits 1 and 2, and surrender possession thereof,
to the Defendants 30 days after this Judgment
becomes final.
The Court further issues a DECLARATORY
JUDGMENT pursuant to Texas Civil Practice and
Remedies Code §§ 37.001, et seq., declaring that:
1. Neutral principles of Texas law govern this
case, and applying such law is not unconstitutionally
retroactive;
2. The Corporation of the Episcopal Diocese of
Fort Worth and Defendant Congregations hold legal
title to all the properties listed on Exhibit 1 attached
to this Order, subject to control by the Corporation
pursuant to the Diocese’s charters.
3. The Episcopal Diocese of Fort Worth and the
Defendant Congregations in union with that Diocese
hold beneficial title to all the properties listed on
Exhibit 1 attached to this Order.
4. Defendants Dr. Franklin Salazar, Jo Ann
Patton, Walter Virden, III, Rod Barber, and Chad
Bates are, and have been since 2005, the properly
elected Trustees of the Corporation for the Episcopal
Diocese of Fort Worth.
5. Defendant Jack Iker is, and has been since
2005, the proper Chairman of the board and one of
the Trustees of the Corporation for the Episcopal
Diocese of Fort Worth.
6. Defendants are the proper representatives of
the Episcopal Diocese of Fort Worth, the Texas
unincorporated association formed in 1982.

228a
The Court further ORDERS the Plaintiffs to desist
from holding themselves out as leaders of the
Diocese or the Corporation when this Order becomes
final and appealable.
All relief not expressly granted herein is denied.
This judgment disposes of all parties and claims in
the above-referenced case, and is a final and
appealable judgment.
Signed this 27 day of July, 2015.
<<signature>>
Judge Presiding

229a
APPENDIX D
_________
SUPREME COURT OF TEXAS
_______
THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,
Petitioners
v.
THE EPISCOPAL CHURCH, ET AL.,
Respondents
_________
No. 11-0265
_________
Argued Oct. 16, 2012
Decided Aug. 30, 2013
Rehearing Denied March 21, 2014
_________
OPINION
_________
Justice JOHNSON delivered the opinion of the
Court, in which Justice HECHT, Justice GREEN,
and Justice GUZMAN joined, and in Parts I, II, III,
and IV–A of which Chief Justice JEFFERSON joined.
This direct appeal involves the same principal issue
we addressed in Masterson v. Diocese of Northwest
Texas, 422 S.W.3d 594, 2013 WL 4608632 (Tex.2013):

230a
what methodology is to be used when Texas courts
decide which faction is entitled to a religious
organization’s property following a split or schism? In
Masterson we held that the methodology referred to
as ‘‘neutral principles of law’’ must be used. But, in
this case the trial court granted summary judgment
on the basis of the ‘‘deference’’ or ‘‘identity’’
methodology, and the record does not warrant
rendition of judgment to either party based on
neutral principles of law.
We reverse and remand to the trial court for
further proceedings.
I.

Background

The Episcopal Church (TEC) is a religious
organization founded in 1789. It has three structural
tiers. The first and highest is the General
Convention. The General Convention consists of
representatives from each diocese and most of TEC’s
bishops. It adopts and amends TEC’s constitution
and canons. The second tier is comprised of regional,
geographically defined dioceses. Dioceses are
governed by their own conventions. Each diocese’s
convention adopts and amends its own constitution
and canons, but must accede to TEC’s constitution
and canons. The third tier is comprised of local
congregations. Local congregations are classified as
parishes, missions, or congregations. In order to be
accepted into union with TEC, missions and
congregations must subscribe to and accede to the
constitutions and canons of both TEC and the
Diocese in which they are located.
In 1982 the Episcopal Diocese of Fort Worth (the
Diocese or Fort Worth Diocese) was formed after the
Episcopal Diocese of Dallas voted to divide into two

231a
parts. The Fort Worth Diocese was organized
‘‘pursuant to the Constitution and Canons of the
Episcopal Church’’ and its convention adopted a
constitution and canons. The Diocese’s constitution
provided that all property acquired for the Church
and the Diocese ‘‘shall be vested in [the] Corporation
of the Episcopal Diocese of Fort Worth.’’ The canons
of the Diocese provided that management of the
affairs of the corporation ‘‘shall be conducted and
administered by a Board of Trustees of five (5)
elected members, all of whom are either Lay persons
in good standing of a parish or mission in the
Diocese, or members of the Clergy canonically
resident in the Diocese.’’ The Bishop of the Diocese
was designated to serve as chair of the board of the
corporation. After adopting its constitution and
canons the Diocese was admitted into union with
TEC at TEC’s December 1982 General Convention.
In February 1983, the Fort Worth Diocese filed
articles of incorporation for the Fort Worth
Corporation. That same year the Dallas and Fort
Worth Dioceses filed suit in Dallas County and
obtained a judgment transferring part of the Dallas
Diocese’s real and personal property to the Fort
Worth Diocese. The 1984 judgment vested legal title
of the transferred property in the Fort Worth
Corporation, except for certain assets for which the
presiding Bishop of the Dallas Diocese and his
successors in office had been designated as trustee.
The judgment transferred the latter assets to the
Bishop of the Fort Worth Diocese and his successor
in office as trustee.
Doctrinal controversy arose within TEC, leading
the Fort Worth Corporation to file amendments to its

232a
articles of incorporation in 2006 to, in part, remove
all references to TEC. The corporate bylaws were
similarly amended. The 2007 and 2008 conventions
of the Fort Worth Diocese voted to withdraw from
TEC, enter into membership with the Anglican
Province of the Southern Cone, and adopt
amendments to the Diocese’s constitution removing
references to TEC.1
TEC responded. It accepted the renunciation of
Jack Iker, Bishop of the Fort Worth Diocese, and
TEC’s Presiding Bishop removed Iker from all
positions of authority within TEC. In February 2009,
TEC’s Presiding Bishop convened a ‘‘special meeting
of Convention’’ for members of the Fort Worth
Diocese who remained loyal to TEC. Those present at
the meeting elected Edwin Gulick as Provisional
Bishop of the Diocese and Chair of the Board of
Trustees for the Fort Worth Corporation. The 2009
Convention also voted to reverse the constitutional
amendments adopted at the 2007 and 2008
Conventions and declared all relevant offices of the
Diocese to be vacant. Bishop Gulick then appointed
replacements to the offices declared vacant, including
the offices of the Trustees of the Corporation. TEC
recognized the persons elected at the 2009
Convention as the duly constituted leadership of the
Diocese.
TEC, Rev. C. Wallis Ohls, who succeeded Bishop
Gulick as Provisional Bishop of the Episcopal Diocese
of Fort Worth, and clergy and lay individuals loyal to
1

Three parishes in the Diocese did not agree with the actions
and withdrew from the Diocese. The Fort Worth Corporation
transferred property used by the withdrawing parishes to them.

233a
TEC (collectively, TEC) filed suit against The
Episcopal Diocese of Fort Worth, the Fort Worth
Corporation, Bishop Iker, the 2006 trustees of the
corporation, and former TEC members (collectively,
the Diocese), seeking title to and possession of the
property held in the name of the Diocese and the Fort
Worth Corporation. 2 Both TEC and the Diocese
moved for summary judgment. A significant
disagreement between the parties was whether the
‘‘deference’’ (also sometimes referred to as the
‘‘identity’’) or ‘‘neutral principles of law’’ methodology
should be applied to resolve the property issue. TEC
contended that pursuant to this Court’s decision in
Brown v. Clark, 102 Tex. 323, 116 S.W. 360 (1909),
the deference methodology has been applied in Texas
for over a century and should continue to be applied.
Under that methodology, it argued, TEC was entitled
to summary judgment because it recognized Bishops
Gulick and Ohls, the leaders elected at the 2009
convention, and the appointees of the Bishops as the
true and continuing Episcopal Diocese. TEC also
contended that even if the neutral principles
methodology were applied, it would be entitled to
summary judgment. The Diocese, on the other hand,
contended that in Brown this Court effectively
applied the neutral principles methodology without
specifically calling it by that name, and Texas courts
have continued to substantively apply that
2

The defendants sought mandamus in the court of appeals
regarding whether the attorneys for TEC had authority to file
suit on behalf of the Corporation and the Diocese. See In re
Salazar, 315 S.W.3d 279 (Tex. App. Fort Worth 2010, orig.
proceeding). The court of appeals conditionally granted
mandamus relief, holding they did not. Id. at 285–86.

234a
methodology to resolve property issues arising when
churches split. Under the neutral principles
methodology, the Diocese argued, it was entitled to
summary judgment affirming its right to the
property. The Diocese also maintained that even if
the deference methodology were applied, it would
still be entitled to summary judgment.3
The trial court agreed with TEC that deference
principles should apply, applied them, and granted
summary judgment for TEC. The Diocese sought
direct appeal to this Court and we noted probable
jurisdiction. We had previously granted the petition
for review in Masterson, and we heard oral
arguments for both cases on the same day.
II.

Jurisdiction

The Government Code provides that ‘‘[a]n appeal
may be taken directly to the supreme court from an
order of a trial court granting or denying an
interlocutory or permanent injunction on the ground
of the constitutionality of a statute of this state.’’
TEX. GOV’T CODE § 22.001(c). The trial court granted
summary judgment and issued injunctions ordering
the defendants to surrender all Diocesan property
and control of the Diocesan Corporation to the
Episcopal Diocese of Fort Worth, and ordering the
3

The Diocese also asserts that we should dismiss certain tort
claims TEC brought against individual defendants. The Diocese
moved for summary judgment to dismiss these claims and
argues that if we conclude the trial court erred in determining
who was entitled to the property at issue, we should render the
judgment the trial court should have rendered and dismiss the
tort claims. Because of our disposition of the issue regarding
who is entitled to the property, we do not address those claims.

235a
defendants to desist from holding themselves out as
leaders of the Diocese. While the trial court order did
not explicitly address the constitutionality of a
statute, ‘‘[t]he effect of the trial court’s order . . . is
what determines this Court’s direct appeal
jurisdiction.’’ Tex. Workers’ Compensation Comm’n v.
Garcia, 817 S.W.2d 60, 61 (Tex.1991).
In its motion for summary judgment TEC argued,
in part, that the actions of the Board of Trustees in
amending the Fort Worth Corporation’s articles of
incorporation were void because the actions went
beyond the authority of the corporation, which was
created and existed as an entity subordinate to a
Diocese of TEC. TEC argued that ‘‘[t]he secular act of
incorporation does not alter the relationship between
a hierarchical church and one of its subordinate
units’’ and that finding otherwise ‘‘would risk First
Amendment implications.’’ The Diocese, on the other
hand, argued that the case was governed by the
Texas Non–Profit Corporation Act 4 and the Texas
Uniform Unincorporated Nonprofit Association Act5;
under those statutes a corporation may amend its
articles of incorporation and bylaws; and TEC had no
power to limit or disregard amendments to the
Corporation’s articles and bylaws.
In its summary judgment order the trial court cited
cases it said recognized ‘‘that a local faction of a
hierarchical church may not avoid the local church’s
obligations to the larger church by amending
corporate documents or otherwise invoking nonprofit
corporations law.’’ The trial court substantively ruled
4

TEX. REV. CIV. STAT.. arts. 1396–1.01 to 1396–11.02

5

TEX. REV. CIV. STAT. art. 1396–70.01

236a
that because the First Amendment to the United
States Constitution deprived it of jurisdiction to
apply Texas nonprofit corporation statutes, applying
them to determine the parties’ rights would violate
Constitutional provisions. The court’s injunction
requiring defendants to surrender control of the Fort
Worth Corporation to the Episcopal Diocese of Fort
Worth was based on that determination. The effect of
the trial court’s order and injunction was a ruling
that the Non–Profit Corporation Act would violate
the First Amendment if it were applied in this case.
Accordingly, we have jurisdiction to address the
merits of the appeal.
III.

“Deference’’ and ‘‘Neutral Principles”

In Masterson we addressed the deference and
neutral principles methodologies for deciding
property issues when religious organizations split.
422 S.W.3d at 647. Without repeating that discussion
in full, suffice it to say that generally courts applying
the deference approach to church property disputes
utilize neutral principles of law to determine where
the religious organization has placed authority to
make decisions about church property. See Jones v.
Wolf, 443 U.S. 595, 603–04, 99 S.Ct. 3020, 61 L.Ed.2d
775 (1979). Once a court has made this
determination, it defers to and enforces the decision
of the religious authority if the dispute has been
decided within that authority structure. Id. But
courts applying the neutral principles methodology
defer to religious entities’ decisions on ecclesiastical
and church polity issues such as who may be
members of the entities and whether to remove a
bishop or pastor, while they decide non-ecclesiastical
issues such as property ownership and whether

237a
trusts exist based on the same neutral principles of
secular law that apply to other entities. See Serbian
E. Orthodox Diocese v. Milivojevich, 426 U.S. 696,
708–09, 96 S.Ct. 2372, 49 L.Ed.2d 151 (1976). We
concluded in Masterson that the neutral principles
methodology was the substantive basis of our
decision in Brown v. Clark, 102 Tex. 323, 116 S.W.
360 (1909), and that Texas courts should utilize that
methodology in determining which faction of a
religious organization is entitled to the property
when the organization splits. 422 S.W.3d at 647. We
also concluded that even though both the deference
and
neutral
principles
methodologies
are
constitutionally permissible, Texas courts should use
only the neutral principles methodology in order to
avoid confusion in deciding this type of controversy.
Id.
IV.
A.

Application

Summary Judgment—Deference

Based on our decision in Masterson, we hold that
the trial court erred by granting summary judgment
to TEC on the basis of deference principles. 422
S.W.3d at 649.
B.

Summary Judgment—Neutral Principles

TEC asserts that application of neutral principles
may violate free-exercise protections if, for example,
the Diocese is permitted to void its commitments to
church laws because the specific formalities of Texas
law governing trusts were not followed or if they are
applied retroactively. See Jones, 443 U.S. at 606, 99
S.Ct. 3020 (noting that the case did not ‘‘involve a
claim that retroactive application of a neutralprinciples approach infringes free exercise rights’’).

238a
But TEC recognizes that whether application of the
neutral principles approach is unconstitutional
depends on how it is applied. See id. at 606, 99 S.Ct.
3020 (‘‘It remains to be determined whether the
Georgia
neutral-principles
analysis
was
constitutionally applied on the facts of this case.’’).
Because neutral principles have yet to be applied in
this case, we cannot determine the constitutionality
of their application. Further, TEC does not argue
that application of procedural matters such as
summary judgment procedures and burdens of proof
are unconstitutional. Thus, we address the
arguments of the parties regarding who is entitled to
summary judgment pursuant to neutral principles
and conclude that neither TEC nor the Diocese is.
See Gilbert Tex. Constr., L.P. v. Underwriters at
Lloyd’s London, 327 S.W.3d 118, 124 (Tex.2010)
(noting that when both parties move for summary
judgment and the trial court grants one motion and
denies the other, appellate courts consider the
summary-judgment
evidence,
determine
all
questions presented, and render the judgment the
trial court should have rendered).
Under the neutral principles methodology,
ownership of disputed property is to be determined
by considering evidence such as deeds to the
properties, terms of the local church charter
(including articles of incorporation and bylaws, if
any), and relevant provisions of governing documents
of the general church. E.g., Jones, 443 U.S. at 602–
03, 99 S.Ct. 3020; see Presbyterian Church v. E.
Heights, 225 Ga. 259, 167 S.E.2d 658, 659–60 (1969).
TEC points out that deeds to the properties involved
were not part of the summary judgment record when

239a
the trial court ruled. Thus, TEC argues, if we do not
sustain the summary judgment in its favor, we
should remand the case so the trial court may
consider the record on the basis of neutral principles
and the four factors referenced in Jones: (1)
governing documents of the general church, (2)
governing documents of the local church entities, (3)
deeds, and (4) state statutes governing church
property. See Jones, 443 U.S. at 602–03, 99 S.Ct.
3020. We agree that the case must be remanded for
further proceedings under neutral principles.
Although deeds to the numerous properties
involved were not before the trial court when it
granted summary judgment, the Diocese asserts that
there is no dispute about its holding title to and
having control of the properties. But TEC disagrees
with that position. And absent agreement or
conclusive proof of title to the individual properties
and the capacities in which the titles were taken, fact
questions exist under neutral principles of law, at a
minimum, about who holds title to each property and
in what capacity. 6 Accordingly, we cannot render
judgment on the basis of neutral principles.
C.

Remand

Because the trial court must apply neutral
principles on remand, for its guidance we address
6

Deeds filed after the trial court granted summary judgment
were dated both before and after the 1984 judgment
transferring properties from the Dallas Diocese. The deeds
dated
after
the
judgment
reflect
various
grantees. Some properties were deeded to the Fort Worth
Corporation or local entities, while others were deeded in trust
to the Corporation, local entities, or various other persons and
entities.

240a
certain arguments made by the parties relating to
that methodology. See Edinburg Hosp. Auth. v.
Trevino, 941 S.W.2d 76, 81 (Tex.1997) (‘‘Although
resolution of this issue is not essential to our
disposition of this case, we address it to provide the
trial court with guidance in the retrial. . . .’’).
We first note that on remand the trial court is not
limited to considering only the four factors listed in
Jones. As we said in Masterson, Jones did not
purport to establish a federal common law of neutral
principles to be applied in this type of case. 422
S.W.3d at 651. Rather, the elements listed in Jones
are illustrative. If it were otherwise and courts were
limited to applying some, but not all, of a state’s
neutral principles of law in resolving nonecclesiastical questions, religious entities would not
receive equal treatment with secular entities. We do
not believe the Supreme Court intended to say or
imply that should be the case.
Next we address the Diocese’s argument that under
neutral principles courts do not defer to TEC’s
decisions about non-ecclesiastical matters such as
the identity of the trustees of the Fort Worth
Corporation. The Diocese argues that under the
Non–Profit Corporation Act the trustees are the 2006
trustees who are named as defendants in this suit.
TEC responds that the trustees are required by the
corporate bylaws to be lay persons in ‘‘good
standing,’’ the Diocese rules require them to be loyal
Episcopalians, and the bylaws provide that trustees
do not serve once they become disqualified. Those
determinations, TEC argues, were made by Bishops
Gulick and Ohls and the 2009 convention, and courts

241a
must defer to those determinations because they are
ecclesiastical decisions.
While we agree that determination of who is or can
be a member in good standing of TEC or a diocese is
an ecclesiastical decision, the decisions by Bishops
Gulick and Ohls and the 2009 convention do not
necessarily determine whether the earlier actions of
the corporate trustees were invalid under Texas law.
The corporation was incorporated pursuant to Texas
corporation law and that law dictates how the
corporation can be operated, including determining
the terms of office of corporate directors, the
circumstances under which articles and bylaws can
be amended, and the effect of the amendments. See
TEX. BUS. ORG.CODE §§ 22.001–.409. We conclude
that this record fails to show that, as a matter of law,
the trustees had been disqualified from serving as
corporate trustees at the relevant times. Nor does the
record conclusively show whether the 2009
appointments to the corporation board by Bishop Ohl
were valid or invalid under Texas law, or whether,
under Texas law, the actions taken by the trustees
appointed by Bishop Ohl in 2009 were valid or
invalid.
Third, the Diocese argues that TEC has no trust
interest in the property. TEC Canon I.7.4, also
known as the Dennis Canon, provides:
All real and personal property held by or for
the benefit of any Parish, Mission or
Congregation is held in trust for this Church
and the Diocese thereof in which such Parish,
Mission or Congregation is located. The
existence of this trust, however, shall in no
way limit the power and authority of the

242a
Parish, Mission or Congregation otherwise
existing over such property so long as the
particular Parish, Mission or Congregation
remains a part of, and subject this Church and
its Constitution and Canons.
The Diocese asserts that this canon does not create a
trust under Texas law, but that even if it does, it was
revocable and the Diocese revoked it when the
Diocesan canons were amended to state:
Property held by the Corporation for the use of
a Parish, Mission or Diocesan School belongs
beneficially to such Parish, Mission or
Diocesan School only. No adverse claim to
such beneficial interest by the Corporation, by
the Diocese, or by The Episcopal Church of the
United States of America is acknowledged, but
rather is expressly denied.
TEC counters that the Dennis Canon creates a trust
because the corporation acceded to it and the Diocese
could not have adopted a canon revoking the trust.
TEC also asserts that the statutes applicable to
charitable trusts apply, but if they do not, a resulting
trust or other trust may be applied here because the
history, organization, and governing documents of
the Church, the Diocese, and the parish support
implication of a trust. The Diocese responds to TEC’s
arguments by referencing Texas statutory law
requiring a trust to be in writing and providing that
trusts are revocable unless they are expressly made
irrevocable. See TEX. PROP.CODE §§ 112.004, .051.
These issues were not addressed by the trial court
because it granted summary judgment based on
deference principles. Upon remand the parties will
have the opportunity to develop the record as

243a
necessary and present these arguments for the trial
court to consider in determining the rights of the
parties according to neutral principles of law. But
regarding the trial court’s consideration of the issue,
we note that in Masterson we addressed the Dennis
Canon and Texas law. There we said that even
assuming a trust was created as to parish property
by the Dennis Canon and the bylaws and actions of a
parish non-profit corporation holding title to the
property, the Dennis Canon ‘‘simply does not contain
language making the trust expressly irrevocable . . .
Even if the Canon could be read to imply the trust
was irrevocable, that is not good enough under Texas
law. [Texas Property Code § 112.051] requires
express terms making it irrevocable.’’ Masterson, 422
S.W.3d at 413.
Finally, as to the argument that application of
neutral principles may pose constitutional questions
if they are retroactively applied, we note that over a
century ago in Brown v. Clark, 102 Tex. 323, 116
S.W. 360 (1909), our analysis and holding
substantively reflected the neutral principles
methodology.
V.

Conclusion

We reverse the judgment of the trial court and
remand the case to that court for further proceedings
consistent with this opinion.
Justice WILLETT filed a dissenting opinion, in
which Justice LEHRMANN, Justice BOYD, and
Justice DEVINE joined.

244a
Justice WILLETT, joined by Justice LEHRMANN,
Justice BOYD and Justice DEVINE, dissenting.
Until 1940, when Texans amended their
constitution, the Supreme Court of Texas lacked any
authority to decide direct appeals (i.e., appeals that
leapfrog the court of appeals and pass directly to this
Court). Four years later, the Legislature first
exercised its new power to permit direct appeals, and
in the sixty-nine years since, this Court has exercised
that jurisdiction sparingly, only forty-three times.
The reason is simply stated: Our direct-appeal
jurisdiction is exceedingly narrow and only proper if
the trial court granted or denied an injunction ‘‘on
the ground of the constitutionality of a statute of this
state.’’1
Today’s direct appeal is directly unappealable. The
trial court’s order nowhere mentions any constitution
or statute, much less the constitutionality of a
statute. Indeed, the trial court stated verbally that it
was not pivoting on the constitutionality of state law.
This dispute undoubtedly has a First Amendment
overlay, but for a direct appeal, constitutionality
must exist not just in the ether, but in the order.
As the trial court did not determine ‘‘the
constitutionality of a statute of this state,’’ its
injunction could hardly be issued ‘‘on the ground of
the constitutionality of a statute of this state.’’
Accordingly, we lack jurisdiction. As I have
underscored before (albeit, like today, in a dissent):

1

TEX. GOV’T CODE § 22.001(c).

245a
Ultimately, it falls to us, the courts, to police
our own jurisdiction. It is a responsibility
rooted in renunciation, a refusal to exert
power over disputes not properly before us.
Rare is a government official who disclaims
power, but liberties are often secured best by
studied inaction rather than hurried action.2
The merits in this case are unquestionably
important—and thankfully they are resolved today
in a companion case3—but here the Court can only
reach them by overreaching. We have no jurisdiction
to decide this case as a direct appeal. I would dismiss
for want of jurisdiction, and because the Court does
otherwise, I respectfully dissent.
I.

Background

The trial court in this case issued two injunctions,
requiring the defendants (now styling themselves as
the Episcopal Diocese of Fort Worth):
1. ‘‘to surrender all Diocesan property, as well
as control of the Diocesan Corporation’’ to
the Episcopal Church and other plaintiffs;
and
2. ‘‘to desist from holding themselves out as
leaders of the Diocese.’’
The court’s reasons for granting the injunctions are
laid out in paragraphs one through three of its order:

2

In re Allcat Claims Serv., L.P., 356 S.W.3d 455, 474
(Tex.2011) (Willett, J., concurring in part and dissenting in
part).
3

Masterson v. Diocese of N.W. Tex., 422 S.W.3d 594, 2013 WL
4608632 (Tex.2013).

246a
1. The Episcopal Church (the ‘‘Church’’) is a
hierarchical church as a matter of law, and
since its formation in 1983 the Episcopal
Diocese of Fort Worth (the ‘‘Diocese’’) has
been a constituent part of the Church.
Because the Church is hierarchical, the
Court follows Texas precedent governing
hierarchical church property disputes,
which holds that in the event of a dispute
among its members, a constituent part of a
hierarchical church consists of those
individuals remaining loyal to the
hierarchical church body. Under the law
articulated by Texas courts, those are the
individuals who remain entitled to the use
and control of the church property.
2. As a further result of the principles set out
by the Supreme Court in Brown and
applied in Texas to hierarchical church
property disputes since 1909, the Court
also declares that, because The Episcopal
Church is hierarchical, all property held by
or for the Diocese may be used only for the
mission of the Church, subject to the
Church’s Constitution and canons.
3. Applying those same cases and their
recognition that a local faction of a
hierarchical church may not avoid the local
church’s obligations to the larger church by
amending
corporate
documents
or
otherwise invoking nonprofit corporations
law, the Court further declares that the
changes made by the Defendants to the

247a
articles and bylaws of the Diocesan
Corporation are ultra vires and void.
(citations omitted).
There are no findings of fact or conclusions of law
attached. The order does not mention the United
States Constitution, the Texas Constitution, or any
particular state statute. The only possible allusion to
a statute is to ‘‘nonprofit corporations law,’’ which
the trial court found the defendants could not
‘‘invok[e]’’ to ‘‘avoid [their] obligations to the larger
church.’’ The trial court’s legal support for this
conclusion was a string citation to a number of cases,
not a citation to any constitutional provision.
What is more, the defendants asked the trial court
to amend the order to specify that the court had held
a statute unconstitutional. The court declined to do
so, orally stating that its ruling was based not on
constitutionality, but rather on its application of
Brown v. Clark4:
I still can’t just craft something to make it go
to the Supreme Court. I mean, it—my
understanding was that the—the trust laws
that you were talking about don’t apply in this
situation because of Brown, not because
they’re not constitutional.
Our decision in Brown relied heavily on Watson v.
Jones. 5 Watson, in turn, ‘‘appl[ied] not the
Constitution but a ‘broad and sound view of the

4

116 S.W. 360 (Tex. 1909).

5

80 U.S. 679, 13 Wall. 679, 20 L.Ed. 666 (1871).

248a
relations of church and state under our system of
laws.’ ’’6
Nonetheless, the defendants filed a direct appeal.
We noted probable jurisdiction and heard oral
argument. But jurisdictional defects do not heal with
age, no matter how novel, pressing, or consequential
the issues at stake or how many judicial and party
resources have been expended. The most
fundamental restraint on judicial power is
jurisdiction—our very authority to decide cases in
the first place— and if we lack it, we lack it.
II.

Discussion

A. History of Direct Appellate Jurisdiction
A 1940 constitutional amendment gave the
Legislature power to grant direct appeals to this
Court.7 Not until 1944, though, did the Legislature
do so.8 The original conferral allowed direct appeals
from injunctions based on two grounds, either (1) the
constitutionality or unconstitutionality of a state
statute, or (2) the validity or invalidity of certain
state administrative orders. 9 Today, the statutory
grant of direct-appeal jurisdiction covers just one
situation: ‘‘[A]n order of a trial court granting or
denying an interlocutory or permanent injunction on

6

Hosanna–Tabor Evangelical Lutheran Church & Sch. v.
E.E.O.C., ––– U.S. ––––, 132 S.Ct. 694, 704, 181 L.Ed.2d 650
(2012) (quoting Watson, 80 U.S. at 727).
7

See R.R. Comm’n of Tex. v. Shell Oil Co., 146 Tex. 286, 206
S.W.2d 235, 238 (1947).
8

Id.

9

Id.

249a
the ground of the constitutionality of a statute of this
state.’’10
I have found only forty-three cases where we have
exercised direct-appeal jurisdiction. That is, while
such jurisdiction has existed for nearly seventy
years, we have exercised it stintingly. In twenty four
of the forty-three cases, our opinion made clear that
the trial court either made a direct holding about a
statute’s constitutionality or issued declaratory relief
that a statute was or was not constitutional. 11 In
10

TEX. GOV’T CODE § 22.001(c). The Constitution still allows
the Legislature to provide for direct appeal from injunctions
based on the validity of administrative orders, however. TEX.
CONST. art. V, § 3–b. But the express constitutional grant of
direct-appeal jurisdiction in Article 5, Section 3–b of the
Constitution is arguably now unnecessary given the broadened
wording of the general jurisdictional provision in Article 5,
Section 3. See Perry v. Del Rio, 67 S.W.3d 85, 98 n. 4 (Tex. 2001)
(Phillips, C.J., dissenting) (‘‘Since 1981, the Court’s appellate
jurisdiction has extended to all civil cases ‘as . . . provided . . .
by law,’ TEX. CONST. art. V, § 3, so that the Legislature could
now provide for direct appeals without a specific constitutional
grant of authority.’’). Accordingly, the Legislature has now
provided for direct appeal from certain trial court rulings that
involve Public Utility Commission financing orders. TEX. UTIL.
CODE § 39.303(f).
11

See Neeley v. West Orange–Cove Consol. Indep. Sch. Dist., 176
S.W.3d 746, 753–54 (Tex. 2005); State v. Hodges, 92 S.W.3d
489, 493 (Tex.2002); FM Props. Operating Co. v. City of Austin,
22 S.W.3d 868, 872 (Tex.2000); Owens Corning v. Carter, 997
S.W.2d 560, 567–68 (Tex.1999); Maple Run at Austin Mun. Util.
Dist. v. Monaghan, 931 S.W.2d 941, 945 (Tex. 1996); Barshop v.
Medina Cnty. Underground Water Conservation Dist., 925
S.W.2d 618, 623, 625 (Tex.1996); Edgewood Indep. Sch. Dist. v.
Meno, 917 S.W.2d 717, 727 (Tex. 1995); Richards v. League of
United Latin Am. Citizens, 868 S.W.2d 306, 308 (Tex.1993);
Tex. Ass’n of Bus. v. Tex. Air Control Bd., 852 S.W.2d 440, 442
(Tex.1993); Orange Cnty. v. Ware, 819 S.W.2d 472, 473

250a
eleven other cases, the trial court’s order clearly
must have been based on constitutional grounds,
either because the opinion implies that only
constitutional issues were raised to the trial court12
or because the trial court granted an injunction
enforcing a statute over constitutional objection, thus
implicitly
upholding
the
statute
against
constitutional attack. 13 In two other cases, we
(Tex.1991); O’Quinn v. State Bar of Tex., 763 S.W.2d 397, 398
(Tex.1988); LeCroy v. Hanlon, 713 S.W.2d 335, 336 (Tex.1986);
Wilson v. Galveston Cnty. Cent. Appraisal Dist., 713 S.W.2d 98,
99 (Tex.1986); Spring Branch Indep. Sch. Dist. v. Stamos, 695
S.W.2d 556, 558 (Tex.1985); Shaw v. Phillips Crane & Rigging
of San Antonio, Inc., 636 S.W.2d 186, 187 (Tex. 1982); Gibson
Distrib. Co. v. Downtown Dev. Ass’n of El Paso, Inc., 572 S.W.2d
334, 334 (Tex.1978); Tex. Antiquities Comm. v. Dallas Cnty.
Cmty. Coll. Dist., 554 S.W.2d 924, 925–27 (Tex.1977) (plurality
opinion); Smith v. Craddick, 471 S.W.2d 375, 375–76
(Tex.1971); State v. Scott, 460 S.W.2d 103, 105 (Tex. 1970);
State v. Spartan’s Indus., Inc., 447 S.W.2d 407, 409 (Tex.1969);
Jordan v. State Bd. of Ins., 160 Tex. 506, 334 S.W.2d 278, 278–
80 (1960); Smith v. Decker, 158 Tex. 416, 312 S.W.2d 632, 633
(1958); Rodriguez v. Gonzales, 148 Tex. 537, 227 S.W.2d 791,
792–93 (1950); Dodgen v. Depuglio, 146 Tex. 538, 209 S.W.2d
588, 591–92 (1948).
12

See Conlen Grain & Mercantile, Inc. v. Tex. Grain Sorghum
Producers Bd., 519 S.W.2d 620, 621–22 (Tex.1975); Robinson v.
Hill, 507 S.W.2d 521, 523 (Tex.1974); Itz v. Penick, 493 S.W.2d
506, 508 (Tex.1973); Smith v. Davis, 426 S.W.2d 827, 829
(Tex.1968); Shepherd v. San Jacinto Junior Coll. Dist., 363
S.W.2d 742, 742–43 (Tex.1962); King v. Carlton Indep. School
Dist., 156 Tex. 365, 295 S.W.2d 408, 409 (1956); Dallas Cnty.
Water Control & Improvement Dist. No. 3 v. City of Dallas, 149
Tex. 362, 233 S.W.2d 291, 292 (1950).
13

See Gibson Prods. Co. v. State, 545 S.W.2d 128, 129
(Tex.1976); Dancetown, U.S.A., Inc. v. State, 439 S.W.2d 333,
334 (Tex.1969); Schlichting v. Tex. State Bd. of Med. Exam’rs,
158 Tex. 279, 310 S.W.2d 557, 558–59 (1958); H. Rouw Co. v.

251a
summarily stated that the trial court granted or
denied the injunction on the ground of a statute’s
constitutionality.14 But in at least six direct-appeal
cases, we did not make it clear why we thought the
trial court’s injunction was based on constitutional
grounds. 15 These cases address jurisdiction rather
cursorily, and only one of the opinions garnered a
dissent on the jurisdictional issue, 16 to which the
majority opinion declined to respond.17
But in the vast majority of cases where we have
exercised direct appeal jurisdiction, it has been
abundantly clear that the trial court issued or denied
an injunction on the ground of a statute’s
constitutionality.
We have also issued at least eleven opinions in
which we dismissed attempted direct appeals for
want of jurisdiction because the statutory test was
not met. 18 We have variously explained that our
Tex. Citrus Comm’n, 151 Tex. 182, 247 S.W.2d 231, 231–32
(1952).
14

See State v. Project Principle, Inc., 724 S.W.2d 387, 389
(Tex.1987); Duncan v. Gabler, 147 Tex. 229, 215 S.W.2d 155,
156–57 (1948).
15

See Del Rio, 67 S.W.3d 85 (majority opinion); Tex. Boll
Weevil Eradication Found., Inc. v. Lewellen, 952 S.W.2d 454
(Tex.1997); Carrollton–Farmers Branch Indep. Sch. Dist. v.
Edgewood Indep. Sch. Dist., 826 S.W.2d 489 (Tex.1992); Ass’n of
Tex. Prof’l Educators v. Kirby, 788 S.W.2d 827 (Tex.1990);
Parker v. Nobles, 496 S.W.2d 921 (Tex.1973); Dobard v. State,
149 Tex. 332, 233 S.W.2d 435 (1950).
16

Del Rio, 67 S.W.3d at 98–100 (Phillips, C.J., dissenting).

17

Id. at 89, 95 (majority opinion).

18

See Tex. Workers’ Comp. Comm’n v. Garcia, 817 S.W.2d 60
(Tex.1991); Querner Truck Lines, Inc. v. State, 652 S.W.2d 367,
368 (Tex. 1983); Mitchell v. Purolator Sec., Inc., 515 S.W.2d 101

252a
direct-appeal jurisdiction ‘‘is a limited one,’’ 19 that
we have been ‘‘strict in applying’’ or have ‘‘strictly
applied’’ direct-appeal jurisdictional requirements,20
and that ‘‘[w]e have strictly construed our direct
appeal jurisdiction.’’21 Therefore, we have held that
to meet the jurisdictional prerequisites, a trial court
must actually ‘‘pass upon the constitutionality of [a]
22
statute,’’
‘‘determin[e]’’
a
statute’s
23
constitutionality,
or ‘‘base its decision’’ on
constitutional grounds.24 Indeed, ‘‘[i]t is not enough
that a question of the constitutionality of a statute
may have been raised in order for our direct appeal
jurisdiction to attach in injunction cases; in addition
the trial court must have made a holding on the
question
based
on
the
grounds
of
the

(Tex.1974); Holmes v. Steger, 161 Tex. 242, 339 S.W.2d 663
(1960); Standard Sec. Serv. Corp. v. King, 161 Tex. 448, 341
S.W.2d 423 (1960); Gardner v. R.R. Comm’n of Tex., 160 Tex.
467, 333 S.W.2d 585 (1960); Bryson v. High Plains
Underground Water Conservation Dist. No. 1, 156 Tex. 405, 297
S.W.2d 117 (1956); Corona v. Garrison, 154 Tex. 124, 274
S.W.2d 541 (1955); Lipscomb v. Flaherty, 153 Tex. 151, 264
S.W.2d 691 (1954); Boston v. Garrison, 152 Tex. 253, 256
S.W.2d 67 (1953); McGraw v. Teichman, 147 Tex. 142, 214
S.W.2d 282 (1948).
19

Gardner, 333 S.W.2d at 588.

20

Querner Truck, 652 S.W.2d at 368; Mitchell, 515 S.W.2d at
103.
21

Garcia, 817 S.W.2d at 61.

22

Corona, 274 S.W.2d at 541–42.

23

King, 341 S.W.2d at 425; Bryson, 297 S.W.2d at 119.

24

Holmes, 339 S.W.2d at 663–64.

253a
constitutionality
statute.’’25

or

unconstitutionality

of

the

A close examination of the eleven cases where we
dismissed for want of jurisdiction reveals strict
adherence to the Legislature’s restricted framework.
For example, we held ‘‘no jurisdiction’’ where the
trial court made the injunction decision based on res
judicata26 or where the trial court was directed to do
so by a writ of prohibition by the court of civil
appeals. 27 That is, because the trial court did not
decide the merits of the constitutional issue, we
lacked direct-appeal jurisdiction.28 Similarly, we held
that we did not have such jurisdiction where the trial
court denied an injunction because the plaintiffs
lacked ‘‘the necessary justiciable interest’’ to sue.29
We even held that we lacked jurisdiction over a
direct appeal of a temporary injunction involving a
‘‘serious question’’ of the constitutionality of a
statute, because the real purpose of the temporary
injunction was merely to preserve the status quo,
and the trial court did not make any holdings finally
determining the constitutional issue.30
B.

Application

Given our long, consistent history of cautiously and
narrowly construing our direct-appeal jurisdiction,
the outcome of this case seems essentially
25

Mitchell, 515 S.W.2d at 103 (emphasis in original).

26

Lipscomb, 264 S.W.2d at 691–92.

27

Gardner, 333 S.W.2d at 589.

28

Corona, 274 S.W.2d at 541–42.

29

Holmes, 339 S.W.2d at 664.

30

Mitchell, 515 S.W.2d at 103–04.

254a
predetermined: We lack jurisdiction. The Legislature
allows parties to skip the court of appeals in one
extraordinarily limited circumstance: where the trial
court’s injunction turned ‘‘on the ground of the
constitutionality of a [state] statute.’’31 The crux and
rationale of the trial court’s order is dispositive.
Here, the trial court did not ‘‘pass upon the
constitutionality of a statute’’ 32 ‘‘determin[e]’’ a
statute’s constitutionality,33 or ‘‘base its decision’’ on
constitutional grounds. 34 While the constitutional
issues may have been raised in the trial court, that
alone is ‘‘not enough.’’35
At most, the trial court’s order only vaguely alludes
to nonprofit-related statutes, and there is certainly
no indication in the order that the trial court was
making a constitutional determination. The trial
court order refers generally to nonprofit law and says
the defendants cannot rely on this law to escape the
deference principle, providing a string citation as
support. But only one of the cases in the string
citation even refers to constitutional principles, and
that case does not hold that only the deference
approach is constitutional.36 Moreover, that case was
decided two years before the United States Supreme

31

TEX. GOV’T CODE § 22.001(c).

32

Corona, 274 S.W.2d at 541–42.

33

King, 341 S.W.2d at 425; Bryson, 297 S.W.2d at 119.

34

Holmes, 339 S.W.2d at 663–64.

35

Mitchell, 515 S.W.2d at 103.

36

See Presbytery of the Covenant v. First Presbyterian Church
of Paris, Inc., 552 S.W.2d 865, 870–71 (Tex.Civ.App.-Texarkana
1977, no writ).

255a
Court clarified in Jones v. Wolf that the ‘‘deference’’
rule is not mandated by the First Amendment.37
A diaphanous hint that a statute was viewed
through a constitutional prism is not enough to
justify exercising our ‘‘limited’’ 38 and ‘‘strictly
construed’’39 direct-appeal jurisdiction. And here, the
trial judge orally eschewed such a ruling, making it
doubly clear that its order was not based on
constitutional grounds. In light of Jones (that the
deference approach is not constitutionally required)
and the trial court’s comments (that it was holding
the statutes inapplicable but not unconstitutional), it
seems an impressive stretch to transform the trial
court’s citation to an ambiguous pre-Jones case into a
constitutional holding striking down state law.
Perhaps the order’s silence and the judge’s
disavowal are beside the point if unconstitutionality
was the inescapable basis for the trial court’s ruling,
as the majority concludes. Indeed, the defendants
contend the order makes no sense unless it turned on
a constitutional holding. As the defendants interpret
the order, the trial court effectively held certain
statutes unconstitutional if applied to local churches
of hierarchical religions. In their Statement of
Jurisdiction, the defendants argue that a court can
only reject statutes like this on ‘‘constitutional
grounds.’’ This assertion rests on the faulty premise
that any time a court deems a statute inapplicable,
it’s because the statute would be unconstitutional if
applied. Not true.
37

443 U.S. 595, 605, 99 S.Ct. 3020, 61 L.Ed.2d 775 (1979).

38

Gardner, 333 S.W.2d at 588.

39

Garcia, 817 S.W.2d at 61.

256a
A court can refuse to apply a statute for various
non-constitutional reasons. For example, if a statute
purports to change long-standing common law, a
court closely examines whether the Legislature truly
intended to supplant the settled rule. 40 The trial
court in this case may have applied (or misapplied)
this kind of analysis, finding that pertinent statutes
did not indicate legislative intent to abandon the
common-law deference principle that we declared in
Brown. Perhaps the trial court looked at a century of
legislative inaction after Brown and took it as
legislative acquiescence. There are other nonconstitutional reasons to deem a statute ineffective,
like the absurdity doctrine.41 So even if a trial court
implicitly invalidates a statute or finds it
inapplicable, its reason for doing so is not necessarily
because the Constitution demands it.
Thus, it cannot be true that by following Brown v.
Clark, the trial court implicitly held that any statute
that might apply under neutral principles is
necessarily unconstitutional if applied to a churchproperty dispute in a hierarchical setting. This
argument is foreclosed by Jones v. Wolf. If states are
free, consistent with the First Amendment, to choose
either approach, then choosing the deference test
cannot equate to an implicit holding that applying
statutes relevant under neutral principles would be
40

See Energy Serv. Co. of Bowie v. Superior Snubbing Servs.,
Inc., 236 S.W.3d 190, 194 (Tex.2007) (‘‘Of course, statutes can
modify common law rules, but before we construe one to do so,
we must look carefully to be sure that was what the Legislature
intended.’’).
41

See, e.g., TGS–NOPEC Geophysical Co. v. Combs, 340
S.W.3d 432, 439 (Tex.2011).

257a
unconstitutional. Nobody can argue that Texas
courts are required to adopt neutral principles—
Jones precludes that argument.
Tellingly, the defendants do not attempt to
analogize this case to any other in which the Court
has exercised direct-appeal jurisdiction. None is
comparable. No constitutional question was
presented (or decided) in the trial court, and none is
presented (or decided) here.42
Undoubtedly, we have already noted probable
jurisdiction, heard argument on the merits, and
committed substantial judicial resources to resolving
42

The Rules of Civil Procedure previously specified that we
could not accept such jurisdiction unless the case presented a
constitutional question to this Court. Lipscomb, 264 S.W.2d at
691–92, quotes the former rule (TEX. R. CIV. P. 499a(b)) as
providing (emphasis added):
An appeal to the Supreme Court directly from such a
trial court may present only the constitutionality or
unconstitutionality of a statute of this State, or the
validity or invalidity of an administrative order issued
by a state board or commission under a statute of this
State, when the same shall have arisen by reason of the
order of a trial court granting or denying an
interlocutory or permanent injunction.
Accordingly, we said that one of the prerequisites for directappeal jurisdiction was that a constitutional ‘‘question is
presented to this Court for decision.’’ Bryson, 297 S.W.2d at
119. Admittedly, our Rules (which have since migrated to the
Rules of Appellate Procedure) no longer specify that a direct
appeal must present an actual constitutional question to this
Court. TEX. R. APP. P. 57; see also Del Rio, 67 S.W.3d at 98–99
(Phillips, C.J., dissenting). But the Legislature’s limited grant
of such jurisdiction has not wavered, and we simply cannot
accept a direct appeal unless a statute has been declared
constitutional or unconstitutional. That did not happen here.

258a
the issues—to say nothing of the effort and cost
expended by the parties. But to assert jurisdiction
simply because it would be inconvenient to do
otherwise betrays the deeply rooted constitutional
principle that our jurisdiction is conferred ultimately
from the People, directly through our Constitution
and indirectly through our elected representatives.
Dismissing this case for want of jurisdiction would
be sure to furrow brows, but there is no more
principled reason to dismiss a case than to decide,
even belatedly, that you lack the power to decide.
Besides, and this is some consolation, the core merits
issue presented—deciding which legal test should
govern church property disputes—is squarely
resolved in today’s companion case,43 so a dismissal
here would not unduly delay authoritative resolution
or work any irreparable harm.
III.

Conclusion

Our characterizations of direct-appeal jurisdiction,
something we have ‘‘strictly construed,’’ are not
ambiguous:




‘‘rare’’
‘‘restricted’’
‘‘very limited’’

In light of this consistent clarity, the Court’s
exercise of jurisdiction has an unfortunate ipse dixit
quality to it. The statutory test for direct-appeal
jurisdiction is whether the trial court made its
decision ‘‘on the ground of the constitutionality of a
[state] statute.’’ A statute, for example, must be
invalidated, not just implicated. Direct-appeal
43

Masterson, 422 S.W.3d 594.

259a
jurisdiction is a rare (as it should be) short-circuiting
of the usual rules, and I respectfully take exception
to broadening the exception.
The power of judicial review—the authority to
declare laws unconstitutional—is a genuinely
stunning one, and one that judges exercise with
surpassing trepidation. Given the stakes, it is
difficult to imagine a judge striking down a
legislative enactment stealthily, using gauzy
language that requires reading between the lines.
This judge certainly didn’t believe he had declared
anything unconstitutional, and he said as much—on
the record and unequivocally.
Today marks the second time this Court has
stretched our direct-appeal jurisdiction beyond its
statutory bounds.44 The objective in both cases has
apparently been to let the Court fast-forward to the
merits of an important case. But an issue’s
importance and our commendable desire to resolve it
swiftly does not give us license to enlarge our
jurisdictional powers by fiat. In language that could
have been written with today’s case in mind, Chief
Justice Phillips wrote in dissent over a decade ago:
Dismissing a case on jurisdictional grounds
may be frustrating to judges and litigants
alike, particularly when issues of statewide
import are involved. . . . However, the
Legislature has chosen to make direct appeal
an uncommon remedy, available only in rare
and specific situations. Regardless of the day’s
exigencies, our highest and only duty is to
respect the appropriate limits of our power. . . .
44

See Del Rio, 67 S.W.3d at 89 (majority opinion).

260a
I fear that our Court has allowed a hard case
to make bad law today.45
The Court may come to rue its decision to assert
direct-appeal jurisdiction in this case. Our rules
seem to mandate our exercise of such jurisdiction in
cases where a permanent injunction is based on the
constitutionality of a statute (because our rules make
direct-appeal jurisdiction discretionary only in
temporary injunction cases).46 Therefore, in addition
to encroaching on the Legislature’s constitutional
prerogative to define our direct-appeal jurisdiction,
the Court’s decision may perversely require this
Court to immediately hear all direct appeals of
permanent injunctions that even vaguely implicate a
statute’s constitutionality.
I would dismiss this case for want of jurisdiction,
and because the Court does otherwise, I respectfully
dissent.

45

Id. at 100 (Phillips, C.J., dissenting).

46

See TEX. R.APP. P. 57.2.

261a
APPENDIX E
_________
IN THE DISTRICT COURT OF
TARRANT COUNTY, TEXAS
141ST DISTRICT COURT
_______
THE EPISCOPAL CHURCH, ET AL.,
v.
FRANKLIN SALAZAR, ET AL.,
_______
CAUSE NO. 141-237105-09
_______
February 8, 2011
_______
AMENDED ORDER ON SUMMARY JUDGMENT
_______
This Amended Order on Summary Judgment
supersedes the Orders on Summary Judgment
signed by the Court on January 21, 2011.
On January 14, 2011, came on for consideration
(1) The Episcopal Church’s Motion for Summary
Judgment, (2) The Local Episcopal Parties’ Amended
Motion for Partial Summary Judgment; and
(3) Defendants’ Motion for Partial Summary,
Judgment. Having considered the pleadings,
motions, any responses and replies, evidence on file
subject to the Court’s rulings on the objections to
that evidence, the governing law, and arguments of
counsel, the Court orders as follows:

262a
The Episcopal Church’s Motion for Summary
Judgment is GRANTED in part.
The Local Episcopal Parties’ Amended Motion for
Partial Summary Judgment is GRANTED in part.
Defendants’ Motion for Partial Summary Judgment
is DENIED.
The Court hereby issues a DECLARATORY
JUDGMENT pursuant to Texas Civil Practice and
Remedies Code §§ 37.001, et seq., declaring that:
1. The Episcopal Church (the “Church”) is a
hierarchical church as a matter of law,
and since its formation in 1983 the Episcopal Diocese
of Fort Worth (the “Diocese”) has been a constituent
part of the Church. Because the Church is
hierarchical, the Court follows Texas precedent
governing hierarchical church property disputes,
which holds that in the event of a dispute among its
members, a constituent part of a hierarchical church
consists of those individuals remaining loyal to the
hierarchical church body. See, e.g. Brown v. Clark,
102 Tex. 323, 116 S.W. 360 (1909); Presbytery of the
Covenant v. First Presbyterian Church, 552 S.W.2d
865 (Tex.Civ.App. - Texarkana 1977, no writ). Under
the law articulated by Texas courts, those are the
individuals who remain entitled to the use and
control of the church property. Id.
2. As a further result of the principles set out by
the Supreme Court in Brown and applied in Texas to
hierarchical church property disputes since 1909, the
Court also declares that, because The Episcopal
Church is hierarchical, all property held by or for the
Diocese may be used only for the mission of the

263a
Church, subject to the Church’s Constitution and
canons.
3. Applying those same cases and their recognition
that a local faction of a hierarchical church may not
avoid the local church’s obligations to the larger
church by amending corporate documents or
otherwise invoking nonprofit corporations law, see
Green v. Westgate Apostolic Church, 808 S.W.2d 547,
552 (Tex. App. — Austin 1991, writ denied);
Presbytery of the Covenant, 552 S.W.2d at 870, 872;
Church of God in Christ, Inc. v. Cawthon, 507 F.2d
599, 600-02 (5th Cir. 1975); Norton v. Green, 304
S.W.2d 420, 423-24 (Tex. Civ. App. — Waco 1957,
writ ref’d n.r.e.), the Court further declares that the
changes made by Defendants to the articles and
bylaws of the Diocesan Corporation are ultra vires
and void.
The Court hereby ORDERS the Defendants to
surrender all Diocesan property, as well as control of
the Diocesan Corporation, to the Diocesan plaintiffs
30 days after Judgment becomes final.
The Court hereby ORDERS the Defendants to
desist from holding themselves out as leaders of the
Diocese when this Order becomes final and
appealable.
Signed this 8 day of February, 2011.
/s/
JUDGE PRESIDING

264a
APPENDIX F
_________
CANONS OF THE GENERAL CONVENTION
_______
Printed for the Convention
1979
_______
*

*

*

TITLE I
CANON 6.
Of Business Methods in Church Affairs
*

*

*

Sec. 3. No Vestry, Trustee, or other Body,
authorized by Civil or Canon law to hold, manage, or
administer real property for any Parish, Mission,
Congregation, or Institution, shall encumber or
alienate the same or any part thereof without the
written consent of the Bishop and Standing
Committee of the Diocese of which the Parish,
Mission, Congregation, or Institution is a part,
except under such regulations as may be prescribed
by Canon of the Diocese.
Sec. 4. All real and personal property held by or for
the benefit of any Parish, Mission or Congregation is
held in trust for this Church and the Diocese thereof
in which such Parish, Mission or Congregation is
located. The existence of this trust, however, shall in
no way limit the power and authority of the Parish,
Mission or Congregation otherwise existing over
such property so long as the particular Parish,
Mission or Congregation remains a part of, and

265a
subject to this Church and its Constitution and
Canons.
*

*

*

TITLE II
CANON 7.
Of Dedicated and Consecrated Churches
*

*

*

Sec. 2. It shall not be lawful for any Vestry,
Trustees, or other body authorized by laws of any
State or Territory to hold property for any Diocese,
Parish or Congregation, to encumber or alienate any
dedicated and consecrated Church or Chapel, or any
Church or Chapel which has been used solely for
Divine Service, belonging to the Parish or
Congregation which they represent, without the
previous consent of the Bishop, acting with the
advice and consent of the Standing Committee of the
Diocese.
*

*

*

